<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, APRIL 27, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:39 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Collins, Murkowski, 
Graham, Blunt, Daines, Moran, Durbin, Reed, Tester, and Udall.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary of Defense

STATEMENT OF HON. ASHTON B. CARTER, SECRETARY
ACCOMPANIED BY MIKE MCCORD, UNDER SECRETARY OF DEFENSE (COMPTROLLER) 
            AND CHIEF FINANCIAL OFFICER


               opening statement of senator thad cochran


    Senator Cochran. The Subcommittee on Defense Appropriations 
of the United States Senate will please come to order.
    We want to welcome the Honorable Ashton B. Carter, 
Secretary of Defense, and General Joseph F. Dunford, Chairman 
of the Joint Chiefs of Staff.
    This is our first review of the 2017 defense budget request 
with these witnesses. The subcommittee understands the 
challenges that we face in developing the content and setting 
the limits of spending for the Department of Defense. We look 
forward to our distinguished panel of witnesses and thank them 
for their distinguished service to the U.S. military and our 
country.
    I will first recognize General Joseph Dunford in his first 
appearance before the Defense Subcommittee and as Chairman of 
the Joint Chiefs of Staff. We are grateful for your leadership 
and appreciate your appearance before our committee.
    We also are pleased to have the Secretary of Defense, 
Ashton Carter, who is a person we've gotten to know pretty well 
over time in his distinguished service.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Good morning, the Subcommittee on Defense Appropriations of the 
United States Senate will please come to order. We want to welcome the 
Honorable Ashton B. Carter, Secretary of Defense, and General Joseph F. 
Dunford, Jr., Chairman of the Joint Chiefs of Staff.
    This is our first review of the fiscal year 2017 defense budget 
request with these witnesses. The Subcommittee understands the 
challenges we face in developing the content of the budget for the 
Department of Defense.
    We look forward to our panel of witnesses and thank them for their 
distinguished service to the U.S. military and our country.
    I am pleased to recognize General Joseph Dunford in his first 
appearance before the defense subcommittee as Chairman of the Joint 
Chiefs of Staff. General Dunford, we are grateful for your leadership 
and appreciate your appearance before our subcommittee.
    I am also pleased to have Secretary of Defense Ashton Carter, who 
is a person we have gotten to know pretty well over time during his 
distinguished service. Mr. Secretary, we ask you to proceed to make any 
opening statements that you think will be help to the committee's 
review of the Department's budget request.

    Senator Cochran. Secretary of Defense, we ask you to 
proceed to make any opening statements that you think would be 
helpful to the committee's review of the Department's budget 
request.

               SUMMARY STATEMENT OF HON. ASHTON B. CARTER

    Secretary Carter. Thank you, Chairman Cochran, 
distinguished members, appreciate your having me here, Chairman 
Dunford, and Under Secretary McCord today, and above all, for 
steadfastly supporting our men and women, military and civilian 
alike, who serve and defend our country all over the world.
    Over the last 2 weeks, I visited many of these troops in 
the Asia-Pacific and the Middle East, and I couldn't be prouder 
of what they are doing to advance our security, stand by our 
friends and allies in those critical regions.
    I am pleased to be here with Chairman Dunford to discuss 
President Obama's 2017 defense budget, which marks a major 
inflection point for the Department of Defense. In this budget, 
we're taking the long view, we have to, because even as we 
fight today's fights, we must also be prepared for what might 
come 10, 20, 30 years down the road.
    Last fall's Bipartisan Budget Act gave us some much needed 
stability after years of gridlock and turbulence, and I want to 
thank you and your colleagues for coming together to help pass 
it. That budget deal set the size of our budget, and with this 
degree of certainty, we focused on its shape, changing that 
shape, in fundamental but carefully considered ways to adjust 
to a new strategic era and to seize opportunities for the 
future.
    Let me describe the strategic assessment that drove our 
budget decisions. First of all, it is evident that America is 
still today the world's foremost leader, partner, and 
underwriter of stability and security in every region of the 
world, as we have been since the end of World War II. That's 
thanks in large part to the unequivocal strength of the United 
States' military, and as we continue to fulfill this enduring 
role, it's also evident that we're entering a new strategic 
era.
    Today's security environment is dramatically different from 
the last 25 years, requiring new ways of investing and 
operating. Five evolving strategic challenges--namely, Russia, 
China, North Korea, Iran, and terrorism--are now driving DOD's 
(Department of Defense) planning and budgeting as reflected in 
this budget.
    I want to focus first on our ongoing fight against 
terrorism, and especially ISIL (Islamic State of Iraq and the 
Levant), which we must and will deal a lasting defeat, most 
immediately in its parent tumor in Iraq and Syria, but also 
where it's metastasizing, and all the while we're continuing to 
help protect our homeland.
    Let me give you a quick snapshot of what we're doing to 
pressure and destroy ISIL's parent tumor in Iraq and Syria, 
beginning with Iraq, which Chairman Dunford and I both visited 
over the course of the last week. There, with our support, 
Iraqi Security Forces (ISF) retook Ramadi; have been reclaiming 
further ground in Anbar Province, mostly recently, the city of 
Heet; and along with Iraqi Kurdish forces, have begun 
operations to isolate and pressure Mosul, with the intent of 
collapsing ISIL's control over that city.
    As we've made this progress, and with momentum in this 
campaign clearly on our side, last week in Baghdad, I announced 
a number of key actions we're taking to continue accelerating 
our campaign against ISIL.
    We'll be placing advisors with the ISF, that is, the Iraqi 
Security Forces, down to the brigade and battalion level to 
help enhance decisionmaking and responsiveness. We'll be 
leveraging Apache attack helicopters to support the ISF's 
ongoing efforts to envelop and then retake Mosul. We'll send 
additional HIMARS (High Mobility Artillery Rocket System) to 
support the Iraqi ground offensive there. We'll provide 
financial assistance to the peshmerga, up to $415 million, to 
bolster one of the most effective fighting forces against ISIL. 
And to do all this, we're going to need to adjust how we use 
our forces already there and also bring in about 215 more of 
them. As in the past, President Obama has approved all these 
actions at my and the Chairman's recommendation.
    We're also doing more in Syria. As the President announced 
earlier this week, we're increasing U.S. forces there sixfold, 
from 50 to 300. This comes after capable and motivated local 
forces supported by our coalition retook the east Syrian town 
of Shaddadi, severing the last major northern artery between 
Raqqa and Mosul, and, therefore, between ISIL and Syria, and 
ISIL and Iraq. These additional 250 personnel, including 
Special Operations Forces, will help expand our ongoing efforts 
to identify, train, and equip capable, motivated local forces 
inside Syria to help isolate and pressure Raqqa. They will also 
serve as a hub to incorporate partner SOF (Special Operations 
Forces) from both longstanding traditional allies and Gulf 
countries to augment our coalition's counter-ISIL efforts 
there.
    I should note, however, that Syria is an area where we need 
your help, particularly in releasing $349 million in Section 
1209 funds to help train and equip our partners on the ground, 
which is a centerpiece of our strategy there.
    All of this comes on top of what we've already done to 
accelerate the military campaign, such as intensifying our air 
campaign based on new intelligence, introducing an 
expeditionary targeting force, and expanding the fight against 
ISIL to every domain, including cyber and space. And as we're 
accelerating our overall counter-ISIL campaign, we're backing 
it up with increased funding for 2017, requesting 50 percent 
more than last year.
    But I have to say much still hinges on the nonmilitary 
aspects of countering ISIL, particularly efforts to address 
political and economic challenges in both Iraq and Syria. 
That's critical to ensuring that ISIL stays defeated.
    Next, two of the other four strategic challenges reflect a 
return in some ways to great-power competition. One is in 
Europe, where we're taking a strong and balanced approach to 
deter Russian aggression. We haven't had to devote a 
significant portion of our defense investment to this 
possibility for a quarter century, but now we do.
    The other challenge is in the Asia-Pacific where China is 
rising, which is fine, but behaving aggressively, which is not. 
There we're continuing our rebalance to the region to maintain 
the stability we've underwritten for the past 70 years, 
enabling so many nations to rise and prosper in this, the 
single most consequential region of the world for America's 
future. And as I saw in India and the Philippines at the 
beginning of my trip, our engagement in the Asia-Pacific is 
deeply appreciated and in high demand by enduring allies and 
new friends alike.
    Meanwhile, two other longstanding challenges pose threats 
in specific regions. North Korea is one, and that's why our 
forces on the Korean Peninsula remain ready, as they say, to 
``fight tonight.''
    The other is in Iran, because while the nuclear accord is a 
good deal for preventing Iran from getting a nuclear weapon, we 
must still deter Iranian aggression and counter Iran's malign 
influence against our regional friends and allies, especially 
Israel, to which we maintain an unwavering and unbreakable 
commitment, and also our Gulf partners, with whom I met last 
week in Abu Dhabi and Riyadh.
    Now, addressing all of these five challenges requires new 
investments on our part, new posture in some regions, and also 
new and enhanced capabilities. For example, we know we must 
deal with these challenges across all domains, not just the 
usual air, land, and sea, but also especially in cyber, 
electronic warfare, and space, where our reliance on technology 
has given us great strengths and great opportunities, but also 
led to vulnerabilities that adversaries are eager to exploit.
    Key to our approach is being able to deter our most 
advanced competitors. We must have and be seen to have the 
ability to ensure that anyone who starts a conflict with us 
will regret having done so.
    In our budget, our capabilities, our readiness, and our 
actions, we must and will be prepared for a high-end enemy, 
what we call full-spectrum. In this context, Russia and China 
are our most stressing competitors, as they have both developed 
and continue to advance military systems that seek to threaten 
our advantages in specific areas. We see them in Crimea, Syria, 
and the South China Sea. In some cases, they're developing 
weapons and ways of war that seek to achieve their objectives 
rapidly before they think we can respond. Because of this, DOD 
has elevated their importance in our planning and budgeting.
    In my written testimony, I have detailed how our budget 
makes critical investments to help us better address these five 
evolving challenges. We're strengthening our deterrence posture 
in Europe by investing $3.4 billion for the European 
Reassurance Initiative, quadruple what we requested last year. 
We're prioritizing readiness and training for our ground 
forces, and reinvigorating the readiness and modernization of 
our fighter aircraft fleet. We're investing in innovative 
capabilities, like the B-21 Long-Range Strike Bomber, micro-
drones, and the Arsenal Plane, as well as advanced munitions of 
all sorts.
    In our Navy, we're emphasizing not just increasing the 
number of ships, which we're doing, but especially their 
lethality, with new weapons and high-end ships, and extending 
our command elite in undersea warfare, with new investments in 
unmanned undersea vehicles, for example, and more submarines 
with a versatile Virginia Payload Module, that triples their 
strike capacity from 12 Tomahawks to 40.
    And we're doing more in cyber, electronic warfare, and 
space, investing in these three domains a combined total of $34 
billion in 2017. Among other things, this will help build our 
cyber mission force, develop Next-Generation Electronic 
Jammers, and prepare for the possibility of a conflict that 
extends into space. In short, DOD will keep ensuring our 
dominance in all domains.
    As we do this, our budget also seizes opportunities for the 
future. That's a responsibility I have to all my successors, to 
ensure the military and the Defense Department they inherit is 
just as strong, if not stronger, than the one I have the 
privilege of leading today. That's why we're making increased 
investments in science and technology, innovating 
operationally, and building new bridges to the amazing American 
innovative system, as we always have, to stay ahead of future 
threats. That's why we're building what I've called the Force 
of the Future, because as good as our technology is, it's 
nothing compared to our people. And in the future, we must 
continue to recruit and retain the very best talent. Competing 
for good people for an all-volunteer force is a critical part 
of our military edge, and everyone should understand this need 
and my commitment to meeting it.
    And because we owe it to America's taxpayers to spend our 
defense dollars as wisely and responsibly as possible, we're 
also pushing for needed reforms across the DOD enterprise, and 
we need your help with all of them, from continuously improving 
acquisition, to further reducing overhead and excess 
infrastructure, to modernizing and simplifying TRICARE, to 
proposing new changes to the Goldwater-Nichols Act, that 
defines much of our institutional organization.
    Let me close on the broader shift reflected in this budget. 
The Defense Department doesn't have the luxury of just one 
opponent or the choice between current fights and future 
fights. We have to do them both, and that's what this budget is 
designed to do, and we need your help to succeed.
    I thank this committee again for supporting the Bipartisan 
Budget Act that set the size of our budget. Our submission 
focuses on the budget shape, making changes that are necessary 
and consequential. We hope you approve it.
    I know some may be looking at the difference between what 
we indicated last year we would be asking for and what the 
budget deal gave us, a net total of about $11 billion less. It 
is provided by the Bipartisan Budget Act out of a total of 
almost $600 billion. But I want to reiterate that we've 
mitigated that difference and that this budget meets our needs. 
And in this context, I have serious concerns with a proposal 
from one of the defense committees to underfund DOD's overseas 
warfighting accounts by $18 billion and spend that money on 
programmatic items we did not request.
    While I don't expect this committee to consider such a 
proposal, I have to say that this approach is deeply troubling 
and flawed for several reasons. It's gambling with warfighting 
money at a time of war, proposing to cut off our troops' 
funding in places like Afghanistan, Iraq, and Syria in the 
middle of the year. It would spend money on things that are not 
DOD's highest unfunded priorities across the joint force. It 
buys force structure without the money to sustain it and keep 
it ready, effectively creating hollow force structure and 
working against our efforts to restore readiness. It doesn't 
address the much bigger strategic risk DOD faces, of $100 
billion in looming automatic cuts. In fact, it's a step in the 
direction of unrattling the Bipartisan Budget Act, which 
provided critical stability that DOD needs now and desires for 
the future, and it's another road to nowhere with uncertain 
chances of ever becoming law, and a high probability of leading 
to more gridlock and another continuing resolution, exactly the 
kind of terrible distraction we've seen for years that 
undercuts stable planning and efficient use of taxpayer 
dollars, dispirits troops and their families, baffles friends, 
and emboldens foes. I cannot support such maneuvers as 
Secretary of Defense.
    The fact is DOD's greatest strategic risk is losing the 
stability we got from the budget deal this year, and having 
uncertainty and sequester return in future years. That's why 
going forward, the biggest budget priority for us strategically 
is Congress averting the return of sequestration, to prevent 
that $100 billion in automatic cuts, so we can maintain 
stability and sustain all these critical investments over time.
    We've seen this done before, and that same support coming 
together is essential today to address the security challenges 
we face and to seize the opportunities within our grasp. As 
long as we work together to do so, I know our national security 
will be on the right path and America's military will continue 
to defend our country and help make a better world for 
generations to come.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Ash B. Carter
                       purpose of this testimony
    Chairman Cochran, Vice Chairman Durbin, Members of the Committee: 
Thank you for inviting me here today, and for your steadfast support 
for the men and women of the Department of Defense (DOD), military and 
civilian alike, who serve and defend our country all over the world. 
I'm pleased to be here with Chairman Dunford to discuss President 
Obama's fiscal year 2017 budget submission for the Defense Department.
    At this time last year, we were all facing the bleak prospect of 
looming budget sequestration, and the damage its return would do to our 
people and our mission. I'm grateful that our country's leaders were 
able to come together last fall to avert that dismal future, and reach 
a budget deal that--after several years of fiscal turmoil and 
reductions--has allowed for greater investment in all our elements of 
national security and strength. That was what I urged since becoming 
Secretary of Defense, including in last year's budget testimony before 
this committee, and given the threat environment we face around the 
world, forging that deal was the responsible thing to do. It allows our 
military personnel and their families to know their future more than 
just 1 year at a time, which they deserve. It lets our defense industry 
partners be more efficient and cutting edge, as we need them to be. 
And, perhaps most importantly, it sends a signal to the world--to 
friends and potential foes alike--of our Nation's strength and resolve.
    The President's budget submission accordingly adheres to that 
budget deal--requesting a total of $582.7 billion for the Defense 
Department in fiscal year 2017, for both the base budget and Overseas 
Contingency Operations (OCO) funds combined. How we plan to invest 
those funds, along with our planned investments for the next 5 years--
as detailed in the customary Future Years Defense Program (FYDP) that's 
included in the President's budget submission--are critical to DOD's 
ability to carry out our mission of national defense with the 
excellence the American people expect of their military, which is today 
the finest fighting force the world has ever known.
    As you know, no one got everything they wanted in the budget deal--
I said last year that we needed to rise above our differences, and I'm 
glad many members of Congress were able to do that--so in budgeting and 
programming for fiscal year 2017, we had to make responsible choices. 
The President's budget submission reflects those choices, and we need 
your support for them. This is particularly true for prudent and 
necessary reforms--some of which the Congress has long denied, in spite 
of the cost to both DOD and to America's taxpayers. Indeed, while DOD 
is grateful to this and the other defense committees for your support 
for the budget deal, it is also the defense committees that in recent 
years have been tying our hands on reform, as I will address later in 
this testimony.
    We should remember, however, that the budget deal only covered 2 
years. Unless Congress addresses the years beyond it and heads off 
sequestration, DOD will face $100 billion in cuts from 2018 to 2021, 
which would introduce unacceptable risks. So Washington will need to 
come together once again--not unlike last year, and 2 years before 
that--to provide stability and protect our national security.
    That's important, because in this budget submission, we're taking 
the long view. We have to, because even as we must fight and win 
today's fights, we must also be prepared to deter and if necessary 
fight and win the fights that might come 10, 20, or 30 years down the 
road. Last fall's budget deal set the size of our budget, and with this 
degree of certainty we focused on changing its shape in fundamental 
ways--making choices and tradeoffs to adjust to a new strategic era, 
and seize opportunities for the future.
          a strategic turning point for the defense department
    Let me now describe the strategic assessment that drove our budget 
decisions. First of all, it's evident that America is still today the 
world's foremost leader, partner, and underwriter of stability and 
security in every region across the globe, as we have been since the 
end of World War II. As we fulfill this enduring role, it's also 
evident that we're entering a new strategic era.
    Context is important here. A few years ago, following over a decade 
when we were focused on large-scale counterinsurgency operations in 
Iraq and Afghanistan, DOD began embarking on a major strategy shift to 
sustain our lead in full-spectrum warfighting. While the basic elements 
of our resulting defense strategy remain valid, it's also been 
abundantly clear to me over the last year that the world has not stood 
still since then--the emergence of ISIL, and the resurgence of Russia, 
being just the most prominent examples.
    This is reflective of a broader strategic transition underway, not 
unlike those we've seen in history following major wars. Today's 
security environment is dramatically different--and more diverse and 
complex in the scope of its challenges--than the one we've been engaged 
with for the last 25 years, and it requires new ways of thinking and 
new ways of acting.
    Accordingly, five evolving challenges are now driving the focus of 
DOD's planning and budgeting.
    Two of these challenges reflect a recognition of--return to, in 
some ways--great power competition. This is something we haven't seen 
for some time, and that requires heightened focus given its potential 
impact on our Nation and the world. The first such challenge is in 
Europe, where we're taking a strong and balanced approach to deter 
Russian aggression--we haven't had to devote a significant portion of 
our defense investment to this possibility for 25 years, and while I 
wish it were otherwise, now we do. The second is in the Asia-Pacific, 
where we haven't faced great power competition since the end of World 
War II, and where China is rising, which is fine, but behaving 
aggressively, which is not. There, we're continuing our rebalance, in 
terms of weight of effort, to maintain the regional stability we've 
underwritten for the past 70 years, allowing so many nations to rise 
and prosper in this, the single most consequential region for America's 
future.
    Meanwhile, two other longstanding challenges pose threats in 
specific regions. One is North Korea, which remains dangerous to both 
us and our allies--that's why our forces on the Korean Peninsula remain 
ready, as they say, to ``fight tonight.'' The other is Iran--because 
while the nuclear accord is a good deal for preventing Iran from 
getting a nuclear weapon, and doesn't limit DOD in any way, we must 
still deter Iranian aggression and counter Iran's malign influence 
against our friends and allies in the region, especially Israel, to 
whom we maintain an unwavering and unbreakable commitment.
    Challenge number five, no less important than the other four, is 
our ongoing fight to counter terrorism, and especially defeat ISIL--
most immediately in its parent tumor in Iraq and Syria, and also where 
it is metastasizing, in Afghanistan, Africa, and elsewhere--at the same 
time as we're protecting our homeland. While ISIL must and will be 
defeated now, in the longer perspective and in our budgeting we must 
also take into account that as destructive power of greater and greater 
magnitude falls into the hands of smaller and smaller groups of people, 
countering terrorists will be a continuing part of the future 
responsibilities of DOD and other national security leaders.
    DOD must and will address all five of these challenges as part of 
its mission to defend this country. Doing so requires some new 
investments on our part, new posture in some regions, and also new and 
enhanced capabilities.
    Key to our approach is being able to deter the most advanced 
adversaries while continuing to fight terrorist groups. This means we 
must have--and be seen to have--the ability to impose unacceptable 
costs on an advanced aggressor that will either dissuade them from 
taking provocative action, or make them deeply regret it if they do. To 
be clear, the U.S. military will be ready to fight very differently 
than we have in Iraq and Afghanistan, or in the rest of the world's 
recent memory. We will be prepared for a high-end enemy--what we call 
full-spectrum. In our budget, our plans, our capabilities, and our 
actions, we must demonstrate to potential foes that if they start a 
war, we are able to win, on our terms. Because a force meant to deter 
conflict can only succeed in deterrence if it can show that it will 
dominate a conflict.
    We have this ability with respect to North Korean and Iranian 
military forces, as well as in executing the military aspects of 
countering terrorists, as we're doing now against ISIL. That won't 
change, even as we know that military power alone cannot prevail 
without capable and motivated local forces to sustain ISIL's defeat--
nor can the United States alone deliver a lasting defeat--against the 
toxic ideology of terrorists like ISIL that have so little regard for 
the lives of fellow human beings.
    In this context, Russia and China are our most stressing 
competitors, as they've both developed and are continuing to advance 
military systems that threaten our advantages in specific areas, and in 
some cases, they're developing weapons and ways of war that seek to 
achieve their objectives in ways they hope would preempt a response by 
the United States. Because of these facts, because the implications of 
any great-power conflict would be so dire for the United States and the 
world, and because of those nations' actions to date--from Ukraine to 
the South China Sea--DOD has elevated their importance in our defense 
planning and budgeting to ensure we maintain our advantages in the 
future.
    While we do not desire conflict with any of these nations--and, to 
be clear, though they pose some similar defense challenges, they are 
very different nations and situations--we also cannot blind ourselves 
to the actions they choose to pursue. That is the responsible course of 
action for the Defense Department. Our military is first and foremost a 
warfighting force, and even as we seek to deter wars, we must also be 
prepared to fight and win them, which is itself a key part of 
deterrence.
    Our military must be balanced with the proper size and capability 
to defeat any attack against U.S. forces and our allies. And because of 
the decisions in this budget, our military will be better prepared for 
both present and future challenges, and better positioned to deter, and 
if necessary fight and win, wars against even the most high-end of 
potential adversaries.
    As this budget addresses those five evolving challenges, it also 
seizes great opportunities--in supporting new and innovative 
operational concepts; in pioneering and dominating technological 
frontiers, including undersea, cyber, space, electronic warfare, and 
other advanced capabilities; in reforming the defense enterprise; and 
in building the force of the future. I will address the investments 
we're making to do so later in this testimony.
     supporting the strength and wellness of today's fighting force
    Before I address how this budget ensures we meet those challenges 
and seize those opportunities, I want to first emphasize our enduring 
commitment to supporting the men, women, and families of the world's 
finest fighting force. Above all, this means exercising the utmost care 
in decisions involving the deployment and employment of our troops. It 
also requires devoting a significant share of our budget every year 
toward supporting the people, military and civilian alike, who execute 
DOD's missions around the world.
    To ensure we have a force that's ready to carry out today's 
missions, this budget invests in the four main things that every 
soldier, sailor, airman, and Marine needs to do their job--the right 
training; the right equipment; the right force size, meaning the right 
number of people alongside them; and the right compensation.
The Right Training
    In fiscal year 2017 and beyond, the budget makes critical 
investments in training throughout the force to rebuild toward full-
spectrum combat readiness and continue recovering from the damage 
caused by sequestration in recent years--though, it's important to 
remember that restoring readiness requires not only sufficient funding, 
but also time. The budget maximizes use of the Army's decisive action 
Combat Training Centers, funding 19 total Army brigade-level training 
rotations. It provides robust funding to sustain the Navy and Marine 
Corps' current training levels and readiness recovery plans for fiscal 
year 2017--optimizing Navy training while maximizing the availability 
of naval forces for global operations, and fully funding the Marine 
Corps' integrated combined arms exercises for all elements of its 
Marine Air-Ground Task Forces. And, because recent operational demands 
like the fight against ISIL have slowed the Air Force's return to full-
spectrum readiness, the budget increases funding--as part of a $1 
billion increase over the FYDP to support Air Force readiness--to 
modernize and expand existing Air Force training ranges and exercises 
here at home, providing pilots and airmen with more realistic training 
opportunities when they're not deployed.
The Right Equipment
    The budget also makes important investments to provide our men and 
women in uniform with functioning, well-maintained equipment so that 
when we send them into the fights of today, they're able to accomplish 
their mission and come home safely. For example, to address the Navy 
and Marine Corps' growing maintenance backlog in tactical aviation, the 
budget funds a 15 percent increase in F-18 depot maintenance capacity, 
and it buys an additional 16 F/A-18 E/F Super Hornet fighter jets 
between now and fiscal year 2018--providing a significant boost to the 
health of the Navy and Marine Corps' 4th-generation fighter aircraft 
fleet so it's ready and capable for today's missions. To help ensure 
the Air Force has enough ready and capable aircraft for both combat 
missions and intelligence, surveillance, and reconnaissance (ISR), the 
budget funds improvements in the avionics and electronic warfare 
systems of legacy fighter and bomber aircraft, and it supports the Air 
Force's `get well plan' for remotely-piloted aircraft.
    The budget also makes critical investments in every domain to 
research, develop, test, evaluate, and procure the right technology and 
equipment our military will need to deter and if necessary fight and 
win full-spectrum conflicts in the future. I will detail those 
investments later in this testimony.
The Right Force Size
    The flexibility provided by last fall's budget deal allowed us to 
maintain DOD's desired targets across the FYDP for end-strength and 
active-reserve mix for our ground forces--without it, sequestration 
likely would have forced further reductions. Therefore, the budget 
stabilizes our total ground force end-strength by the end of fiscal 
year 2018 with an Army of 450,000 active-duty soldiers, 335,000 
soldiers in the Army National Guard, and 195,000 soldiers in the Army 
Reserve--comprising 56 total Army brigade combat teams and associated 
enablers--and a Marine Corps of 182,000 active-duty Marines and 38,500 
Marine reservists. For the Navy, the budget continues to grow the size, 
and importantly the capability, of the battle fleet--providing for 
380,900 active-duty and reserve sailors in fiscal year 2017, and an 
increase from 280 ships at the end of fiscal year 2016 to 308 ships at 
the end of the FYDP. The budget also supports an Air Force of 491,700 
active-duty, reserve, and National Guard airmen--maintaining 55 
tactical fighter squadrons over the next 5 years, and providing 
sufficient manpower to address high operating tempo and shortfalls in 
maintenance specialists for both tactical fighters and remotely-piloted 
aircraft.
The Right Compensation
    In fiscal year 2017, the budget provides $177.9 billion in pay and 
benefits--including healthcare, housing allowances, commissaries, 
retirement, and other benefits--for DOD's 2.1 million military 
personnel and their families. I will discuss DOD's proposed reforms to 
some of these areas later in this testimony. To help make sure DOD is 
competitive for the best talent, the budget includes a department-wide 
pay raise of 1.6 percent in fiscal year 2017. This is an increase above 
fiscal year 2016's pay raise of 1.3 percent.
    It's important to note that of all the cuts we've taken to our 
previously-planned budgets since the Budget Control Act was passed, 
including cuts from sequestration--altogether so far totaling at least 
$800 billion over 10 years--less than 9 percent of those reductions 
came from military compensation proposals. This should make clear that 
we've worked extremely hard to protect our people, and that we do need 
to address some places where savings can be found, such as through 
modernizing and simplifying our military healthcare system, which I 
address later in this testimony.
More Than Military Readiness
    Beyond ensuring the combat readiness of America's military, our 
commitment to the force of today also encompasses what we're doing to 
ensure the dignity of our people. We're putting a priority on 
preventing and eliminating sexual harassment and sexual assault in the 
military, investing $246 million in fiscal year 2017 to help support 
survivors, reduce retaliation for reporting, and eradicate these crimes 
from our ranks--and soon, DOD will deliver to Congress our strategy on 
addressing retaliation, in particular. We're also helping provide 
transition support and advocating for employment opportunities for 
veterans, investing a total of $109 million in fiscal year 2017 so our 
people can make the most of their potential and keep making a 
difference when they complete their service in uniform. And we're 
fostering greater diversity of our force, because our strength depends 
on being open to the widest possible pool of talent that can meet our 
standards--young Americans today are more diverse, open, and tolerant 
than past generations, and if we're going to attract the best among 
them to contribute to our mission, we ourselves have to be more 
diverse, open, and tolerant, too. It's the only way to compete in the 
21st century.
    That's one reason why we're opening all remaining combat positions 
to women, so that we have access to 100 percent of our population for 
every position in the all-volunteer force and every American who can 
meet our exacting standards has the full and equal opportunity to 
contribute to our mission. That said, since the declaration that opens 
all career fields to women is by itself not sufficient for their full 
integration, I've asked the military services to mitigate any concerns 
about combat effectiveness by incorporating my seven guiding 
principles--transparent standards, population size, talent management, 
physical demands and physiological differences, operating abroad, 
conduct and culture, and assessment and adjustment--into their 
implementation plans, which I have reviewed and approved and are now 
being carried out. First and foremost, this means the services will 
continue to apply objective standards for all career fields to ensure 
leaders assign tasks and career fields throughout the force based on 
ability, not gender. This may mean in some cases, equal opportunity may 
not always equate to equal participation. Integration provides equal 
opportunity for men and women who can perform the tasks required; it 
does not guarantee women will fill these roles in any specific number 
or at any set rate, as adherence to a merit-based system must continue 
to be paramount. Also, we must incorporate concrete ways to mitigate 
the potential for higher injury rates among women, and leverage lessons 
learned from Iraq and Afghanistan to address concerns regarding 
operating in areas where there is cultural resistance to working with 
women. We must address attitudes toward team performance through 
education and training, including making clear that sexual assault or 
harassment, hazing, and unprofessional behaviors are never acceptable. 
Our core beliefs in good order, discipline, leadership, and 
accountability are foundational to our success in integration. And it 
is absolutely critical that we embark on integration with a commitment 
to the monitoring, assessment, and in-stride adjustment that enables 
sustainable success.
    Finally, it's important to remember that our commitment to the 
force of today is not limited to those who serve in uniform. In fiscal 
year 2017, it also includes $79.3 billion to support our civilian 
workforce of 718,000 Americans--men and women across the country and 
around the world who do critical jobs like helping repair our ships and 
airplanes, providing logistics support, developing and acquiring weapon 
systems, supporting survivors of sexual assault, and helping care for 
our military's wounded, ill, and injured personnel. The budget includes 
$7.7 billion to support our military families, because they serve too. 
It includes $3.1 billion to help take care of our wounded warriors, to 
whom our commitment is and must remain as strong as ever. And it 
includes our enduring pledge to support the families of the fallen, 
whose loved ones made the ultimate sacrifice on behalf of our country.
                     adjusting to strategic change
    Another significant portion of our budget goes toward DOD's current 
operations all around the world, in every domain, to help defend our 
country, our allies, and our interests. Our budget's investments and 
programming decisions in this area reflect my commitment to helping the 
President address key national security challenges, and my priorities 
for how we must adjust to strategic change--in countering terrorists, 
whether ISIL, al-Qaeda, or others; in taking a strong and balanced 
approach to deter Russian aggression; in operationalizing our rebalance 
to the Asia-Pacific; in deterring Iranian aggression and malign 
influence; in standing alert on the Korean Peninsula; and in addressing 
threats from multiple directions in cyber, space, and electronic 
warfare. We don't have the luxury of choosing between these challenges; 
we must and will address them all, and not only be prepared across the 
spectrum of conflict, but also for the possibility of multiple 
conflicts in overlapping timeframes.
Countering Terrorism
    It is clear that our mission of countering terrorists and other 
violent extremists around the world will be with us for some time. The 
Department of Defense has strong counterterrorism capabilities, and we 
continue to deploy them to protect America.
            Dealing ISIL a Lasting Defeat
    We must and will deal ISIL a lasting defeat, which is why the 
budget provides $7.5 billion in fiscal year 2017 for Operation Inherent 
Resolve. This investment will be critical to continuing to implement 
and accelerate the coalition military campaign plan that the United 
States has developed, that our key allies support, and that focuses on 
three military objectives: One, destroy the ISIL parent tumor in Iraq 
and Syria by attacking its two power centers in Mosul, Iraq and Raqqa, 
Syria; these cities constitute ISIL's military, political, economic and 
ideological centers of gravity, which is why our plan has big arrows 
pointing toward both. Two, combat the emerging metastases of the ISIL 
tumor worldwide wherever they appear. And three, our most important 
mission, which is to protect the homeland.
    To eliminate the parent tumor in Iraq and Syria, DOD is enabling 
local, motivated forces with critical support from a global coalition 
wielding a suite of capabilities-ranging from airstrikes, special 
forces, cyber tools, intelligence, equipment, mobility and logistics, 
training, advice and assistance. It must be local forces who deliver 
ISIL a lasting defeat, because only they can secure and govern the 
territory by building long-term trust within the populations they 
liberate. We can and will enable such local forces, but we cannot 
substitute for them. Accordingly, the budget's investment in the 
counter-ISIL campaign includes $630 million for training and equipping 
the Iraqi Security Forces, and $250 million for enabling Syrian anti-
ISIL forces.
    This is a worthy investment, as we've already started to see our 
investments over the last several months start to pay off. For example, 
it was Iraqi soldiers who took back Ramadi, reversing a loss the Iraqi 
army suffered last spring. Our support to them included advanced 
training, tactics, air support, and the portable bridges that carried 
the Iraqi military across the Euphrates River and into the decisive 
fight. Ramadi, like recent Iraqi gains in Bayji, Tikrit, and Sinjar, 
demonstrates that the approach we are taking is having an effect as 
Iraqis prepare for what will be a tough fight for Mosul. Likewise in 
Syria, local anti-ISIL forces we've enabled with equipment and 
ammunition have had successes in Tal Abyad, al-Hawl, the Tishreen Dam, 
and Shaddadi. It is imperative to keep building on this momentum.
    As we work with our partners to destroy ISIL's parent tumor in Iraq 
and Syria, we must also recognize that ISIL is metastasizing in areas 
like North and West Africa and Afghanistan. Having taken out ISIL's 
leader in Libya in November, we are also now prepared to step up 
pressure on ISIL in Afghanistan to check their ambitions there as well.
    Finally, at the same time that we accelerate our campaign, so must 
every one of our coalition partners--there can be no free riders. 
That's why in Brussels this February I convened the first-ever meeting 
of defense ministers from 27 other countries involved in the military 
coalition to defeat ISIL to follow up after I personally reached out to 
dozens of defense ministers to urge them to consider filling critical 
military and non-military needs in the campaign. And I'm gratified to 
report that coalition members responded to our challenge--and not only 
NATO allies like Canada and the Netherlands, but also Gulf nations, 
including Saudi Arabia and the United Arab Emirates. In sum, nearly 90 
percent of the countries participating in the coalition's military 
campaign have either stepped up their role or committed to do so in the 
coming days. Their decisions to expand air operations, send more 
trainers, provide logistical support, help with reconstruction, or make 
other contributions will all help our coalition intensify the counter-
ISIL campaign and bring about ISIL's lasting defeat.
    None of this changes the fact that our counter-ISIL campaign is a 
hard and complex fight. We have tactical and strategic goals, but they 
will take time--and, as is often said, the enemy gets a vote. For our 
part, we will remain focused, committed, and resilient because this is 
a fight we can, must, and will win, as our efforts to accelerate our 
campaign are already producing real and promising results.
            Ensuring Long-Term Stability in Afghanistan
    After more than a decade of war in Afghanistan, we have to make 
sure our gains there stick, which is why the budget continues to 
support our two missions in Afghanistan--countering terrorism, and 
training, advising, and assisting the Afghan National Defense and 
Security Forces (ANDSF). In support of those two missions, the 
President announced last fall that the United States will maintain a 
continued presence of 9,800 troops through most of 2016 before drawing 
down to 5,500 troops by January 2017. As I told our troops there when I 
visited them this past December, while Afghanistan remains a dynamic 
fight, we are determined to ensure that terrorists--regardless of 
whether they're al-Qaeda or ISIL--never have or find safe haven there 
again.
    The budget provides $41.7 billion in fiscal year 2017 for Operation 
Freedom's Sentinel--including funding to support our posture in U.S. 
Central Command, the full funding of $3.4 billion to support the ANDSF, 
and $1.4 billion to support other coalition partners. Importantly, this 
allows us to continue strengthening and developing the ANDSF's 
aviation, logistics, intelligence, and special operations capabilities, 
with the intent of reducing their dependency on us over time. Also, in 
addition to upholding our commitments to Afghanistan, the Afghan 
people, and other partners, the budget reflects that the United States 
will retain several key locations in 2016 and beyond, including 
facilities in Kabul, Bagram, Jalalabad, and Kandahar. As we do so, the 
United States will support the continuation of the NATO mission in 
Afghanistan in 2016 and beyond, and continue to consult with our NATO 
allies and partners to ensure that the U.S. and NATO missions in 
Afghanistan are mutually supportive.
    Our continued presence in Afghanistan is not only a sensible 
investment to counter threats that exist and stay ahead of those that 
could emerge in this volatile region; it also supports the willing 
partner we have in the government of Afghanistan. It is in the United 
States' interest to help them succeed, for the benefit of their 
security, our security, the region and the world.
            Establishing an Alternative to the Detention Facility at 
                    Guantanamo
    The Defense Department is resolutely committed to responsibly 
closing the detention facility at Guantanamo Bay through the 
establishment of an alternative detention facility. I share the 
President's belief--and the belief of many in Congress--that doing so 
would benefit our national security, which is why DOD will continue to 
transfer Guantanamo detainees to other countries when we have 
substantially mitigated any security risks to the United States.
    Over the last 5 months, we completed transfers for 27 detainees, 
bringing the population to 80. Like every transfer that came before 
them, the decision to transfer these detainees happened only after a 
thorough review by me and other senior security officials of our 
government.
    That said, because many of the remaining detainees currently cannot 
be safely transferred to another country, we need an alternative to 
this detention facility. Therefore, I support the President's plan to 
establish and bring those detainees to an appropriate, secure, 
alternative location in the United States. I appreciate that Congress 
has indicated a willingness to consider such a proposal, and, in 
accordance with the 2016 National Defense Authorization Act, DOD 
delivered that plan to Congress in February. We look forward to working 
with Congress to identify the most appropriate design, legislative 
foundation, and geographic location for future detention and to lift 
the restrictions preventing the responsible closure of the facility at 
Guantanamo.
            Supporting and Maintaining our Counterterrorism 
                    Capabilities
    In addition to the specific funds outlined above, the budget also 
reflects other investments we're making in DOD's posture to ensure we 
can counter terrorism effectively wherever it challenges us. For 
example, the budget sustains our robust funding for U.S. Special 
Operations Command, allocating $10.8 billion in fiscal year 2017. To 
bolster our partners in fighting terrorism, it requests $1 billion for 
our Counterterrorism Partnerships Fund. And it supports the development 
of DOD's transregional counterterrorism strategy, which I'd like to 
outline now.
    The terrorist threat is continually evolving, changing focus, and 
shifting location, requiring us to be flexible, nimble, and far-
reaching in our response. Accordingly, the Defense Department is 
leveraging the existing security infrastructure we've already 
established in Afghanistan, the Middle East, East Africa, and Southern 
Europe, so that we can counter transnational and transregional 
terrorist threats like ISIL and others in a sustainable, durable way 
going forward. From the troops I visited in Moron, Spain last October 
to those I visited in Jalalabad, Afghanistan last December, these 
locations and associated forces in various regions help keep us 
postured to respond to a range of crises, terrorist and other kinds. In 
a practical sense, they enable our crisis response operations, counter-
terror operations, and strikes on high-value targets, and they help us 
act decisively to prevent terrorist group affiliates from becoming as 
great of a threat as the main entities themselves. This transregional 
approach is already giving us the opportunity and capability to react 
swiftly to incidents and threats wherever they occur, and it maximizes 
our opportunities to eliminate targets and leadership. An example of 
this in action was our November strike on Abu Nabil, ISIL's leader in 
Libya, where assets from several locations converged to successfully 
kill him. To help implement this strategy, including in the fight 
against ISIL and its metastasis beyond Iraq and Syria, the budget 
includes an additional $175 million in fiscal year 2017--$9 million to 
help bolster our posture in the Levant, and $166 million to help us 
better address threats in North and West Africa in conjunction with our 
European partners.
    Because the accelerating intensity of our precision air campaign 
against ISIL in Iraq and Syria has been depleting our stocks of some of 
the GPS-guided smart bombs and laser-guided rockets we use against 
terrorists the most, the budget invests $1.8 billion in fiscal year 
2017 to buy over 45,000 more of them. Furthermore, DOD is also 
exploring increasing the production rate of these munitions in our 
industrial base--calling on America's great arsenal of democracy to 
help us and our partners finish the job of defeating ISIL.
    Also, because our remotely-piloted intelligence, surveillance, and 
reconnaissance (ISR) aircraft play an important role in countering 
terrorism, the budget includes $1.2 billion for fiscal year 2017 and 
$4.5 billion over the FYDP to increase the number of around-the-clock 
permissive ISR combat air patrols from 70 today to 90 by the end of 
fiscal year 2018. Using a mix of MQ-9 Reapers, Extended Range Reapers, 
and MQ-1C Advanced Gray Eagles--and comprising 60 patrols from the Air 
Force, 16 from the Army, and 14 that are government-owned and flown by 
contractors for the Air Force and U.S. Special Operations Command--
these investments will be critical as the need for ISR continues to 
increase around the world.
    Finally, because it helps us maintain a larger Air Force fighter 
fleet that can drop more smart bombs in our counter-ISIL air campaign, 
the budget also further defers the A-10 Thunderbolt's final retirement 
until 2022. I saw some of the A-10s that are flying bombing missions 
against ISIL when I was at Incirlik Air Base in Turkey last December, 
and we need the additional payload capacity they can bring to the 
fight. Accordingly, we are also changing the rate at which we will 
phase out the A-10 as we approach 2022, as I will explain later in this 
testimony.
A Strong and Balanced Strategic Approach to Deter Russia
    Despite the progress we've made together since the end of the Cold 
War, Russia has in recent years appeared intent to erode the principled 
international order that has served us, our friends and allies, the 
international community, and also Russia itself so well for so long. In 
Europe, Russia continues to violate the sovereignty of Ukraine, 
Georgia, and Moldova, and actively seeks to intimidate its Baltic 
neighbors. In Syria, Russia has been pouring gasoline on a civil war, 
fueling the very extremism Russia claims to oppose. At sea, in the air, 
in space, and in cyberspace, Russian actors have engaged in challenging 
international norms. And most disturbing, Moscow's nuclear saber-
rattling raises questions about Russia's leaders' commitment to 
strategic stability, their respect for norms against the use of nuclear 
weapons, and whether they respect the profound caution that nuclear-age 
leaders showed with regard to brandishing nuclear weapons.
    To be clear, the United States does not seek a cold, let alone hot 
war with Russia. We do not seek to make Russia an enemy, even as it may 
view us that way. But make no mistake--we will defend our interests, 
our allies, the principled international order, and the positive future 
it affords us all. That's why the United States is taking a strong and 
balanced strategic approach in response to Russia's aggression: 
strengthening both our allies and ourselves, including through 
investments in this budget, while also giving Russia the opportunity, 
if it chooses, to rejoin the international community and work with us 
where our interests align.
    Since Russia began its illegal attempted annexation of Crimea a 
little over 2 years ago, DOD's budgets have made valuable investments 
in reinforcing our NATO allies; for example, contributing to NATO's 
Very High Readiness Joint Task Force, and stepping up our training and 
exercises under Operation Atlantic Resolve. This budget builds on that 
significantly, and breaks new ground by re-envisioning and recommitting 
to deterring--and, if deterrence fails, defeating--any aggression 
against our allies in the future. The 20th century NATO playbook was 
successful in working toward a Europe whole, free and at peace, but the 
same playbook would not be well-matched to the needs of the 21st 
century. Together with our NATO allies, we must write a new playbook, 
which includes preparing to counter new challenges like cyber and 
hybrid warfare, better integrating conventional and nuclear deterrence, 
as well as adjusting our posture and presence to adapt and respond to 
new challenges and new threats.
    To further reinforce our NATO allies and build our deterrence 
posture in the face of Russia's aggression, this budget significantly 
increases funding for our European Reassurance Initiative to make a 
total investment of $3.4 billion for fiscal year 2017--more than 
quadrupling the $789 million that we requested last year--allowing us 
to increase the amount of prepositioned equipment sets in Europe as 
well as the number of U.S. forces, including Reserve forces, rotating 
through Europe to engage with friends and allies. This increase 
supports the persistent rotational presence of an armored brigade 
combat team for 12 months out of the year, which will give us a total 
of three brigade combat teams continuously present in Europe. It 
supports more training and exercises with our European friends and 
allies. It supports more warfighting gear, including forward-stationing 
equipment for an additional armored brigade combat team by the end of 
2017. It supports prepositioning equipment for a division headquarters 
and other enablers in Europe, such that this equipment--along with 
assigned Army airborne and Stryker brigade combat teams and Marine 
Corps heavy vehicles and equipment already in Europe--will allow us to 
rapidly form a highly-capable combined-arms ground force of division-
plus strength that can respond theater-wide if necessary. And it helps 
strengthen our regional air superiority posture--among other things, 
allowing us to keep an additional F-15C tactical fighter squadron based 
in Europe, and also improve airfield infrastructure to enhance 
operations for Air Force fighters and Navy maritime patrol aircraft.
    In addition, the budget reflects how we're doing more, and in more 
ways, with specific NATO allies. Given increased Russian submarine 
activity in the North Atlantic, this includes building toward a 
continuous arc of highly-capable maritime patrol aircraft operating 
over the Greenland-Iceland-United Kingdom gap up to Norway's North 
Cape. It also includes the delivery of Europe's first stealthy F-35 
Joint Strike Fighters to our British allies. And, given Russia's use of 
hybrid warfare--exemplified by the so-called `little green men' in 
Ukraine--the budget supports more rotational presence of U.S. special 
operations forces exercising in Europe.
    The budget also significantly funds important new technologies 
that, when coupled with revised operational concepts, will ensure we 
can deter and if necessary win a high-end conventional fight in an 
anti-access, area-denial environment across all domains and warfighting 
areas--air, land, sea, space, cyberspace, and the electromagnetic 
spectrum. While I will address these areas in greater detail later in 
this posture statement, investments that are most relevant to deterring 
Russia include new unmanned systems, enhanced ground-based air and 
missile defenses, new long-range anti-ship weapons, the long-range 
strike bomber, and also innovation in technologies like the 
electromagnetic railgun, lasers, and new systems for electronic 
warfare, space, and cyberspace. The budget also invests in modernizing 
our nuclear deterrent.
    Consistent with our strong and balanced approach, the door will 
remain open for Russia to reassume the role of respected partner going 
forward. While that would be greatly welcomed by the United States, and 
the Department of Defense, it's up to the Kremlin to decide--first by 
demonstrating a willingness to return to the international community.
Operationalizing the Rebalance to the Asia-Pacific
    The budget also supports operationalizing our rebalance to the 
Asia-Pacific region. In a region home to nearly half the world's 
population and nearly half the global economy, for 70 years the United 
States has helped underwrite a stable security environment that allowed 
the people, economies, and countries in the Asia-Pacific to rise and 
prosper. We fully intend to continue these efforts so that bright 
future can be possible for everyone in this important region.
    Accordingly, the budget helps improve DOD's geographically 
distributed, operationally resilient, and politically sustainable 
posture in the region, through which the United States seeks to 
preserve peace and stability, and maintain our strategic advantage in 
an area that's critically important to America's political, economic, 
and security interests. Investments in the budget reflect how we're 
moving more of our forces to the region--such as 60 percent of our Navy 
and overseas Air Force assets--and also some of our most advanced 
capabilities in and around the region, from F-22 stealth fighter jets 
and other advanced tactical strike aircraft, to P-8A Poseidon maritime 
surveillance aircraft, to our newest surface warfare ships. They also 
reflect how we're developing and implementing new posture initiatives--
in places like Guam, the Northern Marianas, the Philippines, Australia, 
and Singapore, as well as modernizing our existing footprint in Korea 
and Japan--and continuing to strengthen existing partnerships and 
develop new ones, from India to Vietnam. And they reflect our efforts 
to support and strengthen a regional security architecture that 
benefits everyone--from strengthening and modernizing our alliances, to 
bolstering our ties with the Association of Southeast Asian Nations 
(ASEAN), to building the security capabilities of our many friends and 
allies, who increasingly want to do more with us in the region. In 
support of this effort, the budget fully supports our 5-year, $425 
million Southeast Asia Maritime Security Initiative begun in fiscal 
year 2016.
    For this region, as it does with Europe, the budget also 
significantly funds important new technologies to ensure we can deter 
and if necessary win a high-end conventional fight in an anti-access, 
area-denial environment across all domains and warfighting areas--air, 
land, sea, space, cyberspace, and the electromagnetic spectrum. These 
investments--which I will outline later in this testimony--are 
important for ensuring our forces can go anywhere, at any time, and 
succeed in whatever mission we ask of them.
    It's important to remember that America's rebalance has never aimed 
to hold any nation back or push any country down. The United States 
wants every nation to have an opportunity to rise, because it's good 
for the region and good for our collective interests. That includes 
China. As we welcome the growth and prosperity of all Asia-Pacific 
nations, it is clear that the U.S.-China relationship will be complex 
as we continue to balance our competition and cooperation. There are 
opportunities to improve understanding and to reduce risk with China--
for example, we've agreed to four confidence-building agreements, 
including one meant to prevent dangerous air-to-air encounters. But 
there remain areas of concern.
    For one, the United States joins virtually everyone else in the 
region in being deeply concerned about the pace and scope of land 
reclamation in the South China Sea, the prospect of further 
militarization, as well as the potential for these activities to 
increase the risk of miscalculation or conflict among claimant states. 
U.S. military presence in the region is decades-old, has been 
instrumental in upholding the rules-based international system, and has 
laid the foundation for peace and security in the region. Our interest 
is in maintaining freedom of navigation and overflight, full and 
unimpeded lawful commerce, and that disputes are resolved peacefully. 
To accomplish this, we will continue to fly, sail, and operate wherever 
international law allows. We also expect China to uphold President Xi's 
pledge not to pursue militarization in the Spratly Islands of the South 
China Sea.
    Also, we are closely watching the long-term, comprehensive military 
modernization program that China, as well as other countries, continues 
to pursue. While there is no question that the United States retains a 
decisive military edge in the Asia-Pacific today, China is investing in 
capabilities to counter third-party--including the United States--
intervention during a crisis or conflict. These capabilities include 
ballistic and cruise missiles of increasingly greater range and 
accuracy, counter-space and offensive cyber capabilities, and 
electronic warfare systems. To maintain a lasting competitive 
advantage, DOD is taking prudent steps to preserve and enhance 
deterrence for the long term. The budget reflects this, including with 
investments to continue adapting our forces, posture, operations, and 
capabilities to deter aggression, defend our allies, and sustain our 
military edge in the Asia-Pacific.
Deterring North Korea
    The budget also supports investments necessary to deter North 
Korean provocation and aggression, ensure our forces on the Korean 
Peninsula remain ready and capable to `fight tonight' if necessary, and 
defend against threats emanating from North Korea against the United 
States and our allies. This includes threats posed by North Korea's 
nuclear and missile
    programs, against which DOD is fully capable of defending the U.S. 
homeland. Our position has been, and remains, that North Korea must 
abide by its international obligation to abandon its nuclear and 
missile programs and stop its provocative behavior.
    North Korea's nuclear test on January 6th and its ballistic missile 
launch on February 7th were highly provocative acts that undermine 
peace and stability on the Korean Peninsula and in the region. The 
United States condemns these violations of U.N. Security Council 
resolutions and again calls on North Korea to abide by its 
international obligations and commitments. We are monitoring and 
continuing to assess the situation in close coordination with our 
regional partners.
    DOD remains fully capable of fulfilling U.S. treaty commitments to 
our allies in the event of a North Korean attack, and we're working 
with our Republic of Korea allies to develop a comprehensive set of 
alliance capabilities to counter the growing North Korean ballistic 
missile threat. I spoke with my South Korean counterpart shortly after 
the nuclear test, and reiterated our commitments as strong and 
steadfast allies. Also, a few hours after the ballistic missile launch, 
the United States and the Republic of Korea jointly announced the start 
of formal consultations to discuss the feasibility of deploying a 
Terminal High-Altitude Area Defense (THAAD) system to the Korean 
Peninsula at the earliest date.
Checking Iran's Malign Influence while Strengthening Regional Friends 
        and Allies
    The Middle East presents a kaleidoscope of challenges, but there, 
as everywhere, DOD's budget--and accordingly our actions and strong 
military posture--is guided by our North Star of what's in America's 
interests. Defeating ISIL in Iraq and Syria, which I discussed earlier, 
is of course one of those interests, but amid this region's complexity 
and uncertainty, we also have other interests of great importance, 
which are to deter aggression; to bolster the security of our friends 
and allies, especially Israel; to ensure freedom of navigation in the 
Gulf; and to check Iran's malign influence even as we monitor the 
implementation of the Joint Comprehensive Plan of Action. That's why 
DOD maintains tens of thousands of American personnel ashore and afloat 
in the region, along with our most sophisticated ground, maritime, and 
air and ballistic missile defense assets.
    While the Joint Comprehensive Plan of Action places significant 
limitations on Iran that will effectively cut off its pathways to the 
fissile material for a nuclear bomb, it does not limit in any way what 
DOD can and will do to pursue our defense strategy in the region. It 
places no limits on our forces, our partnerships and alliances, our 
intensive and ongoing security cooperation, or on our development and 
fielding of new military capabilities--capabilities we will continue to 
advance in order to provide all options, as the President has directed, 
should Iran walk away from its commitments under this deal. So if Iran 
were to commit aggression, our robust force posture ensures we can 
immediately respond and rapidly surge an overwhelming array of forces 
into the region, leveraging our most advanced capabilities married with 
sophisticated munitions that put no target out of reach.
    This budget invests in maintaining those abilities going forward, 
which is important, because Iran and its proxies will still present 
security challenges. Iran supports Assad in Syria, backs Hezbollah in 
Lebanon, and is contributing to disorder in Yemen, while still 
directing hostility and violence to our closest ally in the region, 
Israel. To continue to meet our commitments and enhance our cooperation 
with our friends and allies in the region, especially Israel, the 
budget makes critical investments--including $146 million to support 
Israel in fiscal year 2017. This reflects our unshakeable commitment to 
Israel and its security, with funding for Iron Dome, David's Sling, 
Arrow, and other cooperative defense programs--not only ensuring that 
Israel can defend itself, but also preserving and enhancing Israel's 
qualitative military edge, which is a cornerstone of our defense 
relationship.
    Meanwhile, with critical investments in other areas, the budget 
enables DOD to continue to advance our preparations, posture, 
partnerships, and planning to preserve the President's options for any 
contingency. It strengthens the regional security architecture in a way 
that blunts Iran's ability to coerce its neighbors. And it helps us 
stay ahead of the risks posed by Iran's ballistic missiles, naval 
forces, cyber capabilities, and support for terrorists and others in 
the region.
Addressing Threats in Cyber, Space, and Electronic Warfare
    Even as we make adjustments in our budget to address the five 
evolving challenges posed by Russia, China, Iran, North Korea, and 
terrorist groups like ISIL and al-Qaeda, we are also making adjustments 
to address emerging and increasing threats that transcend individual 
nations and organizations. That's because, as we confront these five 
challenges, we know we'll have to deal with them across all domains--
and not just the usual air, land, and sea, but also particularly in the 
areas of cyber, space, and electronic warfare, where our reliance on 
technology has given us great strengths, but also led to 
vulnerabilities that potential adversaries are eager to exploit.
    As I made clear when I released DOD's new cyber strategy last 
April, we have three missions in cyberspace--first and foremost, to 
defend our networks, systems, and information; second, to help defend 
the Nation and our interests from cyberattacks of significant 
consequence, working with other departments and branches of government; 
and third, to provide options that can augment our other military 
systems. Given the increasing severity and sophistication of the 
threats and challenges we're seeing in cyberspace--ranging from ISIL's 
pervasive online presence to the data breaches at the Office of 
Personnel Management--the budget puts a priority on funding our cyber 
strategy, investing a total of $6.7 billion in fiscal year 2017 and 
$34.6 billion over the FYDP. This is a $900 million increase over last 
year's budget. While these funds will help us continue to develop, 
train, and equip our growing Cyber Mission Force, and also make new 
technological investments to strengthen our cyber defenses and 
capabilities--both of which I address later in this testimony--the 
budget also reflects our efforts to make a fundamental shift toward a 
culture of accountability in cyberspace, from instituting a DOD-wide 
cybersecurity scorecard to monitor our progress to increasing 
individual knowledge about practical ways to defend against cyber 
intrusions. Our people understandably hold themselves to very high 
standards when it comes to caring for, attending to, using, and being 
accountable for the weapons they carry into battle, and we must do the 
same when it comes to interacting with our networks and cyber 
capabilities--not only among our cyber warriors and IT professionals, 
but throughout the DOD workforce.
    While at times in the past space was seen as a sanctuary, new and 
emerging threats make clear that's not the case anymore, and we must be 
prepared for the possibility of a conflict that extends into space. 
This means that as we continue to ensure our access to space so we can 
provide capabilities like reconnaissance, GPS, and secure 
communications that enable and enhance our operations in other domains, 
we must also focus on assuring and defending these capabilities against 
aggressive and comprehensive counter-space programs of others. Though 
competitors may understand our reliance on space, we will not let them 
use it against us, or take it away. As I will discuss later in this 
testimony, this budget makes important investments to do just that--
sustaining and building on the major shifts DOD began funding in last 
year's budget submission--with a total of more than $22 billion for 
space in fiscal year 2017. With the presence of so many commercial 
space endeavors, we want this domain to be just like the oceans and the 
Internet: free and open to all.
    Finally, high-end competitors have also invested in electronic 
warfare systems as a cost-effective way to challenge the United States 
and try to blunt our technological advantage. By jamming our radars, 
communications, and GPS, these systems would seek to disrupt the 
integrated capabilities that allow our forces to identify, target, 
reach, and destroy an enemy with precision. We cannot allow that to 
happen, which is why this budget deliberately invests in buying more 
electronic protection and resiliency for our current systems as well as 
developing more advanced capabilities. I will address these investments 
in more detail later in this testimony.
                  seizing opportunities for the future
    The other significant share of our budget goes toward making sure 
DOD will be ready for the future. Our budget's investments and 
programming decisions in this area reflect my commitment to create a 
Defense Department that's open to change and new ideas to ensure a 
better future for both DOD and the Nation, and my priorities in doing 
so. These are best understood through the four key pillars of this 
commitment--namely, updating and refining warfighting strategies, 
operational concepts, and tactics; driving smart and essential 
technological innovation; building the force of the future; and 
reforming the DOD enterprise.
    While I will describe what we're doing in each of those areas 
momentarily, the dynamic strategic environment I described earlier in 
this testimony explains why such change is so important--not for the 
sake of change, but for the security of this country. We cannot let 
those challenges overtake us; we have to stay ahead of them and stay 
the best. That's why as Secretary of Defense I've been pushing the 
Pentagon to think outside our five-sided box.
Updating and Refining Warfighting Strategies, Operational Concepts, and 
        Tactics
    Because our military has to have the agility and ability to win 
both the fights we're in, the wars that could happen today, and the 
wars that could happen in the future, we're always updating our plans 
and developing new operational approaches to account for any changes in 
potential adversary threats and capabilities, and to make sure that the 
plans apply innovation to our operational approaches--including ways to 
overcome emerging threats to our security, such as cyberattacks, anti-
satellite weapons, and anti-access, area denial systems. We're building 
in modularity that gives our chain of command's most senior decision-
makers a greater variety of choices. We're making sure planners think 
about what happens if they have to execute their plan at the same time 
as another contingency is taking place, so they don't fall into the 
trap of presuming the contingency they're planning for would be the 
only thing we'd be doing in the world at that time. And we're injecting 
agility and flexibility into our processes, because the world, its 
challenges, and our potential opponents are not monolithic, and we must 
be just as dynamic to stay ahead of them.
    As I mentioned earlier, DOD is continuing to embark on a force-
wide, all-service transition from an era focused on counterinsurgency 
operations to an era focused on the full spectrum of military 
operations. While we do so for many important reasons, it's also 
important to note that we don't want to forget or turn our back on 
counterinsurgency, but rather enable most of our forces to be capable 
of doing a lot more than just that. A smaller segment of our force will 
still specialize in these skills, and DOD will retain the ability to 
expand our operational capacity for counterinsurgency missions should 
it become necessary.
    The transition to full-spectrum operations is and will be coupled 
with demonstrations to clearly signal it and make that signal credible, 
which is key to conventional deterrence. The same is true for our 
investments in capabilities--in new technologies, new operational 
concepts, and also innovative ways for how we use what we already 
have--these must and will be demonstrated as well. This is accounted 
for in the budget, as are other investments we're making to recommit 
ourselves to deterrence across the strategic, operational, and tactical 
levels of conflict.
    Recognizing the immense value that wargaming has historically had 
in strengthening our force in times of strategic, operational, and 
technological transition--such as during the interwar years between 
World War I and World War II, when air, land, and naval wargamers 
developed innovative approaches in areas like tank warfare and carrier 
aviation--this budget makes significant new investments to reinvigorate 
and expand wargaming efforts across the Defense Department. With a 
total of $55 million in fiscal year 2017 as part of $526 million over 
the FYDP, this will allow us to try out nascent operational concepts 
and test new capabilities that may create operational dilemmas and 
impose unexpected costs on potential adversaries. The results of future 
wargames will be integrated into DOD's new wargaming repository, which 
was recently established to help our planners and leaders better 
understand and shape how we use wargames while also allowing us to 
share the insights we gain across the defense enterprise.
Driving Smart and Essential Technological Innovation
    The investments this budget makes in technology and innovation, and 
the bridges it helps build and rebuild, are critical to staying ahead 
of future threats in a changing world. When I began my career, most 
technology of consequence originated in America, and much of that was 
sponsored by the government, especially DOD. Today, not only is much 
more technology commercial, but the competition is global, with other 
countries trying to catch up with the advances we've enjoyed for 
decades in areas like precision-guided munitions, stealth, cyber, and 
space. So now, as we have in the past, DOD must invest to ensure 
America pioneers and dominates these and other technological frontiers.
    DOD is therefore pursuing new technology development along with new 
operational concepts, and new organizational constructs--all of which 
are reflected in or supported by this budget submission--to maintain 
our military's technological superiority and ensure we always have an 
operational advantage over any potential adversary. How we do this is 
important, because while the Cold War arms race was characterized 
mostly by strength, with the leader simply having more, bigger, or 
better weapons, this era of technological competition is uniquely 
characterized by an additional variable of speed, such that leading the 
race now depends on who can out-innovate faster than everyone else. 
It's no longer just a matter of what we buy; what also matters is how 
we buy things, how quickly we buy them, whom we buy them from, and how 
quickly and creatively we're able to upgrade them and repurpose them to 
be used in different and innovative ways to stay ahead of future 
threats.
    In particular, this means leveraging the capability of current and 
emerging technologies, including commercial technologies wherever 
appropriate. It means demonstrating and seeding investments in new 
capabilities and concepts to counter advanced anti-access, area-denial 
challenges across all domains and in every region where they persist--a 
particular focus of DOD's effort to develop a third offset strategy. 
And also, it means investing in and operationalizing our security by 
leveraging advances in cyber, space, electronic warfare, biotechnology, 
artificial intelligence, and other areas. Our technologies and 
capabilities must be able to operate so that no matter what any of our 
enemies might throw at them, they are able to defeat attempts to be 
hacked.
    Accordingly, this budget invests a total of $183.9 billion in 
fiscal year 2017, and $951 billion over the FYDP, to help research, 
develop, test, evaluate, and procure the right technology and 
capabilities our military will need to deter and if necessary fight and 
win full-spectrum conflicts in the future. For the second year in a 
row, the budget increases funding for our research and development 
accounts, which total $71.8 billion in fiscal year 2017. That includes 
$12.5 billion specifically invested in science and technology to 
support groundbreaking work happening in the military services, in our 
dozens of DOD labs and engineering centers across the country, and in 
the Defense Advanced Research Projects Agency (DARPA) to develop and 
advance disruptive technologies and capabilities in areas like undersea 
systems, hypersonics, electronic warfare, big data analytics, advanced 
materials, energy and propulsion, robotics, autonomy, and advanced 
sensing and computing.
    At the same time that DOD is making investments in technologies 
themselves, we're also investing in building and rebuilding bridges 
with America's vibrant, innovative technology community and forging 
more connections with the commercial technology base--and it's 
reflected in our budget. In fiscal year 2017, this includes $45 million 
for our Defense Innovation Unit-Experimental (DIUx), which we opened in 
Silicon Valley last August to build relationships and better tap into 
the region's innovation ecosystem. It also includes $40 million for our 
pilot program with the independent, non-profit startup backer In-Q-Tel, 
leveraging its venture capital model to help find innovative solutions 
for some of our most challenging problems. And it includes $137 million 
to support our public-private partnership-funded Manufacturing 
Innovation Institutes, including the one focused on flexible hybrid 
electronics that I announced in Silicon Valley last August. In all 
these areas, similar to how DOD's historic investments in things like 
GPS and the Internet later went on to yield great benefits for not just 
our security but also our society, we hope the investments we're making 
in some of these fields along with our partners in the technology 
industry will lead to incredible advances that today we can only 
imagine.
    Importantly, technological innovation must be done in concert with 
operational innovation. It's not enough to have or create new 
technologies or weapon systems; how they are used is key. The budget 
reflects work DOD has been undertaking in this area though multiple 
lines of effort. First, there's our Long-Range Research and Development 
Planning Program--an effort named after the mid-1970s project that 
brought together a cross-section of military, academic, and private-
sector experts who paved the way to a future of GPS-guided smart bombs, 
battle networks, and stealth--and also our Advanced Capability and 
Deterrence Panel. Both focus on identifying and charting longer-term, 
leap-ahead investments for strategies and capabilities that will give 
us an advantage several decades from now, and together they make up 
nearly 60 percent of our science and technology investments in this 
budget submission.
    Now, to focus on maintaining our near-term advantage, DOD has an 
office that we don't often talk about, but that I want to highlight 
today. It's called the Strategic Capabilities Office (SCO). I created 
SCO in 2012 when I was Deputy Secretary of Defense to reimagine 
existing DOD, intelligence community, and commercial systems by giving 
them new roles and game-changing capabilities to confound potential 
opponents. I picked a talented physicist to lead it. SCO is incredibly 
innovative, but also has the rare virtue of rapid development and the 
even rarer charter to keep current capabilities viable for as long as 
possible. So it's good for both troops and taxpayers alike.
    SCO is focused on thinking differently, which is incredibly 
important to innovation when it comes to technological capabilities. 
Thinking differently put us in space and on the moon. It put computers 
in our pockets and information at our fingertips. It's how we came to 
have airplanes that take off from the decks of ships, nuclear 
submarines beneath the seas, and satellite networks that take pictures 
of the world and show us where we are in it. And this kind of bold, 
innovative thinking isn't lost to history. It's happening every day, in 
SCO and many other places throughout the Department of Defense.
    Most people don't often hear about it because most of its work is 
classified; however, SCO has been a tremendously useful part of DOD. 
It's received large support from all the services, as well as our 
combatant commands, the Joint Chiefs of Staff, the intelligence 
community, and also Congress--with its budget growing from $140 million 
in its first year, fiscal year 2014, to reaching $845 million for 
fiscal year 2017 in this year's budget submission. To show the return 
we're getting on those investments, I'd like to highlight some projects 
SCO has been working on that we're funding in the budget.
    First is a project focused on advanced navigation, where SCO is 
taking the same kinds of micro-cameras and sensors that are littered 
throughout our smartphones today, and putting them on our Small 
Diameter Bombs to augment their targeting capabilities. This will 
eventually be a modular kit that will work with many other payloads--
enabling off-network targeting through commercial components that are 
small enough to hold in your hand.
    Another SCO project uses swarming, autonomous vehicles in all sorts 
of ways, and in multiple domains. For the air, they've developed micro-
drones that are really fast, and really resilient--they can fly through 
heavy winds and be kicked out the back of a fighter jet moving at Mach 
0.9, like they did during an operational exercise in Alaska last year, 
or they can be thrown into the air by a soldier in the middle of the 
Iraqi desert. And for the water, they've developed self-driving boats, 
which can network together to do all sorts of missions, from fleet 
defense to close-in surveillance--including around an island, real or 
artificial, without putting our sailors at risk. Each one leverages the 
wider world of technology. For example, the micro-drones use a lot of 
commercial components and 3D printing. And the boats build on some of 
the same artificial intelligence algorithms that NASA's Jet Propulsion 
Laboratory wrote for the Mars lander.
    SCO also has a project on gun-based missile defense, where we're 
taking the same hypervelocity smart projectile developed for the 
electromagnetic railgun, and using it for point defense by firing it 
with artillery we already have in our inventory--including the five-
inch guns at the front of every Navy destroyer, and also the hundreds 
of Army Paladin self-propelled howitzers. This way, instead of spending 
more money on more expensive interceptors, we can turn past offense 
into future defense--defeating incoming missile raids at much lower 
cost per round, and thereby imposing higher costs on the attacker. In 
fact, we tested the first shots of the hypervelocity projectile out of 
a Paladin earlier this year, and we found that it also significantly 
increases the range.
    There's also a SCO project that we're calling the arsenal plane, 
which takes one of our oldest aircraft platforms, and turns it into a 
flying launch pad for all sorts of different conventional payloads. In 
practice, the arsenal plane will function as a very large airborne 
magazine, networked to fifth-generation aircraft that act as forward 
sensor and targeting nodes--essentially combining different systems 
already in our inventory to create wholly new capabilities.
    The last SCO project I want to highlight is how we're creating a 
brand new capability with the SM-6 missile, an interceptor that's 
designed to launch from our Navy's surface ships and be highly 
maneuverable and aerodynamic to stop incoming ballistic and cruise 
missiles in the atmosphere. It's one of our most modern and capable 
munitions--and thanks to work done by SCO, we've been able to modify 
the SM-6 so that in addition to missile defense, it can also target 
enemy ships at sea. This new anti-ship mode makes the SM-6 doubly 
useful, taking the defensive speed and maneuverability already sitting 
in our Aegis destroyers' launch cells and leveraging it for offensive 
surface warfare lethality. That makes it a potent new capability for 
our fleet, and also a good deal for the taxpayer by using the same 
thing twice. We already know this works; it was fully tested this past 
January to great success. And, as I will address later in this 
testimony, this new operational concept is strongly reflected in our 
2017 budget.
    Those are just a few projects that SCO has worked on so far--and 
they're working on a lot more, including some surprising ones.
    Now, with all of that in mind--from why we need to invest in 
technological innovation, to how we're doing it--let me address the 
specific investments this budget makes in technologies and capabilities 
to deter, and if necessary fight and win, a full-spectrum conventional 
war against even the most high-end of adversaries. In concert, they 
will help maintain our military's edge both under and on the sea, on 
land, in the air, in space, in cyber and electronic warfare, and in the 
modernization and maintenance of our nuclear enterprise.
            Maritime Investments
    In the maritime domain, the budget refocuses our Navy on building 
lethality for high-end conflicts while continuing to grow the battle 
fleet to meet, but not exceed, the department's warfighting posture 
requirement of 308 ships. Our investments reflect an emphasis on 
payloads over platforms, on the ability to strike from sanctuary 
quickly so that no target is out of reach, and on closing capability 
shortfalls that have developed over the last several years.
    First, the budget maximizes our undersea advantage--leveraging and 
growing our commanding lead in an area where the U.S. military should 
be doing more, not less, going forward. It provides funding for 
important payloads and munitions, including $170.8 million in fiscal 
year 2017 and $1.5 billion over the FYDP for an improved heavyweight 
torpedo as well as research and development for an advanced lightweight 
torpedo to stay ahead of existing and emerging undersea challenges. It 
includes $5.2 billion in fiscal year 2017 and $29.4 billion over the 
FYDP to buy nine Virginia-class attack submarines over the next 5 
years; four of those submarines--up from three in last year's budget--
will be equipped with the versatile Virginia Payload Module that can 
more than triple each submarine's strike capacity from 12 Tomahawk land 
attack missiles to 40. The budget also invests $500 million in fiscal 
year 2017, and $3.4 billion over the FYDP, to upgrade 49 of our 
submarines' combat systems and enhance underwater acoustics on nine of 
our existing Virginia-class submarines. It increases funding for 
unmanned undersea vehicles (UUVs) by over $100 million in fiscal year 
2017, part of a total $173 million in fiscal year 2017 and $1.2 billion 
over the FYDP that invests in, among other areas, rapid prototyping of 
UUVs in multiple sizes and diverse payloads--which is important, since 
UUVs can operate in shallow waters where manned submarines cannot. And 
it includes $2.2 billion in fiscal year 2017 and $6.4 billion over the 
FYDP to continue procuring the advanced P-8A Poseidon maritime patrol 
and surveillance aircraft. Together, all these investments--totaling 
$8.2 billion in fiscal year 2017, and $41.9 billion over the next 5 
years--will ensure we continue to have the most lethal undersea and 
anti-submarine force in the world.
    Second, the budget makes significant investments to bolster the 
lethality of our surface fleet forces, so they can deter and if 
necessary prevail in a full-spectrum conflict against even the most 
advanced adversaries. It invests $597 million in fiscal year 2017, and 
$2.9 billion over the FYDP, to maximize production of the SM-6 missile, 
one of our most modern and capable munitions, procuring 125 in fiscal 
year 2017 and 625 over the next 5 years--and this investment is doubly 
important given the SM-6's new anti-ship capability. It also invests in 
developing and acquiring several other key munitions and payloads--
including $1 billion in fiscal year 2017, and $5.8 billion over the 
FYDP, for all variants of the SM-3 high-altitude ballistic missile 
interceptor; $340 million in fiscal year 2017, and $925 million over 
the FYDP, for the Long-Range Anti-Ship Missile; $221 million in fiscal 
year 2017, and $1.4 billion over the FYDP, for the Advanced Anti-
Radiation Guided Missile, including its extended range version; and 
$435 million in fiscal year 2017, as part of $2.1 billion over the 
FYDP, for the most advanced variant of the Tactical Tomahawk land-
attack missile, which once upgraded can also be used for maritime 
strike.
    Third, the budget reflects decisions we've made to ensure that we 
look at our overall warfighting posture, rather than only the presence 
that contributes to it, in determining whether our maritime forces can 
deter and if necessary fight and win a full-spectrum conflict. Having 
grown the size and the capability of our surface and subsurface fleet 
over the last 7 years, this budget will continue to do both. It will 
ensure we meet the department's 308-ship posture requirement--indeed, 
growing the battle fleet to 308 ships by the end of the FYDP--and it 
will make our naval forces as a whole more capable, more survivable, 
and more lethal than they would have been otherwise.
    The budget invests $3.4 billion in fiscal year 2017 and $18.3 
billion over the FYDP to continue to buy two DDG-51 Arleigh Burke-class 
guided missile destroyers each year over the next 5 years--a total of 
10 over the FYDP--as well as $400 million in fiscal year 2017 and $2.8 
billion over the FYDP for modernizing our destroyers, 12 of which will 
also receive upgrades to their combat systems. It continues to support 
11 carrier strike groups, investing $2.7 billion in fiscal year 2017 
and $13.5 billion over the FYDP for new construction of Ford-class 
carriers, as well as $2 billion in fiscal year 2017 and $8.9 billion 
over the FYDP for midlife reactor refueling and overhauls on our 
current carrier fleet. And, as I will discuss in the reform section of 
this testimony, it supports modernizing our guided missile cruisers--
providing them with more capability and a longer lifespan while freeing 
up significant funds that can be put toward a variety of uses.
    I'd like to now address the Littoral Combat Ship (LCS), where we 
made an important tradeoff so we could put more money in submarines, 
Navy fighter jets, and many other critical areas. As such, the budget 
takes a new approach to the LCS and its associated frigate--buying a 
total of 40, not the 52 or more that were planned starting back in 
2002. Let me explain why. First, to be clear, we're investing in LCS 
and frigates because we need the capability they provide, and for 
missions like minesweeping and anti-submarine warfare, they're expected 
to be very capable. But now, in 2016, we have to further balance our 
shipbuilding investments among guided missile destroyers and Virginia-
class attack submarines. We face competitors who are challenging us on 
the open ocean with new submarines, ships, aircraft, and missiles--
advanced capabilities we haven't had to contend with in a long time, 
meaning that we must now invest more in higher-end capabilities across 
our own fleet. The department's warfighting analysis called for 40 
small surface combatants, so that's how many we're buying. Over the 
next 10 years, this will let us invest almost $8 billion more into 
highly lethal ships and capabilities--all the while increasing both the 
number of ships and the capability of our battle fleet. While this will 
somewhat reduce the number of LCS available for presence operations, 
that need will be met by higher-end ships, and it will ensure that the 
warfighting forces in our submarine, surface, and aviation fleets have 
the necessary capabilities to defeat even our most advanced potential 
adversaries. Under this rebalanced plan, we will still achieve our 308-
ship goal within the next 5 years, and we will be better positioned as 
a force to effectively deter, and if necessary defeat, even the most 
advanced potential adversaries.
            Land Investments
    To ensure our ground forces have the capabilities to counter 
emerging threats and the demonstrated ability to deter and if necessary 
fight and win a full-spectrum conflict, the budget will help provide 
our Army, Marine Corps, and special operations forces with greater 
lethality in several forms. This includes a next-generation shoulder-
launched weapon, a life extension program as well as a replacement for 
the Army Tactical Missile System (ATACMS) that can be used for improved 
counter-battery and long-range strike, and increased firepower for 
Stryker armored fighting vehicles. Together these investments comprise 
$780 million in fiscal year 2017 and $3.6 billion over the FYDP.
    Additionally, the budget invests $735 million in fiscal year 2017, 
and $6.8 billion over the FYDP, in the Joint Light Tactical Vehicle 
intended to replace the military's Humvees--procuring more than 2,000 
vehicles in fiscal year 2017, and a total of more than 17,700 vehicles 
over the next 5 years. It also invests $159 million in fiscal year 
2017, and $1.7 billion over the FYDP, in the Amphibious Combat Vehicle, 
which will replace the Marine Corps' aging Amphibious Assault Vehicle--
helping procure over 200 vehicles over the next 5 years. And, as I 
discuss later in the reform section of this testimony, it supports the 
Army's ongoing Aviation Restructure Initiative--investing $1.1 billion 
for 52 AH-64 Apache attack helicopters in fiscal year 2017, and $5.7 
billion for 275 Apaches over the FYDP, as well as $1 billion for 36 UH-
60 Black Hawk utility helicopters in fiscal year 2017, and $5.6 billion 
for 268 Black Hawks over the FYDP.
    The budget also invests $9.1 billion for missile defense in fiscal 
year 2017, and $47.1 billion over the FYDP. This reflects important 
decisions we've made to strengthen and improve our missile defense 
capabilities--particularly to counter the anti-access, area-denial 
challenge of increasingly precise and increasingly long-range ballistic 
and cruise missiles being fielded by several nations in multiple 
regions of the world. Instead of spending more money on a smaller 
number of more traditional and expensive interceptors, we're funding a 
wide range of defensive capabilities that can defeat incoming missile 
raids at much lower cost per round, and thereby impose higher costs on 
the attacker. The budget invests in improvements that complicate enemy 
targeting, harden our bases, and leverage gun-based point defense 
capabilities--from upgrading the Land-Based Phalanx Weapons System, to 
developing hypervelocity smart projectiles that as I mentioned earlier 
can be fired not only from the five-inch guns at the front of every 
Navy destroyer, but also the hundreds of Army M109 Paladin self-
propelled howitzers. Additionally, the budget's missile defense 
investments maintain DOD's commitment to improving our homeland and 
theater defense systems--as we're increasing the number of deployed 
Ground-Based Interceptors (GBIs) from 30 to 44, redesigning the exo-
atmospheric kill vehicle to improve the reliability of the Ground-Based 
Midcourse Defense system, and funding improvements and follow-on 
concept development for the Terminal High-Altitude Area Defense (THAAD) 
system. Specifically, we're investing $1.2 billion in fiscal year 2017 
and $5.8 billion over the FYDP for the Ground-based Midcourse Defense 
program; for THAAD, we're spending $640 million in fiscal year 2017 and 
$3.6 billion over the FYDP, which includes procuring 24 interceptors in 
fiscal year 2017 and 149 over the FYDP; and, to research, develop, and 
deploy a new Long-Range Discrimination Radar, we're investing $317 
million in fiscal year 2017 and $1 billion over the FYDP.
            Air Investments
    To ensure the U.S. military's continued air superiority and global 
reach, the budget makes important investments in several areas--and not 
just platforms, but also payloads. For example, it invests $2.4 billion 
in fiscal year 2017 and $8 billion over the FYDP in a wide range of 
versatile munitions--including buying more Small Diameter Bombs, JDAMs, 
Hellfires, and AIM-120D air-to-air missiles. We are also developing 
hypersonics that can fly over five times the speed of sound.
    The budget continues to buy the stealthy, fifth-generation F-35 
Lightning II Joint Strike Fighter. It includes $10.1 billion in fiscal 
year 2017 and $56.3 billion over the FYDP to procure a total of 404 F-
35s across the force through 2021--43 F-35As for the Air Force in 
fiscal year 2017 as part of 243 to be purchased over the FYDP, 16 F-
35Bs for the Marine Corps in fiscal year 2017 as part of 97 to be 
purchased over the FYDP, and 4 F-35Cs for the Navy and Marine Corps in 
fiscal year 2017 as part of 64 to be purchased over the FYDP. This 
represents a slight deferral in Air Force F-35 procurement, which we're 
doing in order to free up funds to maintain a larger-size Air Force of 
55 tactical fighter squadrons, and to improve avionics, radar, and 
electronic warfare systems in legacy bomber and fighter aircraft like 
the F-15, F-16, B-1, B-2, and B-52 fleets--increasing their lethality, 
survivability, and therefore usefulness in a full-spectrum conflict. At 
the same time, it also represents an increase in the Navy and Marine 
Corps' F-35 procurement, which is important to ensure sufficient high-
end capability and numbers in our aircraft carriers' tactical fighter 
fleet.
    Additionally, the budget invests $1.4 billion in fiscal year 2017 
and $12.1 billion over the FYDP for continued development of the B-21 
Long-Range Strike Bomber, as well as $3.1 billion in fiscal year 2017 
and $15.7 billion over the FYDP to continue upgrading our aerial tanker 
fleet--buying 15 KC-46A Pegasus refueling tankers in fiscal year 2017 
as part of 75 aircraft to be purchased over the FYDP.
    The budget also reflects important decisions regarding future 
unmanned aerial systems, such as the Navy's Carrier-Based Aerial 
Refueling System (CBARS), formerly known as the Unmanned Carrier-
Launched Air Surveillance and Strike (UCLASS) program--by focusing in 
the near-term on providing carrier-based aerial refueling, we're 
setting the stage for a future unmanned carrier air wing. With this 
approach, the Navy will be able to quickly and affordably field the 
kinds of unmanned systems that its carrier air wings need today, while 
laying an important foundation for future, more capable unmanned 
carrier-based platforms. We know we need to ensure aircraft can operate 
off the carrier in high-threat environments, and we're working hard to 
make them unmanned--it's just that the UCLASS program as previously 
structured was not the fastest path to get us there. This approach will 
allow us to get started integrating unmanned aircraft onto our aircraft 
carriers affordably and as soon as possible.
    Furthermore, to maximize the capabilities and extend the reach of 
all our airborne systems, the budget reflects how we're expanding 
manned-unmanned teaming--from buying Navy MQ-4C Triton unmanned 
maritime surveillance and patrol aircraft, which can be paired with our 
P-8A Poseidon aircraft for a variety of missions; to buying Army AH-64 
Apache attack helicopters that can pair with MQ-1C Gray Eagle scouts; 
to buying Air Force F-35s that can network with both payloads and 
platforms.
            Cyber and Electronic Warfare Investments
    This budget significantly increases our cyber capabilities, with 
new investments totaling over $900 million in fiscal year 2017 compared 
to last year's budget.
    Because defending our networks is and must be DOD's number-one 
mission in cyberspace, the budget makes significant investments to 
improve our defensive capabilities to deny a potential attack from 
succeeding. These include $336 million over the FYDP to support more 
capable network perimeter defenses, as well as $378 million over the 
FYDP to train and strengthen DOD's Cyber Protection Teams to respond to 
security breaches, grow our cyber training and testing ranges, and 
support tool development that will let our Cyber Mission Force quickly 
respond to cyberattacks against our networks regardless of where they 
are stationed around the world.
    Reflecting our renewed commitment to deterring even the most 
advanced adversaries, the budget also invests in cyber deterrence 
capabilities, including building potential military response options. 
This effort is focused on our most active cyber aggressors, and is 
based around core principles of resiliency, denial, and response.
    As part of DOD's second cyber mission--defending the Nation--the 
budget invests in an advanced capability to disrupt cyberattacks of 
significant consequences. And to support DOD's third cyber mission--
providing offensive cyber options that if directed can augment our 
other military systems--the budget invests $347 million over the FYDP 
to help provide cyber tools and support infrastructure for the Cyber 
Mission Force and U.S. Cyber Command.
    DOD has a unique level of resources and cyber expertise compared to 
the rest of the Federal Government, and following the recent data 
breaches of the Office of Personnel Management's information technology 
systems, DOD has undertaken responsibility for the development, 
maintenance, and cybersecurity of the replacement background 
investigation systems and their data infrastructure. To provide proper 
support and a dedicated funding stream for this effort, the President's 
budget includes $95 million for DOD in fiscal year 2017. Also, on a 
separate but related note, the budget invests $454 million over the 
FYDP to ensure DOD will continue to have access to the trusted 
microelectronic components needed in our weapon systems. By developing 
alternative sources for advanced microchips and trusted designs, this 
funding will help ensure the long-term security of our systems and 
capabilities.
    Meanwhile, to protect our platforms and ensure U.S. freedom of 
maneuver in contested environments, the budget also continues to 
support research, development, testing, evaluation, and procurement of 
advanced electronic warfare capabilities--totaling $3.7 billion in 
fiscal year 2017 and $20.5 billion over the FYDP. To enhance the 
electronic survivability and lethality of fighter and bomber aircraft 
like the F/A-18, F-15, and B-2, we're investing in both offensive and 
defensive airborne capabilities, including the Air Force's Defensive 
Management System modernization and Eagle Passive Active Warning 
Survivability System, and also the Navy's Integrated Defensive 
Electronic Countermeasures and Next Generation Jammer. We're upgrading 
the radar on our E-3 Sentry AWACS with enhanced electronic protection 
to make adversary jammers less effective. Investments in the Navy's 
Surface Electronic Warfare Improvement Program will help our ships 
protect themselves better. And to help protect our ground forces, the 
budget invests in the Army's Common Infrared Countermeasures and 
Electronic Warfare Planning and Management Tool, as well as the Marine 
Corps' Intrepid Tiger pod.
    While cyber and electronic warfare capabilities provide, for the 
most part, different techniques to achieve similar mission objectives, 
an integrated approach can yield additional benefits. This is reflected 
in our budget, including investments intended to ensure we can hold 
even the most challenging targets at risk.
            Space Investments
    As I mentioned earlier, this budget continues and builds upon 
important investments in last year's budget to help secure U.S. access 
to space and address space as an operational domain.
    After adding over $5 billion in new investments in DOD's 2016 
budget submission to make us better postured for contested military 
operations in space--including over $2 billion in space control efforts 
to address potential threats to U.S. space systems--this budget largely 
sustains those investments over the FYDP. While there is much more work 
ahead, we are on a good path in our efforts to complicate an 
adversary's ability to defeat our systems while also enhancing our 
ability to identify, attribute, and negate all threatening actions in 
space.
    Meanwhile, the budget also supports strengthening our current 
space-based capabilities, and maturing our space command and control. 
It invests in more satellites for our Space-Based Infrared System to 
maintain the robust strategic missile warning capability we have today. 
And it allocates $108 million over the FYDP to implement the Joint 
Interagency Combined Space Operations Center (JICSpOC), which will 
better align joint operations in space across the U.S. government.
    DOD must have assured access to space through multiple reliable 
sources that can launch our critical national security satellites, 
which is why the budget invests $1.8 billion for space launch in fiscal 
year 2017 and $9.4 billion over the FYDP. Because we want to end the 
use of the foreign RD-180 engine as soon as possible, because we have a 
strong desire to preserve competition for space launch in order to 
ensure multiple launch service providers can sustain uninterrupted 
access to space, and to control costs, the budget includes funds for 
competitive public-private partnerships to help develop new launch 
services, which we believe is the most responsible way forward. Merely 
developing a new engine would not give us the assured access to space 
that we require. We plan to take advantage of the emerging commercial 
space launch marketplace using an innovative, more commercial 
approach--investing through competition in new launch services in 
return for priced options for future launches.
            Nuclear Enterprise Investments
    The budget also makes reforms and investments needed to continue 
providing a safe, secure, and effective nuclear deterrent. Compared to 
last year's budget submission, it adds $10 billion over the next 5 
years, for a total of $19 billion in fiscal year 2017 and $108 billion 
over the FYDP for maintaining, and modernizing the nuclear force and 
associated strategic command, control, and communications systems. This 
reflects DOD's continuing commitment to the nuclear triad and its 
critical mission.
    In addition to making an array of investments across the nuclear 
enterprise--from increased funding for manpower, equipment, vehicles, 
and maintenance, to technological efforts that improve the 
sustainability of our bomber fleet--the budget also fully funds the 
first stages of our key nuclear modernization effort, in particular the 
replacement of our Ohio-class ballistic missile submarines. The Ohio 
Replacement Program is allocated $1.9 billion in fiscal year 2017 and 
$13.2 billion over the FYDP, which in addition to research and 
development will allow the first year of construction on an 
incrementally-funded first ship to begin in fiscal year 2021.
    We expect the total cost of nuclear modernization to be in the 
range of $350-$450 billion. Although this still presents an enormous 
affordability challenge for DOD, we believe it must be funded. Previous 
modernizations of America's strategic deterrent and nuclear security 
enterprise were accomplished by topline increases to avoid having to 
make drastic reductions to conventional forces, and it would be prudent 
to do so again. I hope DOD can work with Congress to minimize the risk 
to our national defense.
Building the All-Volunteer Force of the Future
    While we have the finest fighting force in the world today, that 
excellence is not a birthright, and we can't take it for granted in the 
21st century. We have to earn it again and again, starting with our 
most enduring advantage--our people.
    That's what building the force of the future is all about: making 
sure that long into the future, my successors will be able to count on 
the same excellence in people that I do today. And we have several 
overarching priorities to help us do that, like attracting a new 
generation of talented Americans, promoting diversity, and rewarding 
merit; carving tunnels through the walls between DOD, the private 
sector, our reserve force, and other agencies across the government; 
and updating and modernizing our personnel management systems with 
technology and data analysis to help improve the choices and decisions 
we make related to our people.
    I made this commitment to President Obama when he asked me to serve 
as Secretary of Defense, and so shortly after I was sworn in, I visited 
my old high school in Abington, Pennsylvania to outline my vision for 
the force of the future. I talked about how, in the face of 
generational, technological, and labor market changes, we in the 
Pentagon must try to make ourselves even better at attracting talent 
from new generations of Americans. In the months that followed, I went 
to places like Silicon Valley and St. Louis, and heard from companies 
like Facebook, Boeing, and LinkedIn about what they're doing to compete 
for talent in the 21st century. And this past December, I announced 
that we're opening all combat positions to women, to expand our access 
to 100 percent of America's population for our all-volunteer force.
    Throughout this process, we've always been mindful that the 
military is a profession of arms. It's not a business. We're 
responsible for defending this country--for providing the security that 
allows our friends and family members and fellow citizens to go to 
school, go to work, to live their lives, to dream their dreams, and to 
give the next generation a better future.
    The key to doing this successfully is leveraging both tradition and 
change. While the military cannot and should not replicate all aspects 
of the private sector, we can and should borrow best practices, 
technologies, and personnel management techniques in commonsense ways 
that work for us, so that in future generations, we'll keep attracting 
people of the same high caliber we have today--people who will meet the 
same high standards of performance, leadership, ethics, honor, and 
trust we hold our force to today.
    Last spring I asked DOD's Personnel and Readiness chief to lead a 
team in developing a package of bold proposals, which they did--
building on the great work the military services were already doing, 
and also coming up with some new ideas. Subsequently, a senior 
leadership team led by Deputy Secretary of Defense Bob Work and Vice 
Chairman of the Joint Chiefs of Staff General Paul Selva has been 
working with the service vice chiefs to closely analyze each proposal 
and make recommendations before I decide. While this process is still 
ongoing for some proposals, I've decided to announce my decisions on 
other proposals as I've made them, which I will now detail.
            Greater Permeability and Talent Management
    I outlined the first link we're building to the force of the future 
at George Washington University last November, announcing over a dozen 
new initiatives in several categories that are intended to make our 
future Defense Department better connected to 21st century talent.
    First, we're creating what we call `on-ramps' for people who aren't 
involved with DOD but want to try contributing to our mission. One way 
we're doing this is by having better managed internship programs that 
more effectively transition promising interns into employees. Another 
is our new Defense Digital Service, which brings in talent from 
America's vibrant, innovative technology community for a time to help 
solve some of our most complex problems. We're also going to bring in 
resident entrepreneurs, who will work with senior leaders on 
challenging projects for a year or two. And we're going to hire a chief 
recruiting officer to bring in top executives for stints in civilian 
leadership roles, as we had in the past with people like Dave Packard, 
co-founder of HP, who also served as Deputy Secretary of Defense.
    Second, we're creating short-term `off-ramps' for those currently 
in DOD, so they can gain new skills, experiences, and perspectives from 
outside and then bring them back in to help keep us strong, creative, 
and forward-thinking. One way we're doing this is by expanding and 
broadening the Secretary of Defense Corporate Fellowship program, 
including by opening it up to qualified enlisted personnel. Another 
example is the Career Intermission Pilot Program, which lets people 
take a sabbatical from their military service for a few years while 
they're getting a degree, or learning a new skill, or starting a 
family. DOD plans to seek authorities to make this program permanent, 
and looks forward to working with Congress to do so--similar to how we 
were able to partner last year to update and modernize retirement 
benefits and ensure that the 80 percent of our force that doesn't serve 
20 years will get the benefits they earned whenever they move on to 
whatever's next in life.
    And third, we're going to use 21st century data and technology to 
improve and modernize our talent management systems. We're launching 
LinkedIn-style pilot programs to help give servicemembers and units 
more choice in matching up for future assignments. We're creating an 
Office of People Analytics to leverage big data to inform our personnel 
policies. We're finally implementing exit surveys, so we can have 
quantitative data on why people decide to leave. And to help us keep 
bringing in the best people, we're looking at ways to evaluate recruit 
performance, improve outcomes, and better analyze trends that if left 
unchecked could indicate or lead to our military's insularity from the 
rest of society.
            Family Support and Retention
    Next, in January, I announced our so-called second link to the 
force of the future, a set of several initiatives with a singular 
focus: strengthening the support we provide our military families to 
improve their quality of life. They were developed keeping in mind 
DOD's recruiting, retention, and career and talent management needs, as 
well as our closely-linked readiness and warfighting demands, which 
must always guide us.
    We know that our all-volunteer force is predominantly a married 
force--52 percent of our enlisted force is married, and 70 percent of 
our officer force is married. We also have another 84,000 military-to-
military marriages, with 80 percent of them stationed within 100 miles 
of each other. So while we recruit a servicemember, we retain a family. 
This means that what we do to strengthen quality of life for military 
families today, and what we do to demonstrate that we're a family-
friendly force to those we want to recruit, is absolutely essential to 
our future strength. While we often speak of commitments to family and 
country in the same breath, the stresses of military service on our 
families are heavy and well known; among the stresses military families 
face, having and raising children is near the top. We also know that at 
10 years of service, when women are at their peak years for starting a 
family, women are retained at a rate 30 percent lower than men across 
the services. And we know that a high level of work and family conflict 
is one of the primary reasons they report leaving service.
    To build the force of the future, tackling these problems is 
imperative, especially when the generation coming of age today places a 
higher priority on work-life balance. These Americans will make up 75 
percent of the American workforce by 2025. Nearly four-in-five of them 
will have a spouse or a partner also in the workforce--twice the rate 
of baby boomers. These Americans wait longer to have children, and when 
they do have children, they want to protect the dual earning power of 
their families to provide for their children accordingly.
    That's why, for starters, we're providing a more competitive 
standard for maternity and paternity leave across our joint force--
setting 12 weeks of fully paid maternity leave as the standard across 
the joint force, and working with Congress to seek authorities to 
increase paid paternity leave for new fathers from 10 to 14 days, which 
they can use in addition to annual leave. These changes put DOD in the 
top tier of institutions nationwide, and will have significant 
influence on decisionmaking for our military family members. For both 
mothers and fathers alike, this establishes the right balance of 
offering a highly competitive leave policy while also maintaining the 
readiness of our total force. While I don't take lightly that 12 weeks 
of maternity leave represents a downshift from what the Navy pursued 
last summer, we will be at the forefront in terms of competition, 
especially as part of the comprehensive basket of family benefits we're 
providing across the joint force. This will be an increasingly 
important factor as current and future generations of parents have 
different views and expectations in parenting, and we must continue to 
be able to attract and retain the best talent among them.
    Additionally, we're expanding the childcare we provide on our 
bases, because whether for single parents, for families in which both 
parents work outside the home, or for every mother or father in our 
military, childcare hours should be as responsive as possible to work 
demands. So based on feedback from pilot programs, and in the interest 
of responding to typical work hours at our installations, we will 
increase childcare access to 14 hours a day across the force. By 
providing our troops with childcare they can rely on --from before 
reveille to after taps--we provide one more reason for them to stay on 
board. And we show them that supporting a family and serving our 
country are by no means incompatible goals.
    We're also making relatively inexpensive improvements so that our 
workplaces are more accommodating to women when they return from 
maternity leave, with a focus on making it easier for them to continue 
breastfeeding if they choose. To make the transition between maternity 
leave and returning to work for military mothers smoother, to enhance 
our mission effectiveness, and to comply with standards that apply to 
nearly every organization outside the military, we're requiring the 
installation or modification of mothers' rooms throughout all 
facilities when there are more than 50 women regularly assigned.
    Furthermore, we can also be more creative about making reasonable 
accommodations for members of our force who face difficult family 
geographic situations while at the same time preserving our force's 
effectiveness. Data indicates that allowing family members to trade the 
ability to remain at a station of choice in exchange for an additional 
active-duty service obligation is one approach that could increase 
retention, while preserving readiness. DOD will be seeking legislative 
authority to this effect--when the needs of the force permit a 
servicemember to stay at their current location, we will seek to 
empower commanders to make reasonable accommodations, in exchange for 
an additional service obligation.
    Finally, as a profession of arms, we ask our men and women to make 
incomparable sacrifices. We ask them, potentially, to place themselves 
at risk of sacrificing their ability to have children when they return 
home. To account for this more fully in the benefits we provide our 
troops, DOD will cover the cost of freezing sperm or eggs through a 
pilot program for active-duty servicemembers--a benefit that will help 
provide our men and women, especially those deployed in combat, with 
greater peace of mind. This investment will also provide greater 
flexibility for our troops who want to start a family, but find it 
difficult because of where they find themselves in their careers.
    Each of these initiatives is significant in its own right. Taken 
together, they will strengthen our competitive position in the battle 
for top talent, in turn guaranteeing our competitive position against 
potential adversaries. The initiatives approved to date total $867 
million across the FYDP; we've included this in our budget because it's 
a worthy investment that will yield great returns.
            More Still to Come
    While these first two links are important, we will have more to 
announce on the force of the future in the coming months. For example, 
we're taking a serious look at some commonsense reforms in our officer 
promotion system, and I greatly appreciate Congressional leaders from 
both parties who have indicated their support for such reforms in 
principle. We're also looking at ways to improve how we manage our 
civilian personnel, working with the government-wide Office of 
Personnel Management as well as Federal employee unions. In both of 
these efforts, working with Congress will be essential to ensure that 
our force of the future is as strong as the force of today.
Reforming the DOD Enterprise
    As I've said consistently from the moment I became Secretary of 
Defense, I cannot ask for more taxpayer dollars for defense without 
being candid about the fact that not every defense dollar is spent as 
wisely or responsibly as it could be, and also being determined to 
change that and make our department more accountable. That's why 
reforming the DOD enterprise is so important--from improving how we're 
organized so we can best respond to the challenges and opportunities of 
the future security environment, to continuing to improve our 
acquisition and enterprise-wide business and audit practices, to 
reducing excess infrastructure and overhead, to modernizing the 
military healthcare system.
    Before I address the reforms in this budget submission, it's 
important to consider the recent history of defense reform--how DOD has 
been embarked on a reform path for much of the last 7 years, and how we 
appreciate Congress's work with us over the last year on acquisition 
and modernized retirement reforms.
    Despite what some may think, this administration hasn't been 
dragging its feet when it comes to defense reform--the reality has been 
quite the opposite. Beginning in 2009, we reduced the number of senior 
executives and general and flag officers, while working with Congress 
to trim management headquarters staffs by 20 percent, and move DOD 
toward auditability. We've done three iterations of the Better Buying 
Power initiative I established to continuously improve our 
acquisitions, with Better Buying Power 3.0 incorporated into this 
budget, and we're seeing compelling indications of positive 
improvements, including in areas like reduced cost growth and reduced 
cycle time. And we've continually submitted much-needed reforms to 
strengthen the efficiency and capability of our force--many of which 
have been continually denied, either in whole or in part, at a cost for 
both taxpayers and our troops. This last part poses a real problem, 
because every dollar Congress denies us in reform is a dollar we can't 
invest in security we need to deter and defend against today's and 
tomorrow's threats.
    Now is the time for action. DOD will work closely with Congress on 
any anticipated reform legislation, and we welcome an open and 
collaborative process. In the past, legislative reform has proven to be 
a double-edged sword--sometimes it leads to constructive change, which 
is good, but other times it just adds to bureaucracy and overhead, even 
if that was never the intent. I hope that with the focus on reform 
we've recently been seeing in this and the other defense committees in 
Congress, we can work together to do reform right. And we should, 
because there's a lot that needs to be accomplished in many areas.
            Continuously Improving Acquisition
    DOD has been, and still is, absolutely committed to improving 
acquisition outcomes. After 5 years of implementing our Better Buying 
Power (BBP) initiatives for continuous process improvements in the 
defense acquisition system, we're seeing compelling indications of 
significant improvement in acquisition outcomes--for example, annual 
growth metrics for contracted costs on our major programs have dropped 
dramatically from a peak of 9.1 percent in 2011 to a 30-year low of 3.5 
percent in 2015, and a much higher percentage of major programs are 
projecting cost reductions relative to initial baselines than in the 
past. While these developments are positive signs, we can and must do 
more to sustain and where possible accelerate our momentum to keep 
improving and deliver better military capability while protecting 
American taxpayers.
    We need to continue reducing overhead and bureaucracy associated 
with the acquisition system, making it more agile and having a faster 
flow of commercial technology into our weapon systems. DOD is 
comfortable with the reforms in the fiscal year 2016 National Defense 
Authorization Act--which included several legislative reforms that DOD 
proposed last year--and we strongly support the increased role of the 
service chiefs in acquisition programs, particularly on cost and 
requirements trade-offs. Going forward, it's important that we take the 
responsible approach to absorb these reforms and see their effects 
before making additional major changes.
    DOD also appreciates Congress's interest in flexibility and 
agility, because the pace of threat changes and technology development 
are not compatible with our long cycles of budget submission, 
authorization, and appropriations. And DOD will be looking for 
opportunities to work with Congress to improve the efficiency and 
effectiveness of our acquisition process. In particular, we would 
welcome greater flexibility in appropriations or reprogramming to 
initiate development of urgently needed capabilities. The flexibility 
to start a program as soon as a threat is identified would save 
critical time--as much as 2 years under current practices--and position 
both DOD and industry to more quickly initiate development, without a 
long-term commitment, outside the traditional budget cycle. This step 
would represent a `free' 2 years of lead time to acquiring a new 
capability.
            Leaner Business Practices and Reducing Excess Overhead and 
                    Infrastructure
    The budget submission reflects several important efforts to spend 
taxpayer dollars more efficiently, generating savings that would be 
much better invested in other areas like the fight against ISIL or 
deterring Russian aggression.
    Part of this means making more reductions to overhead, and also 
adopting some commonsense business practices that are long overdue--
which in total we expect to help save nearly $8 billion over the next 5 
years. By better managing the 20 percent management headquarters 
reductions I mentioned earlier, including delayering and flattening 
management organizational structures, and also by increasing the 
reduction to 25 percent, reviewing service contracts, and making 
business operations and IT more efficient, we expect to save close to 
$5.9 billion over the FYDP. And we're modernizing how we manage our 
commissaries and military exchanges, to optimize their business 
practices and respond to the changing needs of their customers. Unlike 
commissary and military exchange reforms proposed in previous budgets, 
this new approach protects the benefits they provide our people while 
still generating expected savings of about $2 billion over the FYDP.
    We're also making real progress on reforming DOD's myriad systems 
and business processes to meet our commitment to be audit ready by the 
beginning of fiscal year 2018. The three military departments began 
audits of their budgets for the first time last year, and DOD financial 
audits currently cover over 75 percent of our total General Fund 
budgetary resources and just over 90 percent of the current year 
dollars.
    In addition, we need to stop spending so much money to hold onto 
bases we don't need, and implement a domestic round of Base Realignment 
and Closure (BRAC) in 2019 as we're requesting. While it's helpful that 
the fiscal year 2016 National Defense Authorization Act allowed a study 
of DOD's excess infrastructure, the bottom line is that we have more 
bases in more places than we need, with preliminary analysis indicating 
that we have over 20 percent excess infrastructure. To ignore this fact 
while criticizing DOD for wasteful spending is not only a sin of 
omission, but also a disservice to America's taxpayers. Last year's 
Congressional denial forced the BRAC round to slip from 2017 to 2019, 
further prolonging our ability to harvest savings we greatly need. By 
then it will have been 14 years since DOD was allowed to right-size its 
domestic infrastructure, which any business leader or citizen would 
think is ridiculous--and they'd be right. Now is the time to fix it.
            Reexamining Goldwater-Nichols and Defense Institutional 
                    Reform
    I appreciate that Congress shares my desire to make institutional 
reform a priority. As a learning organization, the U.S. military and 
the Defense Department has a long history of striving to reform our 
command structures and improve how our strategies and policies are 
formulated, integrated, and implemented. Indeed, even before the 
Defense Department was even established, military leaders and 
policymaking officials were discussing how the military services could 
be unified, and exploring ways to develop stronger policy processes and 
advice. The result was the National Security Act of 1947 and its 
amendments, which, among other historic changes, established the 
position of the Secretary of Defense, the Joint Chiefs of Staff, and 
the National Security Council. Later reforms, particularly Eisenhower-
era changes, helped strengthen the offices of the Defense Secretary and 
gave new authorities to the Chairman of the Joint Chiefs.
    But it was the Goldwater-Nichols Act, enacted 30 years ago this 
fall, that's most responsible for today's military and defense 
institutional organization. It solidified the chain of command from the 
President to the Secretary of Defense to the Combatant Commanders. It 
affirmed civilian control of the military by codifying in law that the 
Chairman of the Joint Chiefs is outside the chain of command, in order 
for him to be able to provide vital, objective, independent military 
advice to the Defense Secretary and the President. At the same time, it 
also strengthened the Chairman's role, created the position of Vice 
Chairman of the Joint Chiefs, and centralized the role and voice of the 
Combatant Commands. And it reinforced the concept of jointness, 
especially with respect to the careers of senior officers, by requiring 
them to gain professional experience outside of their service in order 
to advance further in their careers. All senior officers know these 
policies today, for they are integral to career advancement and 
achievement, and they reflect the reality of how our servicemembers 
train and fight every day as a joint force. Around this time, albeit 
unrelated to Goldwater-Nichols, important changes were made to reform 
defense acquisition, based on the recommendations of the Packard 
Commission.
    As a whole, all these changes were overwhelmingly beneficial--a 
credit to the work of not only the members of Congress who passed the 
legislation, but also their staffs. What they put into law has given us 
generations of soldiers, sailors, airmen, and Marines who've grown 
accustomed to operating together as a joint force--overcoming many 
inter-service frictions of decades before. And it's enabled our Nation 
to draw greater benefit from the advice of many valued Chairmen--from 
General Colin Powell during Operation Desert Storm, to General Joe 
Dunford today.
    This year, as Goldwater-Nichols turns 30, we can see that the world 
has changed since it was enacted: instead of the Cold War and one clear 
threat, we face a security environment that's dramatically different, 
even from the last quarter-century. It's time that we consider 
practical updates to this critical organizational framework, while 
still preserving its spirit and intent. For example, we can see in some 
areas how the pendulum between service equities and jointness may have 
swung too far, as in not involving the service chiefs enough in 
acquisition decisionmaking and accountability; or where subsequent 
world events suggest nudging the pendulum further, as in taking more 
steps to strengthen the capability of the Chairman and the Joint Chiefs 
to support force management, planning, and execution across the 
combatant commands, particularly in the face of threats that cut across 
regional and functional combatant command areas of responsibility, as 
many increasingly do.
    With this in mind, last fall I asked DOD's Deputy Chief Management 
Officer, Peter Levine, and Lieutenant General Tom Waldhauser of the 
Joint Staff, to lead a comprehensive, department-wide review of these 
kinds of organizational issues--spanning the Office of the Secretary of 
Defense, the Joint Staff, the combatant commanders, and the military 
departments--to identify any potential redundancies, inefficiencies, or 
other areas of possible improvement. And they've now come to some 
preliminary recommendations. Over the coming weeks, we will execute 
some of these decisions under our own existing authority. For others, 
where legislation is needed, we would like to work with Congress on 
implementation as it considers this year's National Defense 
Authorization Act. Of course, both House and Senate Armed Services 
Committees have their own important reviews of this issue underway as 
well--making this area ripe for working together, something we've been 
doing effectively, and will continue to do on this topic. Because when 
it comes to these fundamental matters of our national security, that's 
what we have to do--work together.
    First, we need to better develop transregional and multifunctional 
integration and advice--an imperative considering that the challenges 
we face today are less likely than ever before to confine themselves to 
neat regional or functional boundaries. Terrorism is one example, of 
course; beyond that, we also face potential future nation-state 
adversaries with widening geographic reach, but also widening 
exposure--something we may want to take into account in order to de-
escalate a crisis and deter aggression. And in other cases, we may have 
to respond to multiple threats across the globe in overlapping 
timeframes. In an increasingly complex security environment like this, 
and with a decision chain that cuts across the combatant commands only 
at the level of the Secretary of Defense, we're not postured to be as 
agile as we could be. Accordingly, we need to clarify the role and 
authority of the Chairman, and in some cases the Joint Chiefs and the 
Joint Staff, in three ways: one, to help synchronize resources globally 
for daily operations around the world, enhancing our flexibility, and 
my ability, to move forces rapidly across the seams between our 
combatant commands; two, to provide objective military advice for 
ongoing operations, not just future planning; and three, to advise the 
Secretary of Defense on military strategy and operational plans, for 
example, helping ensure that our plans take into account in a 
deliberate fashion the possibility of overlapping contingencies. We 
will pursue these changes in line with Goldwater-Nichols's original 
intent, which is to enable the military to better operate in a seamless 
way, while still preserving both civilian control and the Chairman's 
independence to provide professional military advice outside of the 
chain of command. Some have recommended the opposite course--to put the 
Chairman into the chain of command--but both Chairman Dunford and I 
agree that would erode the Chairman's objectivity as the principal 
military advisor to the President and the Secretary of Defense.
    The second area where we need to make updates is in our combatant 
commands--adapting them to new functions, and continuing to 
aggressively streamline headquarters. Adapting to new functions will 
include changes in how we manage ourselves in cyberspace. DOD must deal 
with the five challenges facing our Nation, across all domains--not 
just the traditional air, land, sea, and space, but also cyberspace, 
where our reliance on technology has given us great strengths and great 
opportunities, but also some vulnerabilities that adversaries are eager 
to exploit. That's why the budget increases cyber investments over the 
next 5 years, and why we should consider changes to cyber's role in 
DOD's Unified Command Plan. Meanwhile, DOD is currently in the process 
of reducing our management headquarters by 25 percent--a needed step--
and we're on the road to accomplish that goal thanks to the partnership 
of the congressional defense committees, which once again we deeply 
appreciate. We can meet these targets without combining Northern 
Command and Southern Command, or combining European Command and Africa 
Command--actions that would run contrary to why we made them separate, 
because of their distinct areas of emphasis and increasing demands on 
our forces in them. And indeed those demands have only further 
increased in recent years, with each command growing busier. So instead 
of combining these commands to the detriment of our friends, our 
allies, and in fact our own command and control capabilities, we intend 
to be more efficient by integrating functions like logistics, 
intelligence, and plans across the Joint Staff, the combatant commands, 
and subordinate commands, eliminating redundancies while not losing 
capability. Much can be done here. Additionally, in the coming weeks 
the Defense Department will look to simplify and improve command and 
control where the number of four-star positions have made headquarters 
either top-heavy, or less efficient than they could be. The military is 
based on rank hierarchy, where juniors are subordinate in rank to their 
seniors; this is true from the platoon to the corps level, but it gets 
complicated at some of our combatant and component command 
headquarters, where we have a deep bench of extremely talented senior 
leaders. So where we see potential to be more efficient and effective, 
billets currently filled by four-star generals and admirals will be 
filled by three-stars in the future.
    Next is acquisition. Thirty years after the Packard Commission's 
recommendations led to the establishment of an undersecretary of 
defense for acquisition, service acquisition executives, and the roles 
of program executive officers and program managers, it's clear we still 
can and must do more to deliver better military capability while making 
better use of the taxpayers' dollars. One way we seek to improve in 
this context is by streamlining the acquisition system itself. This 
will include evaluating and where appropriate reducing other members of 
the Defense Acquisition Board--it's currently composed of about 35 
principals and advisors, each of whom is likely to feel empowered as a 
gatekeeper for acquisition; reducing these layers will both free up 
staff time and focus decisionmaking energy on overcoming real obstacles 
to program success rather than bureaucratic hurdles. And we also intend 
to reduce burdensome acquisition documentation--just for one example, 
in cases where the defense acquisition executive serves as the 
milestone decision authority, the current process dictates that 14 
separate documents be coordinated within the department. Reducing these 
paperwork requirements in a meaningful way, and pushing approval 
authority lower down when a program is on the right track, will 
eliminate redundant reviews and shorten review timelines--ultimately 
getting capabilities fielded to our troops sooner, which our service 
chiefs and our combatant commanders desire and deserve.
    The last major area where we need to update Goldwater-Nichols is in 
making changes to joint personnel management. One of the hallmarks of 
Goldwater-Nichols is that it made joint duty required for all officers 
who wanted to rise to the highest levels of our military. In so doing, 
it led to great advances in jointness across the military services--
such that almost all our people know why, and how, we operate as a 
joint team--and it's also significantly strengthened the ability of our 
Chairmen, our Joint Chiefs, and our Combatant Commanders to accomplish 
their joint responsibilities. But as we've learned over the years what 
it takes to operate jointly, it's become clear that we need to change 
the requirements for joint duty assignments, which are more narrow and 
rigid than they need to be. Accordingly, we're proposing to broaden the 
definition of positions for which an officer can receive joint duty 
credit, going beyond planning and command-and-control to include joint 
experience in other operational functions, such as intelligence, fires, 
transportation and maneuver, protection, and sustainment, including 
joint acquisition. For example, while a staff officer in a combatant 
command would get joint duty credit, an officer in a combined air 
operations center coordinating with servicemembers in all different 
uniforms to call in airstrikes against ISIL might not. In another case, 
take two cyber airmen working at a combatant command--one does cyber 
plans and gets joint credit, the other does cyber targeting and 
doesn't. And while a logistics planner at a combatant command doesn't 
receive joint credit, their operational plans counterpart does. So what 
we're proposing will fix these discrepancies and fulfill the true 
purpose of Goldwater-Nichols, which was to ensure meaningful joint 
experience. Additionally, we're also proposing to shorten the amount of 
time required to accumulate joint duty, from 3 years to 2 years, so top 
personnel have more flexibility to take on command assignments and 
other opportunities to broaden and deepen their careers.
    Now, going forward, it's important to make all these updates under 
the guiding principle of `do no harm.' Goldwater-Nichols took 4 years 
to write, and it's been incredibly successful over three decades--to 
the credit of the reforms it put in place, we are not driven today by a 
signal failure like Desert One. To the contrary--I'm deeply proud of 
how our people have operated in Iraq and Afghanistan over the last 15 
years. So we come at this from a different direction, and the updates 
we make now must not undo the many positive benefits that Goldwater-
Nichols has had for DOD. Instead, they must build on them.
            Modernizing and Simplifying the Military Healthcare System
    DOD greatly appreciates that Congressional leaders have said 2016 
will be the year to reform our military healthcare system, TRICARE, 
after having passed retirement modernization reform in 2015. As you 
know, DOD has proposed various ways to reform TRICARE for several 
years, so we look forward to working very closely with Congress in the 
year ahead. The reforms reflected in the budget give beneficiaries more 
simplicity and choice in how they manage their healthcare, while also 
incentivizing the much more affordable use of military treatment 
facilities. This will not only save money, but also maximize the 
workload and readiness of our military's medical force, giving our 
doctors, nurses, medics, and corpsmen the experience they need to be 
effective at their mission. Together this should generate about $548 
million in fiscal year 2017 and almost $7 billion over the FYDP that 
can be better spent in other ways without sacrificing the care of our 
people. It's time to get this done.
            Making Sure Retirement Reform Works
    DOD greatly appreciates being able to work closely with Congress 
last year in reforming the military's retirement system. In this year's 
budget submission, we are including a few modifications to military 
retirement reform to help make sure those reforms work in the best 
possible way for the future strength and success of our military.
    First, continuation pay should not be an entitlement at 12 years of 
service, but rather a vitally important force shaping tool. DOD should 
have the flexibility to determine if and when to offer this benefit so 
we can better retain the talent we need the most at any given time.
    Second, the blended retirement plan that Congress passed last year 
needs some modifications to avoid having adverse effects on retention--
in particular, slightly raising the maximum matching contribution from 
4 percent to 5 percent. To improve retention, we also propose 
increasing the number of years a servicemember has to serve before 
matching contributions begin--so instead of beginning them at the start 
of their third year of service, it would be at the start of their fifth 
year of service, after their first reenlistment. DOD looks forward to 
working with Congress to make these proposals a reality.
            The Right Force Structure for Current and Future Operations
    The budget also reflects critical decisions on force structure 
reforms, all of which are vital to making sure our troops have the 
capabilities they need for both present and future missions. While 
Congress has too often rejected such reforms out of hand, our decisions 
this year show that when world events and operational demands require 
the Defense Department to change its plans, it does so. In turn, 
Congress must do the same, and recognize that with a set budget and the 
need to invest in advanced capabilities to strengthen high-end 
deterrence, it's time to seriously consider these reforms and stop 
tying our hands from implementing them.
    I mentioned earlier that we're pushing off the A-10's final 
retirement until 2022 so we can keep more aircraft that can drop smart 
bombs on ISIL; in addition to changing when A-10s will be retired, 
we're also changing how it will happen. As 2022 approaches, A-10s will 
be replaced by F-35s only on a squadron-by-squadron basis as they come 
online, ensuring that all units have sufficient backfill and that we 
retain enough aircraft needed to fight today's conflicts.
    While some members of Congress may think the Navy's phased approach 
for modernizing its guided missile cruisers is just a ploy to quickly 
retire them, that is incorrect--in fact, retiring them now or anytime 
soon would be a serious mistake. Our cruisers are the best ships we 
have for controlling the air defenses of a carrier strike group, and 
given the anti-ship missiles being developed by other nations, we not 
only can't afford to go without them; we also need them to be as modern 
and capable as possible, and for them to stay in service as long as 
they can. The Navy's plan is still smarter and more affordable than the 
approach laid out by Congress, saving us $3 billion over the FYDP that 
we're putting to good use elsewhere in the budget. And to make clear 
that this is not a ploy to quickly retire our cruisers, we will be 
submitting proposed legislative language that Congress can pass to hold 
the department to its word.
    Additionally, the Army is continuing to implement its Aviation 
Restructure Initiative in accordance with the fiscal year 2015 National 
Defense Authorization Act as the Chief of Staff of the Army reviews the 
recent findings of the National Commission on the Future of the Army. 
While we will revisit the Army's aviation transfer plan when we receive 
the Chief of Staff of the Army's report, the Commission's proposal to 
keep four Apache battalions in the Army National Guard could cost over 
$2.4 billion if the Army fully equips all 20 active battalions and 
keeps all aircraft currently dedicated to its equipment set in South 
Korea. By improving the readiness of the Army's Apache attack 
helicopters, and better leveraging the diverse capabilities Black Hawk 
helicopters bring to the table for National Guard missions--both here 
at home, and around the world when called upon as an operational 
reserve--the Army's planned Aviation Restructure Initiative is in the 
best interests of both the Army as well as the taxpayers who support 
it.
            The Opportunity of Reform
    Regardless of how any of our proposed reforms might be initially 
received, DOD needs Congress to work together with us on a path forward 
for all of them, because there's a real opportunity in front of us.
    With last fall's budget deal, you showed that cooperation and 
prudent compromise for the good of our future security and strength was 
actually possible. And our reform submissions on things like the A-10, 
commissaries, and TRICARE reflect the fact we've heard Congress's 
concerns about past submissions, and made adjustments accordingly.
    If we don't lead the way ahead together, both troops and taxpayers 
alike will be forced to deal with the consequences. So let's work 
together on their behalf.
     requests of this committee: the imperative of working together
    Before concluding, I want to reemphasize the big picture, because 
this budget marks a major inflection point for the Department of 
Defense, and we need your support for it.
    For a long time, DOD tended to focus and plan and prepare for 
whatever big war people thought was coming over the horizon, at one 
point becoming so bad that after a while, it started to come at the 
expense of current conflicts--long-term at the expense of the here-and-
now. Thankfully we were able to realize that over the last decade, 
correct it, and with help from Congress turn our attention to the 
fights we were in.
    The difference today is that, while such a singular focus made 
sense when we were facing off against the Soviets or sending hundreds 
of thousands of troops to Iraq and Afghanistan, it won't work for the 
world we live in. Now we have to think and do a lot of different things 
about a lot of different challenges--not just ISIL and other terrorist 
groups, but also competitors like Russia and China, and threats like 
North Korea and Iran. We don't have the luxury of just one opponent, or 
the choice between current fights and future fights--we have to do 
both, and we have to have a budget that supports both. That means 
funding a force with the right size, readiness, and capabilities to 
prevail in today's conflicts while simultaneously building a force that 
can prevail in the future--recognizing that future force won't exist 
unless we take actions today. That's what this budget submission was 
designed to do, and we need your help to do it.
    I thank this committee again for overwhelmingly supporting the 
Bipartisan Budget Act that set the size of our budget; our submission 
focuses on the budget's shape, and we hope you approve it. I know some 
may be looking at the difference between what we proposed last year and 
what we got in the budget deal, but I want to reiterate that we've 
mitigated that difference, and that this budget meets our needs.
    In this context, I have serious concerns with a proposal from one 
of the defense committees to underfund DOD's overseas warfighting 
accounts by $18 billion dollars, and spend that money on programmatic 
items we didn't request. While I don't expect this committee to 
consider such a proposal, I have to say that this approach is deeply 
troubling, and flawed for several reasons. It's gambling with 
warfighting money at a time of war--proposing to cut off our troops' 
funding in places like Afghanistan, Iraq, and Syria in the middle of 
the year. It would spend money on things that are not DOD's highest 
unfunded priorities across the joint force. It buys force structure 
without the money to sustain it and keep it ready, effectively creating 
hollow force structure, and working against our efforts to restore 
readiness. It doesn't address the much bigger strategic risk DOD faces 
of $100 billion in looming automatic cuts; in fact, it's a step in the 
direction of unraveling the Bipartisan Budget Act, which provided 
critical stability that DOD needs now and desires for the future. And 
it's another road to nowhere, with uncertain chances of ever becoming 
law, and a high probability of leading to more gridlock and another 
continuing resolution...exactly the kind of terrible distraction we've 
seen for years, that undercuts stable planning and efficient use of 
taxpayer dollars, dispirits troops and their families, baffles friends, 
and emboldens foes. I cannot support such maneuvers as Secretary of 
Defense.
    The budget deal was a good deal--it gave us stability, and for that 
we remain grateful. Doing something to jeopardize that stability would 
concern me deeply. The greatest strategic risk we face in DOD is losing 
that stability this year, and having uncertainty and sequester in 
future years. That's why going forward, the biggest concern to us 
strategically in the Congress is averting the return of sequestration 
next year so we can sustain all these critical investments over time.
    By working together, I am confident we can succeed, because in many 
ways we already have. If we think back to those defense investments and 
decisions that changed the course of our Nation's and our military's 
history for the better--and not just in technologies like GPS, the 
Internet, and satellite communications, but also in other areas, like 
jointness and the all-volunteer force--they were all able to benefit 
our security and our society because they garnered support across the 
aisle, across branches of government, and across multiple 
administrations.
    That same support for what's in this budget is essential today to 
address the security challenges we face and seize the opportunities 
within our grasp. We need your support in the decisions that our senior 
military leaders and I are advocating for. We need you to work with us, 
and not tie our hands, when it comes to pursuing smart and critical 
reforms. And we need you to provide adequate, stable, predictable 
resources, as only you can, by coming together as you have before--
including, in the coming years, to avert the return of sequestration 
once again. As long as you do, I know our national security and 
national strength will be on the right path, and America's military 
will continue to defend our country and help make a better world for 
generations to come.
    Thank you.

    Senator Cochran. Thank you very much, General Carter.
    I am now going to invite the Chairman of the Joint Chiefs 
of Staff, General Dunford, to make whatever opening statement 
he would submit to the committee. And then we will turn to our 
members of the subcommittee for any questions of the panel.
    General Dunford.
STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, 
            CHAIRMAN, JOINT CHIEFS OF STAFF
    General Dunford. Chairman Cochran and distinguished 
members, thanks very much for the opportunity to join Secretary 
Carter and Secretary McCord in appearing before you here today.
    I am honored to represent the extraordinary young men and 
women of the joint force. Our soldiers, sailors, airmen, 
marines, and our civil servants remain our single most 
important competitive advantage. And thanks to your support, 
the United States' military is the most capable fighting force 
in the world.
    I don't believe we should ever send Americans into a fair 
fight; rather, we have to maintain a joint force that has the 
capability and credibility to assure our allies and partners, 
deter aggression, and overmatch any potential adversary. This 
requires us to continually improve our joint warfighting 
capabilities, restore full-spectrum readiness, and develop the 
leaders who will serve as the foundation for the future.
    The United States is now confronted with challenges from 
both traditional state and non-state actors. The Department has 
identified five strategic challenges, and Secretary Carter has 
outlined those challenges. Russia, China, Iran, and North Korea 
continue to invest in military capabilities that reduce our 
competitive advantage. They're also advancing their interests 
through competition with a military dimension that falls short 
of traditional armed conflict in the threshold for a 
traditional military response. Examples include Russian actions 
in the Ukraine, Chinese activities in the South China Sea, and 
Iran's malign activity across the Middle East. At the same 
time, non-state actors, such as ISIL and Al Qaeda, pose a 
threat to the homeland, the American people, our partners, and 
our allies. Given the opportunity, such extremist groups would 
fundamentally change our way of life.
    As we contend with the Department's five strategic 
challenges, we recognize that successful execution of our 
defense strategy requires that we maintain credible nuclear and 
conventional capabilities. Our strategic nuclear deterrent 
remains effective, but it's aging, and it requires 
modernization. Therefore, we are prioritizing investments 
needed for safe, secure, and effective nuclear deterrent.
    We're also making investments to maintain a competitive 
advantage in our conventional capabilities, and we must further 
develop capabilities in vital and increasingly contested 
domains of space and cyberspace.
    As the joint force acts to mitigate and respond to 
challenges, we do so in the context of a fiscal environment 
that has hampered our ability to plan and allocate resources 
most effectively. Despite partial relief by Congress from 
sequester-level funding, the Department has absorbed $800 
billion in cuts and faces an additional $100 billion of 
sequestration-induced risk through fiscal year 2021.
    Absorbing significant cuts over the past 5 years has 
resulted in our underinvesting in critical capabilities, and 
unless we reverse sequestration, we'll be unable to execute the 
current defense strategy, and specifically to address the five 
challenges that the Secretary mentioned in his opening remarks.
    The fiscal year 2017 budget begins to address the most 
critical investments required to maintain our competitive 
advantage, and to the extent possible, within the resources 
provided by the 2015 Bipartisan Budget Act, it addresses the 
Department's five challenges. It does so by balancing three 
major areas: investment in high-end capabilities, the 
capability and the capacity to meet our current operational 
demands, and the need to rebuild our readiness after an 
extended period of war. In the years ahead, we'll need adequate 
funding levels and predictability to fully recover from over a 
decade at war and delayed modernization.

                          OHIO-CLASS SUBMARINE

    A bow wave of procurement requirements in the future 
include the Ohio-class submarine replacement, continued cyber 
and space investments, and the long-range strike bomber. It 
will also be several years before we restore full-spectrum 
readiness across the services and replenish our stocks of 
critical precision munitions. And I know the committee has 
heard from the service chiefs on the specifics of readiness 
recovery.
    In summary, I'm satisfied that the fiscal year 2017 budget 
puts us on the right trajectory, but it will take your 
continued support to ensure that the joint force has the depth, 
the flexibility, the readiness, and the responsiveness that 
assures our men and women will never face a fair fight.
    Once again, thank you for the opportunity to appear before 
you this morning, and I look forward to your questions.
    [The statement follows:]
           Prepared Statement of General Joseph Dunford, Jr.
                              introduction
    Chairman Cochran, Ranking Member Durbin, members of this Committee, 
this posture statement addresses the state of our Nation's armed 
forces, the current security environment, and the opportunities and 
challenges that lie ahead.
    I am humbled and honored to represent the incredible men and women 
of our Joint Force. During my first 5 months as Chairman, I have 
engaged Soldiers, Sailors, Airmen, Marines, and Coast Guardsmen at 
every level. I am confident, and you should rest assured, that the 
United States' military is the most capable fighting force in the 
world. The character, ingenuity, competence, and self-sacrifice of the 
service members in our All-Volunteer Force remain our single greatest 
warfighting competitive advantage. I would like to express my gratitude 
to this distinguished body for its support in ensuring that we maintain 
the best equipped, trained, and led force in the world.
    With the continued support of Congress, the Joint Force will 
continue to adapt, fight, and win in current operations while 
simultaneously innovating and investing to decisively win future 
conflicts. We must never send young Americans into a fair fight. 
Rather, we must maintain a Joint Force that assures our allies and 
partners, deters potential adversaries, and has unquestioned overmatch 
when employed. This requires us to focus on improving joint warfighting 
capabilities, restoring joint readiness, and developing leaders who 
will serve as the foundation of the future Joint Force.
                          strategic environment
    The institutions and structures that have underpinned international 
order for the last several decades remain largely intact. However, the 
United States is now confronted with simultaneous challenges from both 
traditional state actors and non-state actors. The Department has 
identified five strategic challenges--Russia, China, North Korea, Iran, 
and Violent Extremist Organizations. Russia, China, Iran, and North 
Korea present two distinct challenges to our national security. First, 
they continue to invest in military capabilities that reduce our 
competitive advantage. Second, these actors are advancing their 
interests through competition with a military dimension that falls 
short of traditional armed conflict and the threshold for a traditional 
military response. This is exemplified by Russian actions in Ulcraine, 
Chinese activities in the South China Sea, and malicious cyber 
activities. At the same time, non-state actors such as ISIL, al-Qaida, 
and affiliated organizations are destabilizing parts of the 
international community, attacking our global interests and threatening 
the homeland. We must address these challenges to protect the stability 
of the international order and preserve U.S. influence.
    Successful execution of our defense strategy requires that we 
maintain credible nuclear and conventional capabilities. Our strategic 
nuclear deterrence force remains safe, secure, and effective but is 
aging and requires modernization. We are prioritizing renewed long-term 
investments in early warning sensors; nuclear command, control, and 
communications; and our triad forces. Similarly, we are making 
investments to maintain a competitive advantage in our conventional 
capabilities. However, potential vulnerabilities to our national 
security extend beyond just conventional or nuclear threats. To 
preserve the security of the homeland, we must prevent the 
proliferation and use of WMD and associated technologies. We must also 
further develop our capabilities in the vital and increasingly 
contested domains of Cyber and Space.
    Future conflict with an adversary or combination of adversaries i s 
taking on an increasingly transregional, multi-domain, and multi-
functional nature. This is a marked shift from how past conflicts were 
fought and will put significant stress on the Department's 
geographically-based organizational structure and associated command 
and control (C2) architecture. Future conflict will spread quickly 
across multiple Combatant Command geographic boundaries, functions, and 
domains. We must anticipate the need to respond to simultaneous 
challenges in the ground, air, space, cyberspace, and maritime domains. 
It is this type of operating environment that informed our investments 
in the President's Budget 2017 and our efforts to more effectively 
integrate joint capabilities.
    As the Joint Force acts to mitigate threats to U.S. interests 
against the backdrop of the Department's five strategic challenges, we 
do so in the context of a fiscal environment that hampers our ability 
to plan and allocate resources most effectively. Despite partial relief 
by Congress from sequester-level funding since fiscal year 2012, the 
Department is absorbing approximately $800 billion in cuts compared to 
the 10-year projection in the fiscal year 2012 Budget, and faces an 
additional $100 billion of sequestration-induced risk through fiscal 
year 2021. Absorbing cuts of this magnitude has resulted in 
underinvestment in critical capabilities. President's Budget 2017 takes 
necessary steps toward s balancing the needs of meeting current and 
future operational requirements, investing in capability development, 
and keeping faith with service members and their families. We must 
continue to work together to develop future budgets which provide the 
investment levels and flexibility needed to address our national 
security interests.
                 current assessment of the joint force
    As directed in the 2014 Quadrennial Defense Review, the U.S. Armed 
Forces must be able to simultaneously defend the homeland while waging 
a global counterterrorism campaign, deter potential adversaries, and 
assure allies. If deterrence fails, the U.S. military must be capable 
of defeating one adversary while denying a second adversary's 
objectives in a different region. Due to shortfalls in capacity and 
critical capabilities such as ISR and long-range strike, as well as 
increased timelines for force movements, the Joint Force will be 
challenged to respond to a major contingency while simultaneously 
defending the homeland and continuing the counter-VEO mission. 
Capability and capacity shortfalls would be particularly acute if the 
force were called to respond to a second contingency on an overlapping 
timeline. Moreover, some allies and partners are less capable or 
willing to fill these gaps than in the past.
    Today, Combatant Command assigned missions can be accomplished, but 
all Combatant Commanders cite resource limitations and capability 
shortfalls that may increase casualties, lengthen response timelines, 
and extend the duration of a future conflict. There are also shortfalls 
in our ability to conduct day to day shaping activities that serve to 
mitigate the risk of conflict and properly posture the force in event 
of conflict. These shortfalls include the number of ready response 
units in the Services' non-deployed force, theater ISR assets, Command 
and Control, intelligence, cyber operations, precision munitions, 
missile defense, and logistics.
    Recovery of full-spectrum Joint Force readiness remains fragile. 
The adverse impact of budget reductions over the past several years 
combined with a persistently robust global demand for forces and 
capabilities continues to impede our ability to rebuild readiness after 
more than a decade of contingency operations. Regaining full-spectrum 
capabilities and appropriate levels of material readiness will take 
time, resources, and a healthy industrial base.
    The Joint Force has maintained competitive advantage in technology 
for several decades. However, this advantage has been eroded by our 
adversaries' efforts to improve their war-fighting capabilities and 
avoid or counter U.S. military technological strengths. Moreover, the 
rapid pace of technological advances combined with the wide 
proliferation of new technologies has allowed our adversaries to more 
easily acquire advanced capabilities. This is highlighted by the 
increasing ease of access to cyber and space technologies and expertise 
in the commercial and private sectors. Adversaries are able to diminish 
the long-term advantage of key U.S. capabilities by leveraging access 
to commercial technology, targeting our defense industrial base with 
cyber espionage and sabotage, and developing capabilities within 
tighter development cycles than our bureaucratic acquisition cycle 
allows.
                  capability trends for key challenges
    The Department's five strategic challenges were the primary driver 
behind our risk assessment. For a classified analysis of these 
challenges and our response options, please review my Chairman's Risk 
Assessment and the Secretary's Risk Mitigation Plan.
    Russia.--Russia's actions threaten NATO cohesion and undermine the 
international order. Russia's military modernization and doctrine 
development aim to neutralize traditional U.S. competitive advantages 
and limit strategic options.
    The Russian military presents the greatest challenge to U.S. 
interests. Russia is also the only actor aside from the United States 
that can project strategic power simultaneously in multiple regions. To 
assure our national security and reinforce international order, the 
United States and our NATO allies must improve our military capability, 
capacity, and responsiveness to deter a resurgent Russia. While Russia 
has not signaled the intent to directly attack the United States or our 
NATO allies, Russia's National Security Strategy identifies the United 
States and the expansion of NATO as threatening their national 
security. Moscow's strategic nuclear capabilities represent a potential 
existential threat to the United States, and their non-strategic 
nuclear capabilities threaten our allies and U.S. forward-based forces 
in Europe and Asia. Russia has also shown a willingness to use 
competition short of traditional military conflict--such as in 
Ukraine--to pursue its strategic goals.
    In recent years, Russia has undertaken a long-term strategic 
armaments program designed to develop military capabilities and systems 
that erode our competitive advantage across the spectrum of conflict. 
Russia has modernized its strategic nuclear forces, enhanced their 
force projection and anti-access/area denial (A2/AD) capabilities, and 
significantly increased its proficiency in executing hybrid operations. 
Operations in Ukraine and Syria serve to demonstrate these new 
capabilities and increase their proficiency.
    In the Cyber domain, Russia is a peer competitor of the United 
States and has demonstrated a willingness to exploit cyber to achieve 
its objectives. We suspect Russia has conducted a range of cyber 
operations against government, academic, and private networks. Russian 
cyber capability could potentially cause considerable damage to 
critical network equipment and national infrastructure throughout the 
United States and Europe. In the near to medium term, Russia is also 
modernizing its counter-space capabilities to defeat a wide range of 
U.S. space-based capabilities while seeking to secure Russian freedom 
of action.
    In summary, Russia is improving its high-end warfighting 
capabilities and closing the gap on our competitive military 
advantages. Since 2008, Russia has demonstrated increasingly 
sophisticated military capabilities and doctrine. In these operations, 
Russia has broadly operated across the spectrum of conflict to include 
information operations and cyber warfare. Russia is the only actor that 
can project strategic power in multiple regions to threaten U.S. 
national interests and coerce U.S. and allied decision-makers.
    President's Budget 2017 addresses Russia's aggressive policies and 
military modernization through investment in a number of high-end 
capabilities. The budget request also quadruples funding for the 
European Reassurance Initiative (ERI) to $3.4 billion in fiscal year 
2017 to reassure our NATO allies and deter Russian aggression.
    China.--China's rapid military modernization and expanding presence 
in Asia and beyond increase the probability for misunderstanding and 
miscalculation.
    China is engaged in a sustained military modernization effort that 
is reducing our competitive military advantage against it. This effort 
is coupled with an ambitious foreign military-to-military engagement 
program that aims to acquire advanced tactics, training, and procedures 
from other developed militaries. China is also seeking to improve the 
joint capability of its armed forces to project power-enhancing its 
ability to fight and win a high-intensity regional conflict. Critical 
to Chinese efforts is the development of capabilities that specifically 
counter U.S. operational strength.
    Over the course of the last year, China's military operations have 
expanded in size, complexity, duration, and geographic location. 
Additionally, China continues to make large-scale investments in 
advanced A2/AD capabilities, including short-, medium-, and 
intermediate-range ballistic and cruise missiles employing 
countermeasures to deny U.S. missile defense systems. China is also 
investing in land attack and anti-ship cruise missiles, counter-space 
weapons, cyber, improved capabilities in nuclear deterrence and long-
range conventional strike, advanced fighter aircraft, integrated air 
defenses, undersea warfare, and command and control capabilities. 
China's nuclear-capable missile forces pose a military risk to the U.S. 
homeland. China's land-based missile forces continue to expand, 
increasing the number of nuclear warheads capable of striking the 
United States as well as bases in the Pacific theater.
    The aggregate of China's expanding, well-resourced, and well-
trained cyberspace forces represent a threat to the United States. 
China's use of computer network attacks in a conflict with the United 
States or our allies and partners could seriously limit access to 
cyberspace and further degrade deployment and sustainment of forces. In 
the Space domain, China continues to enhance its ability to support 
terrestrial operations. By pursuing a diverse and capable range of 
offensive space control and counter-space capabilities, China is also 
working to diminish U.S. space dominance.
    In summary, China's rapid military modernization is quickly closing 
the gap with U.S. military capabilities and is eroding the Joint 
Force's competitive military advantages. China's military forces can 
constrain U.S. military operations in the Western Pacific and hold key 
U.S. infrastructure and facilities at risk. Its strategic capabilities 
are improving and present an increasing risk to the U.S. homeland and 
our allies.
    President's Budget 2017 is supportive of our commitment to the 
Asia-Pacific rebalance. It invests in high-end capabilities, 
particularly those needed to maintain undersea dominance and to counter 
A2/AD capabilities. The budget request also funds the buildup of Guam 
as a strategic hub, initiation of P-8 maritime patrol aircraft 
rotations in Singapore, implementation of rotational initiatives in 
Northern Australia, and positioning F-35 fighters in Japan in 2017.
    North Korea.--North Korea's nuclear weapons and ballistic missile 
programs, increasing asymmetric capabilities, and willingness to use 
malicious cyber tools threaten the security of the homeland These 
capabilities, alongside conventional forces, also threaten our allies 
in the region.
    North Korea has an opaque and confrontational national leadership, 
the fourth largest army in the world, and increasing nuclear and 
ballistic missile capabilities. The regime represents an immediate 
threat to U.S. allies in the region and an increasing threat to U.S. 
territories and the homeland.
    The United States maintains a competitive military advantage 
against the relatively low-technology North Korean military. However, 
in the event of a conflict on the peninsula, North Korea may be able to 
seize the initiative and rapidly escalate hostilities utilizing special 
operations forces, mass, and long-range fires. Risk of large numbers of 
civilian and military casualties remains high.
    North Korea continues to develop its offensive and intelligence-
collection capabilities aimed at exploiting U.S. and allies' cyber 
domains. North Korea's current cyber capabilities remain modest and 
pose the greatest threat to poorly defended networks. We expect North 
Korea to continue investing in more capable cyber tools to develop 
asymmetric options which can be effective against more sophisticated 
networks.
    In summary, North Korea's ballistic missile and nuclear 
developments, willingness to conduct malicious cyber activities, and 
potential to seize the initiative in a conflict on the peninsula pose 
risks to the security of the United States and our allies.
    As previously noted, President's Budget 2017 is supportive of our 
commitment to the Asia-Pacific rebalance and accounts for the 
challenges posed by North Korea. The budget provides additional funds 
for conventional munitions and continues investment in missile defense.
    Iran.--Continued expansion of Iranian malign influence in the 
Middle East threatens the stability and security of key regional 
partners. Iran is increasingly capable of restricting U.S. military 
freedom of action in the region.
    Iran is improving the quality and quantity of select conventional 
military capabilities. Specifically, Iran continues to leverage its 
position on the Strait of Hormuz to pursue an area denial strategy with 
increasing capability and capacity of ISR, anti-ship cruise missiles, 
fast attack craft, fast inshore attack craft, submarines, and mines. 
Iran augments its maritime patrol capacity with unmanned aerial 
reconnaissance systems and is developing an armed unmanned aerial 
system capability. Improvements in the quality, quantity, and lethality 
of Iran's military capabilities threaten both U.S. interests and 
freedom of action within the region.
    To date, Iran has not demonstrated the capability to strike the 
continental United States with a ballistic missile. However, Iran has 
made significant strides in its missile development programs since 
2009, when it successfully launched its first satellite. In 2010, Iran 
unveiled a new space launch vehicle that--if configured as a ballistic 
missile--would be capable of reaching the United States. In the Cyber 
domain, Iran's capabilities present a limited but increasing threat to 
the United States. Iran has demonstrated some degree of success in 
targeting vulnerable critical infrastructure networks.
    In summary, Iran and its malign activities present the greatest 
threats to U.S. interests in the Middle East and North Africa. Tehran 
has demonstrated the ability to project influence across the region and 
presents an asymmetric threat to the United States and its regional 
partners. Iran's conventional military modernization is not likely to 
compete with U.S. capability, but its ballistic missile force can hold 
key regional U.S. infrastructure at risk.
    President's Budget 2017 addresses Iran's malign activities though 
investments in capabilities that improve our posture, enhance regional 
partnerships, and provide options in the event of a contingency. 
Specifically, the budget funds additional capabilities for power 
projection, sea control, and regional missile defense.
    Violent Extremist Organizations.--VEOs threaten the stability and 
security of key regional partners and many of our closest allies. Their 
ability to inspire attacks threatens the security of U.S. citizens and 
interests at home and abroad.
    VEOs are distinct from the other four threats, representing both an 
immediate and long-term risk. Counter-VEO operations will require 
continued focus and resources even if the Joint Force is called on to 
respond to a contingency involving Russia, China, Iran, or North Korea. 
While VEOs do not pose an existential threat to the United States, they 
continue to increase their abilities to inflict harm upon our vital 
interests. Several of our partner nations-from South Asia to the Middle 
East and Africa--are battling VEOs that have established territorial 
control and are directly challenging existing governments. U.S. values 
and the rules-based international order are also threatened by VEOs. 
Additionally, VEO-driven conflicts have generated mass migration and 
significant flows of foreign fighters to and from conflict zones, which 
poses risk to the United States and our allies and partners in the 
Middle East, North Africa, and Europe.
    The President's Budget 2017 submission funds our ongoing counter-
VEO operations. President's Budget 2017 OCO funding will help establish 
counterterrorism platforms in South Asia (Afghanistan), the Middle East 
(Levant), East Africa (Djibouti), and an enhanced presence in North/
West Africa. These platforms will provide sustainable, flexible, and 
scalable nodes from which to conduct planning and synchronize 
operations within the U.S. Government and with allies and partners.
                 crosscutting sources of military risk
    The Joint Force faces a variety of crosscutting sources of military 
risk: gaps and shortfall s that impact our ability to accomplish our 
missions and objectives, both in today's operations and in tomorrow's 
potential conflicts.
Multiple, Overlapping Contingencies
    In accordance with the 20 14 Quadrennial Defense Review, the U.S. 
Armed Forces must be capable of simultaneously defending the homeland 
while waging a global counterterrorism campaign, deterring potential 
aggressors, and assuring allies. If deterrence fails, U.S. forces must 
also be capable of defeating an adversary and denying the objectives 
of--or imposing unacceptable costs on--a second aggressor in another 
region. The Joint Force will be stressed to execute a major contingency 
operation on desired plan timelines with available assets, while 
simultaneously defending the homeland and continuing the countertenor 
fight against VEOs. Response to aggression by another adversary at the 
same time would be further limited due to capacity shortfalls, force 
movement timelines, and the dedication of enabling forces and 
capabilities elsewhere.
Intelligence, Surveillance, and Reconnaissance
    A lack of theater ISR surge capacity diminishes the Joint Force's 
responsiveness and flexibility to support emergent crisis or 
contingency. Current theater ISR assets and associated analytic support 
capacity remains short of Combatant Commanders' increasing 
requirements.
High Demand--Low Density Capabilities
    HD/LD capability and capacity shortfalls affect our ability to 
achieve assigned missions. We continue to operate systems in several 
critical mission areas and deploy personnel with specific specialty 
skills at high rates, resulting in minimal to no surge capacity in 
those areas. Similar to ISR, this negatively impacts the Joint Force's 
responsiveness and flexibility to support emergent requirements. HD/LD 
capability shortfalls that pose significant military risk include: 
missile defense systems, naval expeditionary forces, personnel recovery 
assets, airborne command and control systems, explosive ordnance 
disposal assets, air superiority and global precision strike units, and 
cyber mission forces.
Munitions
    Key precision guided munitions shortfalls are exacerbated by 
ongoing operations and may impact potential contingency response. 
Additionally, our current global inventories are insufficient for 
theater missile defense (TMD), standoff, and air-to-air munitions 
needs.
Logistics
    We are seeing increasing risk associated with the Joint Logistics 
Enterprise's ready and available capacity. Critical logistics enablers 
lack capacity and responsiveness: 79 percent of such units report 
reduced readiness levels which affects mission accomplishment 
flexibility and increases vulnerability. A majority of these elements 
are motor transportation, engineer, and cargo handling units necessary 
to support the deployment and sustainment of combat elements. Of these 
units, the vast majority reside in the Reserve Component (RC). As such, 
any contingency that requires responses on a timeline faster than that 
designated for RC mobilization will face risk from the lengthened 
timelines for combat forces and their sustainers to arrive in theater.
                    president's budget 2017 summary
    President's Budget 2017 addresses the Department's five strategic 
challenges--a resurgent Russia, a rising China, North Korea, Iran, and 
VEOs--by balancing the demands of readiness, capacity, and capability 
within the resources provided by the 2015 Bipartisan Budget Agreement. 
The total fiscal year 2017 topline, which is approximately $17 billion 
below what we planned in President's Budget 2016, required us to defer 
modernization in favor of near-term readiness and force structure. 
These reductions and delays in modernization will exacerbate the 
procurement bow wave we confront at the end of the Future Year Defense 
Program (FYDP) and compound risk to the overall balance of the Joint 
Force.
    President's Budget 2017 also contains fiscal risk. The budget 
assumes higher toplines in fiscal year 2018-2021, continued favorable 
economic factors, and future efficiencies. We also continue to depend 
on OCO funding for ongoing contingency operations and Joint Force 
readiness recovery.
Key Capability Investments
    Given a constrained topline, President's Budget 2017 prioritizes 
investments to modernize the future Joint Force while balancing 
capacity and readiness.
            TACAIR
    The Air Force accepts risk in the ``air'' domain in order to invest 
in nuclear enterprise, space, and cyber priorities. Cuts in fifth 
generation fighter aircraft procurement create risk in the mid-2020s, 
which will be mitigated by 4th generation fighter aircraft 
enhancements. President's Budget 2017 funds 54 Air Force combat-coded 
fighter squadrons in the base budget and one squadron supporting the 
European Reassurance Initiative in the OCO budget (a total of six more 
squadrons than the President's Budget 2016 plan for fiscal year 2017). 
The Department of the Navy will procure additional F-35C (+10), F-35B 
(+3), and F/A-18E/F (+14) over President's Budget 2016 levels. The 
Department of the Navy will also complete its planned buy of 109 P-8A 
by fiscal year 2019.
            Cyber
    State actors will remain the most capable threats to computer 
network operations. Non-state actors--VEOs, ideological hackers, and 
cybercriminals-have demonstrated high-level network intrusion skills 
against the U.S. Government and private entities and will continue to 
develop sophisticated tools to achieve their objectives. Developing and 
growing the Cyber mission force will require a long-term concerted 
effort. President's Budget 2017 invests in both quantity and quality of 
cyber capabilities. It funds $6.78 in fiscal year 2017 (a 13 percent 
increase) and approximately $34 billion across the FYDP in cyber 
posture and capabilities--including investments in strategic cyber 
deterrence, cyber security, and offensive cyber.
            Space Acquisition
    President's Budget 2017 makes significant investment in space 
posture and capability. We are funding $7 billion in fiscal year 2017 
and approximately $38 billion across the FYDP, including space 
situational awareness, space launch capabilities, and command & control 
of critical space architecture. Other budget items will harden follow-
on communications and warning satellites, accelerate GPS replacement to 
assure targeting accuracy and ability to resist jamming, and add 
security features to prevent exploitation and increase overall system 
resilience, safety, and stability.
            Airborne ISR
    There is an ever-increasing demand for ISR assets to inform and 
enable our current and future warfighting efforts; President's Budget 
2017 invests in aircraft procurement and ISR support infrastructure. 
This is an area where we must increase both capacity and capability in 
the coming years. Continued shortfalls will stress the force to meet 
current requirements and do not provide any surge capacity to address 
near-peer challengers or overlapping contingency operations.
    The Navy is reducing planned Unmanned Carrier Launched Airborne 
Surveillance and Strike program capabilities in order to deliver a low-
end, permissive-environment tanking and surveillance capability (saving 
approximately $680 million across the FYDP). The Air Force projects no 
significant change from President's Budget 2016, maintaining its plan 
for 60 M Q-9 Combat Air Patrols and JSTARs Recapitalization.
            Power Projection
    President's Budget 2017 addresses critical power projection 
capabilities and related assets required to operate in non-permissive 
environments stemming from adversary advances in A2/AD. President's 
Budget 2017 leverages ongoing initiatives to improve survivability of 
critical assets and enhance offensive strike capability. It invests in 
hypersonic vehicle concepts, flight demonstrations, infrastructure, and 
advanced conventional warheads. It also funds improvement in critical 
base and missile defenses through expedient shelters and multispectral 
camouflage. Finally, it increases the survivability in the undersea 
domain by investing in Maritime Strike Tactical Tomahawk capability, 
Unmanned Undersea Vehicle capabilities, additional Virginia Payload 
Modules, and Acoustic Superiority Program upgrades on OHIO- and 
VIRGINIA-class submarines.
            Shipbuilding
    Joint Force shipbuilding investment is on track to meet fleet goals 
in President's Budget 2017. The Navy continues to grow the size of the 
fleet toward the goal of 308 ships to meet warfighting and posture 
requirements. President's Budget 2017 continues procurement of 10 DDG-
51 Flight III destroyers across the FYDP but reduces planned Littoral 
Combat Ship procurement from 52 to 40. It also invests in undersea 
capabilities as described previously.
            Munitions
    President's Budget 2017 invests in rebuilding depleted stocks of 
precision guided munitions and in future critical munitions 
capabilities and enhancements. Specifically, the budget includes $1.8 
billion for precision guided munition replenishment due to usage during 
ongoing operations. Looking toward the future, the Navy is maximizing 
production of SM-6 missiles while maintaining required levels of other 
advanced munitions. It is also beginning development of follow-on 
torpedoes and modernizing Tactical Tomahawk to enhance maritime strike 
capability. The Air Force will continue with last year's plan to 
convert unguided bombs into all-weather smart weapons. The Marine Corps 
and the Army are funding RDT&E to support fiscal year 2020 development 
of area effects munitions compliant with the Departmental cluster 
munitions policy. Finally, the Army plan procures an additional 80 Army 
Tactical Missile System (ATACMS) Service Life Extension Program 
missiles, which bridges the capacity gap until the Army can develop and 
procure improved capability ATACMS.
            Nuclear Enterprise Sustainment and Recapitalization
    Because nuclear deterrence is the highest priority of the 
Department of Defense, President's Budget 2017 enhances investment in 
all three legs of our aging nuclear triad. Within the nuclear 
enterprise, the budget funds $19 billion in fiscal year 2017 and 
approximately $108 billion across the FYDP, adding $9.8 billion (an 
increase of 10 percent) to sustain and recapitalize the nuclear triad 
and strategic command, control, and communication systems. I t invests 
in legacy strategic bomber modernization, ground-based strategic 
deterrence, incremental funding of the first ship of the OHIO-class 
replacement program, long-range strike bomber, long-range standoff 
cruise missile, and the security helicopter replacement.
            Counterterrorism
    The fiscal year 2017 budget request includes approximately $13 
billion to support counterterrorism efforts in South Asia 
(Afghanistan), the Middle East (the Levant), East Africa (Djibouti), 
and an enhanced presence in North/West Africa. These capabilities are 
essential to implementing a new framework to counter terrorism, 
particularly against ISIL, that more effectively synchronizes counter-
VEO efforts within the Department and across the government.
People and Institutions
            Talent and Leadership
    Beyond budgets and technology, the All-Volunteer Force remains our 
greatest asset and true warfighting competitive advantage. The future 
operating environment will place new demands on leaders at all levels. 
Our leaders must have the training, education, and experience to meet 
those demands. We are undertaking a series of significant changes to 
the personnel systems which have previously underpinned the Joint 
Force: military pay and compensation modifications, retirement reforms, 
talent management initiatives, and diversity integration efforts. These 
changes aim to make the Joint Force an inclusive, more agile, and 
stronger force by leveraging the talents of all qualified citizens to 
meet the challenges of the future. The Services are responsible to 
assess and execute these changes; not all will be easy. However, we are 
committed to preserving standards, unit readiness, and cohesion, and we 
will steadfastly adhere to our principles of dignity and respect for 
all service members over the continuum of their service and beyond.
            End strength
    Our end strength is driven by strategy but is also constrained by 
current fiscal realities. President's Budget 2017 projects the force 
end strength consistent with the 2014 QDR forecasts. However, the 
emergence of ISIL and Russian revanchism has changed the strategic 
environment since the QDR was published. Force availability shortfalls 
hamper our ability to rapidly respond to multiple, overlapping 
contingencies. End strength reductions below the current plan must be 
carefully weighed against the end states sought by the Department.
    Active Duty Service end strengths in the proposed President's 
Budget 2017 remain relatively constant across the FYDP (less than 0.7 
percent overall reduction by fiscal year 2021). The Active Component 
will be reduced by 9,800 personnel across the Services by fiscal year 
2021, with most of that reduction coming in the Army by fiscal year 
2018. Reserve Component end strength will see negligible decreases. 
Specifically, the Army will maintain end strength and capacity to meet 
operational requirements, and build a rotationally focused and surge-
ready 980K Total Army (450K Active Component), consistent with the 2014 
QDR. Both the Navy and Marine Corps will maintain Active Component end 
strength numbers at 323K and 182K, respectively. The Air Force will 
maintain Active Component end strength at 317K.
                               conclusion
    President's Budget 2017 reflects difficult choices made in the 
context of today's security challenges and fiscal constraints. Our 
budget submission balances investment in the high-end capabilities 
needed to counter major power competitors, the capacity to meet current 
operational demands and potential contingencies, and the need to 
rebuild read ness after an extended period of war. However, to 
accommodate a constrained topline, President's Budget 2017 defers near-
term modernization which will only exacerbate a coming bow wave of 
strategic recapitalization and other procurement requirements. More 
broadly, the cumulative effect of topline reductions over the past 
several years has limited the flexibility and resiliency of the Joint 
Force, and looking ahead I am concerned that the demand for future 
capabilities and capacity will outpace the resources available, forcing 
even more difficult decisions to match strategy and resources. I am 
grateful to Congress for your continued support, and I look forward to 
working with you to ensure the United States maintains the most capable 
fighting force in the world--and to ensure we never have to send 
American men and women into a fair fight.

    Senator Cochran. Thank you, General. I appreciate your 
comments and your leadership.
    I'm going to call on the Senator from Alabama, Mr. Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, you alluded to a number of these things in 
your opening statement, but correct me if some of my 
observations might be off. We have a resurgent Russia under 
Putin, who seems to be very venturesome, to say the least, and 
nobody to rein him in at the moment other than himself and 
maybe dangerous to the world. We have a China that thinks long 
range, that we do a lot of trade with, but is determined to 
modernize their nuclear weapons system--they're doing it; it 
costs a lot of money, as you well know--and perhaps to build a 
blue-water navy, which takes years we know, and at the same 
time, looking forward to challenging us in some of the busiest 
trade routes in the world.
    Then we have Iran coming on. Perhaps maybe the 
administration is looking for some kind detente with them or 
something, I don't know, but I see that as a real danger.
    Then you've got North Korea, which you alluded to, that the 
only people I know that can rein him in would be China, if they 
chose to.
    Then we've got the Middle East, and perhaps a de facto 
dismembership of some areas and things going on.
    Are we fighting in the Middle East a war of a sense of 
containment? You know, are we fighting a war to win? And what 
is the goal there?
    But first let's talk about the macro stuff. Is that----
    Secretary Carter. Senator, yeah, I think you characterized 
things quite well. I don't believe that the nuclear agreement 
with Iran constitutes a grand bargain of any kind or will lead 
to your word ``detente'' of any kind, or at least we're not 
anticipating that.
    Senator Shelby. What do you think it does constitute?
    Secretary Carter. Well, it takes off the table one danger 
to us, but we are standing unchanged in our posture there 
because Iran--the possibility of Iranian aggression, malign 
activities in the region, our friends and allies, that's 
unchanged.

                          MIDDLE EAST STRATEGY

    And that gets to the second part of your question, which is 
about our strategy in the Middle East in general. And I think 
that the Middle East is a very complex and disturbed place, but 
our eyes are firmly on American interests. Those are clear. The 
place may be turbulent, but our interests are clear. One of 
those interests is, and of course, the paramount one is, 
defending our own people from terrorism arising there. That is 
why we're intent upon, determined, and I'm confident we will, 
defeat ISIL in Iraq and Syria. But as you also indicate, there 
must follow that some putting back together of Iraq and Syria 
as places that can keep their own order. That's a big 
challenge----
    Senator Shelby. It is.
    Secretary Carter. [continuing]. But it's one that we work 
on with Prime Minister Abadi. I just saw him last week. The 
Chairman was in Iraq. Syria is a much more complicated 
situation, but Secretary Kerry is working on the diplomacy 
associated with that. But I think we start with, not the 
complications of a complicated region, which I don't expect to 
go away anytime soon, but with American national interests and 
our need to defend them.
    Senator Shelby. Mr. Secretary, bring us up to date on 
Russia, from your perspective. I know this is an unclassified 
hearing here, but are you concerned about Russia at times?
    Secretary Carter. Yes. Yes. And I think you characterized 
it quite well. And our response to that, and our posture on 
that, is a strong one, a balanced one, strong in the sense that 
we are making investments, I detailed some of those, our budget 
details more, to make sure that we keep our military edge 
there.
    Senator Shelby. Number one.
    Secretary Carter. Yes. We are also quadrupling the European 
Reassurance Initiative, which allows us to do more with our 
NATO partners there. We're challenging our NATO (North Atlantic 
Treaty Organization) partners and working with them to develop 
what I've called a new playbook for NATO, a playbook that 
anticipates the kind of aggression or undermining, ``little 
green men'' type undermining, that will be different from the 
old Cold War situation, but still needs to be countered. So we 
have a lot of concerns about Russia. We work with them where we 
can, but where we can't, we need to stand strong.
    Senator Shelby. We live in a tough world, don't we?
    Secretary Carter. We do.

                             RD-180 ENGINE

    Senator Shelby. Sir, just to digress just a minute. The RD-
180 engines, we've talked about this, we've worked with you 
before on that----
    Secretary Carter. Yes.
    Senator Shelby [continuing]. Some of us have here. How 
important is it, one, for us to build the American engine, 
which we all want to do, you know, down the road, not to rely 
on anybody except ourselves? And how important is it that we 
have those engines, a number of them, for a few years, we do 
this for our national security to keep from having----
    Secretary Carter. Well, our budget does propose that we 
continue to buy RD-180s for a time, and I'll explain why. Down 
the road, we want to have two or more competitive launch 
service providers that are purely American, that's where we 
would like to get to. In the meantime, we have to launch our 
national security payloads, and there are two ways we can do 
that: we can hold our noses, buy RD-180s, until that situation 
is created, or--and fly Atlases with RD-180s; the alternative 
is to fly our payloads on Delta, which is technically feasible, 
but much more expensive. And so that's the choice, and we have 
chosen the choice of going Atlas, recognizing the distasteful 
fact that that necessitates purchase of up to 18 more RD-180 
engines, the alternative being Delta, but the alternative being 
much more expensive. It's that simple.
    Senator Shelby. Thank you very much.
    Senator Cochran. The Chair now recognizes Senator Steve 
Daines, the distinguished Senator from Montana.
    Senator Daines. Thank you, Mr. Chairman.
    Thank you, Secretary Carter and General Dunford, for being 
here this morning.
    Last month, the President held a nuclear summit here in 
Washington speaking about the need for our allies to protect 
their nuclear weapons, and all the same time while here in 
America in our backyards we're not meeting our own security 
standards. It's been made public now that our Vietnam era 
helicopters don't meet the requirements to provide adequate 
security to the nuclear silos in Montana as well as Wyoming and 
North Dakota. The Air Force has known about this since before 
9/11.
    Given the increased risk for terrorism here at home, I'm 
concerned on how low the priority list this seems to be. The 
Air Force still has not decided how they're going to replace 
these helicopters, but either direction they go is going to 
take over a year, and I think that's unacceptable.

                  INTERCONTINENTAL BALLISTIC MISSILES

    Secretary Carter, what steps has the Department taken to 
move this timeline forward? And when can we expect to see 
helicopters that actually meet the security requirements to 
properly defend our ICBMs (intercontinental ballistic missile)?
    Secretary Carter. Thank you, Senator. First of all, let me 
associate myself with your basic premise, which is we need a 
safe, secure, and reliable nuclear deterrent as far into the 
future as I can see. And the ICBMs are a critical part of that, 
and for their safety, a replacement of the UH-1Ns, which are 
now the helicopters, very old helicopters, that convey the 
security forces around the silo fields, as you very well know, 
definitely need to be replaced. They need that to be done 
urgently. I'm monitoring that closely, the acquisition strategy 
that the Air Force and the Under Secretary for Acquisition, 
Technology, and Logistics are putting together to do that. 
There are a couple of alternatives there. They're moving 
forward with that, and I think perhaps the best thing I can do 
is offer you a briefing on their acquisition strategy. But they 
are under direction to go quickly in view of precisely the fact 
that you cite and that Admiral Haney has certainly brought to 
my attention, also to the Chairman's attention, so I'm very 
aware of the issue.
    Senator Daines. I appreciate it. And we have a very porous 
northern border there, it's big country out there in Montana 
and the Dakotas and so forth, so I appreciate your support, and 
I look forward to a briefing on that, Secretary Carter, as 
well.
    I wondered, has the Department considered activating the 
National Guard or utilizing other resources that might secure 
the weapons until the Air Force purchases a replacement 
helicopter that meets the requirements?
    Secretary Carter. Senator, that may be a very good idea. I 
have not heard that in our discussions. I'll take that back and 
add it. I should say that the Guard in general around the 
country provides a critical augmentation for us in NORTHCOM and 
also STRATCOM. So it is part of the planning in both of those 
commands to make use of the reserve component, including the 
Guard. And, of course, the Guard has proven very valuable to us 
overseas over the last 15 years.
    Senator Daines. All right. Thank you, Secretary Carter.
    I want to talk a little about cyber attacks potential 
threat to our nuclear assets. The fact that the Air Force can't 
physically secure our nuclear weapons makes me concerned that 
they can't protect them from one of our fastest growing threats 
that our Nation faces, and that's the cyber attack threat.
    I've been in the nuclear launch centers there in Montana. 
In fact, they look like something out of a Cold War movie, and 
that's because they haven't been updated since then. In fact, 
some of the communications equipment was designed in 1975, 
critical communications equipment, and I think, if I remember, 
John Denver's ``Thank God I'm A Country Boy'' was a top 10 hit 
that year.

                             CYBER DEFENSE

    While I understand some older equipment may actually have 
its benefits, the risk of cyber attacks is out there. It's 
especially true with communications equipment because some of 
our nuclear emergency action messages and retargeting messages 
are traveling over telephone wires. I think we both can agree 
there is some risk in that.
    Secretary Carter, what steps is the Department taking this 
year to increase the cyber defense of our nuclear command, 
control, and communications systems?
    Secretary Carter. Well, Senator, I'm highly aware of the 
issue you raised. My very first job in the Department of 
Defense in 1980 was at its center, Nuclear Command and Control, 
and a lot of those systems haven't changed since then. The only 
good thing I'll say about that is that because they're not 
heavily computerized, they're not easy to get into with a cyber 
attack either. But we do need to modernize them, as you say, 
and we're investing a lot of management attention, I think of 
the Chairman and myself, and also resources in doing so.
    I prefer going into detail with that in the form of a 
classified briefing to you on the side, but your basic point, 
which is that as we modernize the command and control system, 
it inevitably includes modern information technology in it, it 
will, of necessity, have cyber vulnerabilities. And CYBERCOM's 
first job is to protect our own networks, and Admiral Rogers, 
our CYBERCOM commander, knows that nuclear command and control 
is our most important network; therefore, the most important 
part of the most important part of his job is to secure the 
nuclear command and control systems from cyber attack, and the 
Chairman knows that, and we work on that.
    And perhaps you would like to add something, Chairman?
    General Dunford. No, sir, but I think you'll see that, when 
you say, ``What are we doing?'' I think you'll see it in two 
places in the budget. You know, I mentioned the nuclear command 
and control up front; we need to modernize that. And then 
there's about $6.7 billion in the budget this year invested in 
cyber specifically, and I think both of those areas are going 
to improve the challenge that you talked about.
    Senator Daines. All right. Thank you, General Dunford.
    Senator Cochran. The time of the Senator has expired.
    Senator Daines. I'm the son of a Marine, General Dunford, 
so I got raised right. Thank you.
    Senator Cochran. The distinguished Senator from Missouri, 
Mr. Blunt.

                       MILITARY FAMILY STABILITY

    Senator Blunt. Thank you, Chairman. I want to talk to both 
of you, both General Dunford and the Secretary, about a bill 
that I introduced last year with Senator Gillibrand, from New 
York, called the Military Family Stability Act. I think it's 
very much in line with the initiative that you're making, the 
Force of the Future initiative, where people could even stay at 
an assignment longer if that was something that worked better 
for education or a spouse's professional career.
    What we were proposing, Secretary and General, what we were 
proposing, and are proposing, is that there be another option, 
which would be that people, the family, could either stay a 
little longer or could move a little earlier. We'd like some 
help that I think we're not getting from the Department to talk 
about how we could make this work in a way that would minimize 
the cost but still maximize the opportunity.
    And, General, I know that in your great career, you have to 
have seen a number of times when families were needlessly 
frustrated because the school year was a month before it 
started or a month after it was over or--we had a media 
opportunity on this and had several spouses come in, one being 
transferred from Florida to--or from Hawaii, rather, to Fort 
Leonard Wood, so she got a teaching contract at the University 
of Missouri Science and Technology. She got in a Ph.D. program 
at Saint Louis University, but then the move didn't occur in 
June, and then the move didn't occur in July, and she went 
ahead and had to move. Her husband would have been more than 
willing to go to available quarters on the base and let her 
move become the move for the family, and that just wasn't 
allowed. I would think in what you're trying to do to keep 
these highly trained people in the military, a greater level of 
flexibility.
    So I want you to respond to that, but also what I want you 
to do is help us figure out if it keeps costs down to limit 
this to two times in a career or 60 days instead of 6 months. 
We proposed up to 6 months thinking seldom would a family use 
this, seldom would they use it for 6 months, but when we talked 
to people in your office, it's, ``Well, we want to multiply 
this by 6 months for every family that ever possibly moves and 
assume they'll all take advantage of it.'' It's just not 
reasonable, and I think it's what you're trying to do. But we 
could use more flexibility when someone needs to move, wants to 
move, but just a month or two would make a big difference for 
their family.
    So if you would just both respond to that, that's my 
question.
    Secretary Carter. I'll start off, and then General Dunford 
and I have talked about this. First let me thank you and 
Senator Gillibrand for identifying this issue. I couldn't agree 
with you more. We are a married force. More than 70 percent of 
our officers are married. More than half of our enlisted are 
married. And so we try to do everything we can consistent with 
the profession of arms and readiness and cost to make their 
military service and their family life compatible. That's why 
we extended maternity leave and paternity leave, but only as 
much as we could consistent with costs and readiness, and have 
taken other steps. So I appreciate that. And to your question, 
we would look forward to working with you on that.
    I think, as I understand the proposal, and as we worked on 
the proposal, cost is--I understand the intent, agree with the 
intent--managing the cost is the issue, so we're happy to work 
with you to that end.
    And with that, let me see what the Chairman would like to 
add.
    General Dunford. Senator, I am aware of the challenge that 
you outlined, and like Secretary Carter, I very much appreciate 
your focus on military families. And I think without hyperbole 
we could say we would never have the quality all-volunteer 
force we have today, we would never be able to have done what 
we've done over the past 14 years in particular, were we not to 
have strong families supporting our men and women in uniform.
    I've also looked at it, and one, I'll commit to working 
with you and your staff to try to make whatever adjustments are 
necessary to move that through, and I have, over my career, 
seen countless individuals who have had to make those difficult 
choices. If my wife were here, I would tell you exactly how 
many moves we've made, but I think it's somewhere in the order 
of 20, and it's actually eight in the last 7 years. Now, our 
children are all grown, so it's a little easier these days. But 
I have made the choice on a couple of occasions to precede my 
family for exactly the reason you outlined, so that they could 
finish the school year and then join me at my next duty 
station.
    So I conceptually fully support what we've trying to do 
here and again appreciate your focus on that. And I think that 
what we want to do is balance the money. What I would say is 
this, if we had another dollar to spend on families, this might 
not be priority one, but it would be a priority. In other 
words, there are a number of things our families have come to 
us, and that's a big piece of what I think we want to talk 
about as well as if we had another dollar to spend on families, 
where would we spend it? And we've spent a lot of time 
soliciting their input, and we would like to make that part of 
the dialogue as well.
    Senator Blunt. Thank you both.
    Senator Cochran. The Chair recognizes the distinguished 
Senator from Maine, Senator Collins.

                           RUSSIAN CAPABILITY

    Senator Collins. Thank you very much, Mr. Chairman.
    Secretary Carter and General Dunford, Russia, as Senator 
Shelby has pointed out, has been increasingly aggressive in the 
Ukraine, in the Baltics, and in the Middle East. The reckless 
and provocative actions of the Russian military forces deployed 
in these areas increase the likelihood of a miscalculation that 
could lead to real problems between Russia and NATO. In 
addition to the violation of Turkish airspace by a Russian 
fighter, two Russian fighter jets recently flew dangerously and 
recklessly close to a U.S. destroyer, the USS Donald Cook, 
which was built in Bath Iron Works, by the way, in recent days. 
And Russian helicopters shortly thereafter also harassed the 
destroyer, flying in a simulated attack profile and failing to 
respond to numerous safety advisories that were sent in both 
Russian and in English.
    I am interested in knowing what conversations you each have 
had with the Russian Defense Ministry to protest these very 
dangerous incidents and to reduce the likelihood that Russian 
military forces operating near our NATO forces will engage in 
behavior that eventually is going to lead to military 
engagement or a serious problem and accident.
    Secretary Carter. Thanks, Senator. First let me say I share 
your concern as we do more and as Russia does more. That's the 
nature of the tension that has built up in Europe especially 
over the last couple of years since events in Crimea and 
Ukraine. It's important that the Russian military conduct 
itself professionally in the way ours invariably does, and 
Russia has not always done that.
    And to answer your question, I'll start and then the 
Chairman can do it. We do have a channel both for the Middle 
East, a military-to-military working channel, to deal with 
unprofessional conduct and unsafe or potentially dangerous 
incidents. We have that at sea, we have it in the air. It 
operates quite well, by the way, in Syria, even though we and 
Russia don't see the events in Syria at all the same way. We 
have managed at a professional military level to avoid 
incidents, and that's worked very well, but it hasn't worked 
perfectly all around the world. And so we do bring these things 
up through Russian channels. We have seen more of them in 
recent years. They are dangerous. It's unprofessional behavior.
    Let me just ask if the Chairman wants to add anything 
about----
    Senator Collins. General.
    General Dunford. Senator, I share your concern about both 
Russian capability development and their behavior of late. The 
Secretary talked about the specific mechanism we have in place 
to deal with these kind of issues. I initiated a dialogue in 
the fall with my counterpart, General Gerasimov. I have now 
spoken to him three times. And the real reason for trying to 
establish that relationship is exactly to get at the issue that 
you raised, and that is to mitigate the risk of miscalculation, 
which when you look at the nuclear enterprise, the cyber 
enterprise, the space enterprise, conventional capabilities, 
and what we increasingly see now, you know, those activities 
that really fall short of traditional war, but nonetheless 
affect our national interest and national interest of our 
partners, I think the risk of miscalculation arguably is 
greater than it was in the Cold War because the spectrum of 
challenges is wider today than it was traditionally narrow to 
just the nuclear enterprise. So we have agreed not to share in 
public the nature of our conversations so I can maintain that 
dialogue over time, but our Nation has conveyed the message 
that you'd expect us to convey on these particular incidents.
    Senator Collins. Thank you. I hope it was a very tough 
message.
    Finally, in my 25 seconds that I have remaining, let me 
just express to Secretary Carter my disappointment in the 
Department's reversal of its commitment to provide American-
made athletic footwear to new recruits. Under the longstanding 
Berry Amendment, our troops are supposed to be outfitted with 
clothing and footwear that is made in this country, and that's 
why I've recently introduced legislation that's been 
cosponsored by several of my colleagues to require the 
Department to follow the law.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Illinois, Mr. Durbin.
    Senator Durbin. Mr. Chairman, thank you.
    And members of the committee, I want to apologize for not 
being here at the outset. We had a last-minute meeting, caucus 
meeting, called, and we're doing everything within our power to 
maintain peace and harmony in the Senate, so it took a few 
moments.
    [Laughter.]

                           MILITARY AIRCRAFT

    Senator Durbin. I was late in attending, and I apologize.
    I saw that video, but you both saw it too, as those planes 
were flying over the Donald Cook, right over their ship. And I 
called the Russian ambassador afterwards and said, ``What was 
this all about?'' ``Oh,'' he says, ``they were perfectly within 
their rights to do that.'' It didn't sound right to me. So give 
me, if you will, some basic standards here where we can judge 
that kind of conduct. And also, if you can't put yourself in 
the place of the commander of that vessel as he sees a foreign 
aircraft approaching, he has a responsibility too, to the crew 
on board. What standards would he use in response?
    Secretary Carter. Well, thanks, Vice Chairman, and I'll 
start out and then ask the Chairman to pitch in, but it is 
quite clear what standards of professionalism are when one 
military aircraft is approaching another warship, so it's not 
plausible that that kind of conduct was normal and 
professional, and we don't think it was normal and 
professional, as again, our people conduct themselves normally 
and professionally in all cases.
    With respect to the behavior of our own people, I mean, I 
think it was very commendable, they didn't act in such a way as 
to escalate what was an inherently unsafe situation, but 
there's a real risk there because that ship captain has a 
responsibility to defend his ship, and an inherent right of 
self-defense. And so he doesn't have to ask anybody up the 
chain of command, to me, or anything when it comes to his 
inherent right of self-defense, and we expect him to exercise 
that right in an appropriate way. That creates, in 
circumstances like this, an inherent danger, and that's why 
what the Russians were doing is so unprofessional and so 
concerning to us, but our own people comported themselves, as 
they always do, in the way you would expect very 
professionally.
    And I'll ask the Chairman if he wants to add anything.
    General Dunford. Vice Chairman, there is a very fundamental 
requirement that the Russians had that they didn't observe, and 
that is, to communicate clearly what their intent is. And what 
is that so important? It's because the commanding officer of 
the ship has to make an assessment as to hostile action and 
hostile intent. And I can tell you the combination of unsafe 
aviation practices, and there are well-known norms that they 
should have remained within, combined with failing to properly 
communicate what they were doing, puts that commanding officer 
in a situation where he's got to make a judgment call.
    And back to Senator Collins' question, that type of 
behavior absolutely risks--establishes risk and miscalculation 
and obviously something much broader than just Russian unsafe 
and irresponsible behavior in and around the USS Donald Cook.
    Senator Durbin. Several times I've had this conversation 
with the Russian ambassador about my concern about the safety 
of the Baltics, Poland, and many of our allies in that region 
of the world. He has said--he almost laughs me off, ``Why do 
you keep bringing that up? I don't know why you're so concerned 
with it.'' This incident occurring near that theater is proof 
positive that we can't take this for granted, and I can assure 
you, I think you already know, the feelings of these countries 
is the United States is essential to their future, and our NATO 
alliance continues to be an important part of it. Now, there's 
a pretty substantial increase in the European Reassurance 
Initiative and the request by the administration. And I would 
like to ask you, if you can, to tell, expand a little bit on, 
what we think in this coming year needs to be done to make it 
clear that we're going to stand by our allies in NATO.

                    EUROPEAN REASSURANCE INITIATIVE

    Secretary Carter. Yes. There is a whole host of things, and 
I'll describe some of the most important ones, and then the 
Chairman can add whatever I've forgotten. Yes, we have 
quadrupled our request for the ERI (European Reassurance 
Initiative), hope we get favorable consideration of that. We 
think it's necessary. What is it going to pay for? It pays for 
more presence on a rotational basis of U.S. forces, ground 
forces, air forces, and naval forces in theater with particular 
attention to the Baltic States, who are very much exposed on 
that flank of NATO. It also provides equipment, including heavy 
equipment, tanks, armored personnel, carriers, artillery, and 
so forth, both rotationally deployed and in what in the old 
days we called pre-pos, that's pre-positions, there's another 
name for them now, I forget, but just a whole host of stuff.
    Senator Durbin. If I can interrupt just one second. Mr. 
Secretary, my time is up, but I also believe that the buildup 
in Kaliningrad is something that we should be very mindful of. 
Most Americans don't know where Kaliningrad is, but it is 
smack-dab in the middle of this theater, and it's controlled by 
the Russians.
    Secretary Carter. Yes.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from South Carolina, Mr. Graham.
    Senator Graham. Thank you, Mr. Chairman.
    This is an appropriations hearing, so we're trying to 
figure out, do we have the money, right? If we go back in 
sequestration next year, if there is not some relief from 
sequestration, how much damage will that do to our ability to 
deal with the threats we just discussed?
    Secretary Carter. Well, it does a lot of damage. It does 
the physical damage, meaning that we can't pay for the things 
that we have programmed we think are essential----
    Senator Graham. Would it seriously compromise the ability 
to defend this Nation?
    Secretary Carter. It does.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do, Senator.
    Senator Graham. Since 2011, when sequestration first went 
into effect, we've had the Syrian civil war, the collapse of 
Libya, the rise of ISIL, holding territory the size of Indiana, 
Russia's invasion of the Ukraine, annexation of the Crimea, 
China is building islands over resource-rich waters claimed by 
others, the Iranians are destabilizing the Mideast, they are in 
fact in control of four capitals, and North Korea is running 
wild. Is that a fair assessment of the highlights of what's 
happened since 2011? I may have left a few out.
    Secretary Carter. I think it's a fair assessment.
    Senator Graham. Okay.
    Secretary Carter. It's a dangerous world out there, and 
that's why we've got to avoid sequestration.

                            DEFENSE SPENDING

    Senator Graham. Since 2011, we've cut defense spending by 
$150 billion. Does that make any sense to you given the threats 
I just described?
    Secretary Carter. I described in my opening statement my 
dismay----
    Senator Graham. Do you agree with that, General Dunford?
    Secretary Carter [continuing]. Over the budget over the 
last 7, 8 years the way it's happened.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I agree it doesn't make any sense, 
Senator.
    Senator Graham. The last time we looked at a strategy-
driven budget, not across the board hitting an artificial 
number, was 2012 when you looked at the strategies we need to 
deal with the threats we face. We're $400 billion short of 
funding that strategy. Would you say now is the time to close 
that gap?
    Secretary Carter. Two things about that. You've got to--we 
have done our job, which is to create our budget around our 
strategy. I described that strategy and the principal threats 
that it needs to counter. The only thing I would say about 2012 
is it's now 2016, and so things are different, and I think you 
gave some examples of ways in which things are different.
    Senator Graham. Yes, if we're----
    Secretary Carter. We're not trying to carry out a strategy 
that is 4 years old. We're trying to carry out our strategy of 
today, and where we have a Russia that is more clearly 
problematic than it was 4 years ago, we have the ISIL campaign 
to wage. So both in the base and the OCO (Overseas Contingency 
Operations) you seek reflected the strategy that's appropriate 
to right now.
    Senator Graham. Gotcha. So we were $400 billion short in 
2012, and the threats were less then.
    What percentage of DOD's budget is health care?

                             TRICARE COSTS

    Secretary Carter. The healthcare is about $50 billion out 
of the 500-odd-ish, so about a little over 10 percent.
    Senator Graham. What will it be in 15 years?
    Secretary Carter. Well, it had been growing, as healthcare 
costs had throughout the country, in a really unsustainable way 
up until about 2----
    Senator Graham. Is it still unsustainable?
    Secretary Carter. No, it has slowed. I don't think that we 
take credit for that, our own management, in that regard. 
That's a trend you see around the country as well, but it's 
very welcomed to us because $50 billion is a lot of money, we 
want to take good care of our people and their families, but 
$50 billion----
    Senator Graham. We haven't had a premium adjustment in 
TRICARE since 1995 of any significance. Is it time to have a 
premium adjustment?
    Secretary Carter. We have made some adjustments, and we are 
proposing more this year.
    Senator Graham. What percentage of TRICARE costs are 
absorbed by the patient population?
    Secretary Carter. Let me ask if Under Secretary McCord 
knows. I'm sure we can get you that number.
    Mr. McCord. It has dropped----
    Senator Graham. It's 5 percent, I think. So get back with 
me on that.
    [The information follows:]

    In 1996, when TRICARE was fully implemented, a working age 
retiree's family of three who used civilian care contributed on average 
roughly 27 percent of the total cost of its healthcare. Today that 
percentage has dropped to less than 9 percent.

                                  V-22

    Senator Graham. I just got back from Moron, Spain. The 
Marines are doing a great job, as they do everywhere. Their 
goal, their mission, there is to provide quick reaction force 
in case one of our embassies or consulates in that part of the 
world, in Africa, finds itself in a situation of Benghazi. They 
fly the V-22. I was told they have two teams that can pre-
position and in a couple of days get to where we need to go. 
They're doing the best they can with what they have. I was also 
told, due to training problems with our pilots, they're going 
to have to take six of the V-22s out of the fight to redeploy 
them back to the United States to have more planes so that our 
pilots can meet their training requirements. Have you heard 
that, General Dunford?

                          AIRCRAFT MAINTENANCE

    General Dunford. Senator, I have, and I will tell you that 
that is characteristic of the aviation enterprise across the 
board. There is not enough of what we call ready basic aircraft 
to maintain----
    Senator Graham. I want this committee to know if there is a 
bad situation next year, that the marines cannot get there, 
that because of budget problems, we're having to take aircraft 
out of the fight, redeploy them back to the United States, and 
their capability to deploy is going to be cut in half.
    General Dunford. Senator, if I could touch on that, we 
looked at this pretty hard. We can meet the requirement. And I 
realize that you were just in Moron, but I personally in a 
previous life, not in this job, in a previous life, spent a lot 
of time on this issue.
    Senator Graham. Are they going to take the six airplanes 
back?
    General Dunford. They are, and there are going to be 
sufficient planes to meet the requirement established by the 
combatant commander. And that will allow us to--here was the 
choice we had, we can meet the requirement once or twice with 
the contingent of aircraft that are on the ground right now, or 
we can meet the requirement on a sustained basis with an 
adjusted level of aircraft. Were I to have the perfect world, I 
would have been able to do both, which is have sufficient 
aircraft back home in a sufficient deployment-to-dwell rate and 
thicken the operational forces forward to mitigate risk 
further.
    What I'm confident of is that we have the minimum aircraft 
to meet the combatant commander's requirement, and no, I'm not 
happy that we had to reduce the number from 12 to 6, that does 
reduce the flexibility, it reduces the depth, but it was a 
decision, I'll be honest with you, I was personally involved in 
that decision before I changed assignments.
    Senator Graham. You had to make that decision.
    General Dunford. I had to make that decision.
    Senator Graham. Because we put you in that spot.
    General Dunford. We were balancing risk on two sides, and 
the risk management we did was those six aircraft.
    Secretary Carter. Can I just amplify that? That is a small 
piece of a major issue. The Marine Corps' principal readiness 
issue has to do with aircraft maintenance at this----
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Rhode Island, Mr. Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary and General Dunford, thank you. I'll begin 
with a headline from the New York Times, April 20th, ``Russia 
Bolsters Its Submarine Fleet, and Tensions With U.S. Rise,'' 
which raises a question from our perspective of the continued 
construction and deployment of the Virginia-class submarine, 
particularly VPM, which allows us to make up for the retirement 
of some converted Ohio-class submarines. How critical is that 
to our ability to confront what is already recognized as a 
resurgent Russia undersea?
    Secretary Carter. It's critical for Russia and all the 
other--four, at least, of the five other dangers we face. I 
should just--want to amplify what you said, and what I said in 
my statement. Undersea dominance is an area of clear American 
dominance. We want to keep that edge. That's why, as you say, 
we're doing the Virginia Payload Module, the Virginia 
submarines themselves, unmanned undersea--you know about things 
that we're doing that we can't really talk about here, but 
keeping that undersea dominance is critical.
    Senator Reed. And that requires adequate robust funding, 
not just in this year, but going forward.
    Secretary Carter. Yes.

                               SUBMARINES

    Senator Reed. In fact, operationally, we dropped I think to 
48 submarines at some point, which is much lower than the 
COCOMs----
    Secretary Carter. SSNs, yes.
    Senator Reed. In fact, every COCOM that I've spoken to, and 
also the CNOs, is that they cannot meet all the demands for 
submarines. Is that correct, General Dunford?
    General Dunford. It is. The numbers of submarines that are 
being requested even today, Senator, by the combatant 
commanders, falls less than the inventory that we have.
    Senator Reed. And then switching gears, but another aspect, 
which is the Ohio-class replacement, the nuclear triad is a 
significant deterrent force, thank goodness, and the first leg 
of that triad that's being renovated or remodeled, whatever 
the--replaced is the submarine, and somewhat obvious, it's the 
most durable leg because of its abilities to stealth.
    Secretary Carter. Yes.
    Senator Reed. That is going to require some relief in the 
Navy shipbuilding budget going forward. Are you contemplating 
that, Mr. Secretary?
    Secretary Carter. Yes. I think we all recognize the Ohio-
replacement program, if it comes out of the rest of the 
shipbuilding program of the Navy, it will decimate the 
shipbuilding program of the Navy. We can't have that, so we're 
going to need additional funding. And it is the critical 
survivable and enduring part of our triad, and that's why 
building those 12 boats with the 16 tubes to replace the 14 
boats we now have with the smaller number of tubes, we'll have 
more tubes overall, and a new submarine has to be done because 
the hull has submerged and come to the surface so many times, 
the hull gets stressed, and there is no way you can keep that 
going, so we've got to replace them.
    Senator Reed. And we have a National Sea-Based Deterrence 
Fund, which is a prototype really, not just for the sea-based 
deterrence, but eventually as we get further down in the 
development of the penetrating bomber and recapitalization of 
our land-based systems, we'll need a similar fund, but that is 
a vehicle that you could use, and do you anticipate using to 
help relieve this pressure?
    Secretary Carter. Yes. We're going to need some budget 
relief of some kind. Unfortunately, the money has got to come 
with a new label, but----
    Senator Reed. Just one other issue, which has been brought 
up, and this is the impact of sequestration. And most of your 
activities involve not just the Department of Defense, but 
other agencies, SOUTHCOM particularly with respect to homeland 
security, with the Coast Guard, the State Department constantly 
in every venue. They face similar issues, I presume, and even 
if you were to be granted relief, if they are not able to pull 
their weight, you can't get the job done. Is that a fair 
estimate?
    Secretary Carter. It is. I have said this has been part of 
our budget discussions over the last few years over the 
sequester. Obviously, I'm the Secretary of Defense, so I care 
very deeply about the defense budget, but I know we can't do 
the job of protecting our country as one agency. We do need 
Homeland Security, we need the Intelligence, we need the State 
Department, we need the Energy Department, it makes big 
contributions, and so forth. And then I'm also aware that all 
the technology we've been talking about comes from the American 
technology base. So the country's larger strength is also 
important to our military strength. So important as we are, I 
realize we can't do the job all by ourselves.
    Senator Reed. I think the Chairman wants to make a brief 
comment.
    Senator Cochran. The time of the Senator has expired.
    Senator Reed. Excuse me.
    Senator Cochran. The distinguished Senator from Kansas is 
recognized.

                             GUANTANAMO BAY

    Senator Moran. Mr. Chairman, thank you very much. Let me 
ask just a couple of questions and make a few comments.
    Mr. Secretary, we've had conversations about Guantanamo Bay 
detainees, and I want to follow up on that. First of all, tell 
you that I visited Guantanamo Bay in February. A couple of 
observations. First of all, I want to make certain that our 
most senior military leaders are not afterthoughts in the 
decisionmaking process that may occur in regard to what happens 
to detainees at GTMO. I remain totally opposed to bringing them 
to the United States, but I have had enough conversations with 
military officers to believe that there is not adequate 
consultation with folks who would be fully engaged in--should 
be fully engaged in the decision, but fully engaged in their 
detention here in the United States. Is that not a--you're 
shaking your head.
    Secretary Carter. First of all, I thank you very much for 
visiting them. And I'm incredibly proud of the job they do down 
there. They're extraordinarily professional, and it's a lousy 
job in many ways that we give them. So I appreciate your going 
there, and I'm sure it bucked them up to have you there.
    The reason that we take such care, I do, and you're talking 
about uniformed involvement, the Chairman, but also the 
Attorney General, the FBI Director, and the Director of the 
CIA, and the Director of National Intelligence, and everybody 
in any of these matters that involve transfer to the custody of 
another country, the reason we take that so seriously is that 
we want that done in a way that it mitigates the risk of a 
return, which we saw a lot of in years past. We don't want to 
see any more of that.
    But the fundamental thing is that not all of these guys can 
ever be transferred, in my judgment. So that raises the issue 
of, what are we going to do with these people that I can just 
tell you, not on my watch, and I'll bet you not on my 
successor's watch either, is anybody going to transfer these 
people. So I personally would prefer, and I've said this 
openly, that we find another place to do it in the United 
States, and I know that that's something you don't support, and 
others do, but I do believe it would be better to put--and I 
would like to have that done before the next President comes 
along, get this off his or her plate, if possible.
    But the underlying reality, the reason we need a detention 
facility, an enduring detention facility, for these people is 
that some of them are too dangerous, and there is no way that 
we're going to, even with extensive consultations with another 
country, and them giving us all the safeguards and so forth 
that we receive, that I'm going to say it's safe to transfer 
them. So we need a facility that keeps on.
    You might want to add to that, if you're welcomed to.
    Senator Moran. Mr. Secretary, let me, and then maybe 
perhaps General Dunford can add, let me add two other 
observations from my visit to Guantanamo Bay. One, I learned 
that GTMO detainees know of their transfer before Members of 
Congress do. You're required by law to notify Congress, but I 
am told that they learn of that potential transfer before we 
do, and I've introduced legislation with a number of my 
colleagues to make certain that we not just are notified but 
have ability to prevent that transfer.
    And, secondly, a concerning issue that arose in my 
conversations while at GTMO is, what is happening in 
circumstances today when a terrorist is captured in Syria? In 
Afghanistan? In Iraq? I'm told that there are memorandums of 
agreement in some countries, but not in Syria. We have not had 
a detainee brought to GTMO since 2008, and I have a real 
interest in knowing what's transpiring across the globe when we 
detain and capture someone, and where are they going? Perhaps 
that a conversation for a different setting.
    Secretary Carter. It is. We have a number of options, and 
so we think that through, and basically we deal with it on a 
case-by-case basis, and I would prefer that we do that in a 
different setting.
    Senator Moran. General Dunford, have I excluded you from 
something you wanted to say?
    General Dunford. Senator, just very quickly, first, I was 
down after your visit, and I very much appreciate you visiting, 
and the men and women that are down there very much did. And I 
think the one thing you saw down there, despite whatever 
conversations we had about Guantanamo Bay, the one thing we can 
all be proud of is the behavior of the men and women down 
there, the discipline and the commitment that they have to the 
mission. I most recently was down there in March and couldn't 
have been more impressed.
    I want to assure you that I have had opportunity to talk 
about this issue with Secretary Carter and the President on 
several occasions, and the point I've made is, number one, we 
have to have a place to detain people when they're picked up on 
the battlefield; number two, there has to be some system that 
we have to prosecute those that need to be prosecuted; and 
number three, those that are found guilty, there has to be 
long-term incarceration available if, through the legal system, 
we determine they have to be there. And those three 
requirements, whether or not we have a facility currently in 
Guantanamo Bay or in the United States, all have to be 
adequately addressed, and I think that's the most important 
military equity.
    And then, of course, on the mechanics of moving to the 
United States, the costing and all those kinds of things, 
Admiral Tidd, who I believe you saw on that visit, he is 
personally engaged in supporting the administration and the 
details of moving Guantanamo Bay to the United States were that 
to be done.
    Senator Cochran. The time of the Senator has expired.
    Senator Moran. Thank you to those who serve in Guantanamo 
Bay.
    Secretary Carter. Thank you, Senator.
    Senator Cochran. The distinguished Senator from Montana is 
recognized, Mr. Tester.
    Senator Tester. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today, and thank 
you for what you do.

                NUMBER OF AMERICAN TROOPS ON THE GROUNDS

    The President recently announced they will be increasing 
the number of American troops on the ground in Syria and Iraq 
by 250 and 200 respectively. I had heard on the news shortly 
after that that our allies are making the same kind of 
commitment. Is that correct?
    Secretary Carter. It is. It is. They're----
    Senator Tester. And is the number of troops that our 
allies, the NATO allies, are sending in, they can't be sending 
250----
    Secretary Carter. It's substantial in Iraq. I believe the 
number is around 2,500, so it's----
    Senator Tester. Total?
    Secretary Carter. This is just in Iraq.
    Senator Tester. Yes.
    Secretary Carter. They're doing more, and I can't--I don't 
want to speak for them because these are their special forces--
--
    Senator Tester. No, no, no. That's fine.
    Secretary Carter [continuing]. And they and we try to be 
quiet about what we're doing.
    Senator Tester. Yes, well, if it's classified----
    Secretary Carter. But they're in there all--but, no, 
they're in there also. And of course, I have been urging--and 
I'll be back in Brussels next week meeting with members of the 
coalition, getting others to do more as we do more to get this 
done.

                                 SYRIA

    Senator Tester. Okay. That's good. And I appreciate that. 
What about Syria? Is it the same kind of effort?
    Secretary Carter. And ditto in Syria.
    Senator Tester. What's--and ditto in Syria?
    Secretary Carter. They're coalition partners, a somewhat 
different mix----
    Senator Tester. Okay. Perfect.
    Secretary Carter [continuing]. Of parties in Iraq and 
Syria, they have different relationships with those two 
countries.
    Senator Tester. Okay. And are they following these troops 
with additional resources? I assume the United States is.
    Secretary Carter. Yes. Yes, they are. Obviously, we're 
always urging them to do more, even as we're looking for 
opportunities to do more ourselves. And one area where we 
talked to the Gulf countries, I was in the Gulf last week with 
the President, was on stabilization and reconstruction. You 
know, Ramadi is now recaptured, but it's a mess, so somebody 
has to get the water going, get the power going, get the 
schools opened, and that kind of thing, and so we're looking to 
some of our partners in the Gulf and in Europe to help us in 
that dimension as well as the military dimension.
    Senator Tester. And I'll apologize for my next questions 
ahead of time because I don't know that you're going to know 
the answer, but if you do, God bless you. What are our short-
term objectives there, in Syria, and in Iraq as far as that 
goes? We'll just call it Middle East.
    Secretary Carter. Oh, yes. In Syria, the immediate 
objectives are to continue to what Shaddadi did, namely, to 
separate and make impossible or very difficult any travel or 
communication between Mosul and Raqqa, effectively sever the 
tumor in half.
    Senator Tester. Okay. Okay.
    Secretary Carter. And, secondly, begin to gather forces and 
enable them. That's where the 1209 funding I mentioned earlier 
comes in to Raqqa, because the objective in Syria is to 
collapse ISIL's control of Raqqa. In Iraq, the next step after 
Ramadi and Heet, the thing we're focused on is collecting and 
positioning before Ramadan commences the forces for the 
envelopment of Mosul. Some of those are ISF forces coming from 
the south, some of them are two brigades of peshmerga coming 
from the north. We would like to complete that envelopment 
before Ramadi. So those are two of the immediate operational 
objectives.
    Senator Tester. Okay. And to achieve those two objectives, 
how long?
    Secretary Carter. We would like that, the objective of 
positioning the first for the envelopment of Mosul before 
Ramadan, which is now 5 weeks away.
    Senator Tester. Okay. And what about cutting off the 
communication channels with Syria? What about cutting off the 
communication channels in Syria that you talked about?
    Secretary Carter. That is something that I've charged our 
CYBERCOM with doing.
    Senator Tester. Okay.
    Secretary Carter. It's the first ever--I can't talk about 
that too much in here, but you can imagine we don't think that 
people ought to be able to sit in Raqqa planning against 
Americans.
    Senator Tester. Okay. You talked earlier, and I can't 
remember who asked the question about Russia and Syria and the 
fact that we don't--we do not see life the same, which is true. 
Do we have--do our--Russia and the United States have any 
objectives that are the same in Syria?
    Secretary Carter. We have objectives--we have objectives in 
common with what they said they wanted to do, but not actually 
what they did.
    Senator Tester. Okay.

                                  ISIL

    Secretary Carter. What they said they wanted to do was to 
fight ISIL, and that's fine with us, have at it, and they have 
every reason to fight ISIL because ISIL is fighting them----
    Senator Tester. Right. Right. Gotcha.
    Secretary Carter [continuing]. And has for a long time. But 
they came in instead and backed Assad.
    Senator Tester. Yes.
    Secretary Carter. So that wasn't quite--they said one 
thing, did another. So we have a problem with their behavior, 
but still, if they would get on the right side of this thing, 
that would be good.
    Senator Tester. One last question, and this is an easy one. 
Is there any more to be interpreted into the flyovers that they 
talked about by the Russian planes other than just a pilot 
screwing around, or is there another message there?
    Secretary Carter. I can't speculate on that. It is 
unprofessional behavior, and whether it's encouraged from the 
top, whether it was encouraged from higher up or not, I can't 
say, but we do expect it to be discouraged from higher up from 
now on. That's the reason why the Chairman had the 
conversations he did, and these pilots need to get the word, 
``Hey, knock it off.'' This is unprofessional. This is 
dangerous. This could lead somewhere. You know, we're going to 
have to--we obviously disagree about things, but we can't be 
accidentally stumbling into something.
    Senator Cochran. The time of the Senator has expired.
    The Chair recognizes the distinguished Senator from Alaska, 
Ms. Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                                  F-35

    Secretary and General, welcome, and thank you for your 
leadership in so many different ways. I just listened to the 
discussion this morning so much focus on Russia. I will just 
remind my colleagues, 57 miles, 57 miles between my State and 
Russia. So we're keeping an eye, as I know you all are.
    And I want to speak just very quickly, first of all, about 
the F-35s. We had a pretty good announcement this spring. Thank 
you. I appreciate the announcement of the record of decision in 
signing the two squadrons of the F-35s there at Eielson. This 
is the first beddown F-35 at a beddown in the Pacific, and I 
think it's a very important step forward in national security.
    There is some discussion going on right now among the 
Appropriations Committee between the House and the Senate. The 
House has suggested that perhaps not the full funding for the 
F-35 beddowns be moved forward in the time that has been 
prescribed by the administration. Can you tell me in your words 
why it's important from a national security perspective that 
the Air Force field the F-35As in the Pacific in the 2020-21 
timeframe and why it makes sense that we fully fund this 
beddown now rather than a more phased approach?
    Secretary Carter. I can, Senator. The reason that we put 
that in our budget is that the F-35 is one of our, obviously, 
our most capable advanced tactical fighter, and it's part of 
the Asia-Pacific rebalance, which Alaska is a part of by dint 
of strategic location. And we made the decision several years 
ago to position our most modern and advanced equipment to the 
Asia-Pacific. So we're increasing not only the numbers, but the 
qualitative edge of our forces in the Asia-Pacific, and then 
some recognition of the vastness of the region, but also that 
it is, as I said earlier, the most--the single part of the 
world, much as the Middle East is in the news all the time, 
this is the part of the world that is most consequential for 
America's future because half of the world's population lives 
out there and half of the world's economy is out there.

                                 ARCTIC

    Senator Murkowski. I appreciate that, and I appreciate the 
focus again on the region that I'm talking about within the 
Arctic. And we had a conversation last year that I thought was 
pretty consequential, and it was regarding the Arctic. At that 
time, you stated before this committee that the Arctic is going 
to be a major area of importance for the United States 
strategically and economically in the future, and you went on 
to say, ``I think it's fair to say that we're late to the 
recognition of that.'' And you closed your remarks with a 
statement, ``I think a plan that is more than aspirational is 
needed, and so I would be happy to work with you to that end.'' 
I found those words very encouraging. I thought it was actually 
paradigm shifting, but we haven't really seen much.
    I was moving through very quickly this morning as others 
were asking to see if there wasn't some more clarity there on 
our Nation's defense needs in the Arctic, more so than there 
was a year ago, but I'm not seeing a timeline for investments, 
I'm not seeing this aspirational plan. So can you give me an 
update when it comes to our Arctic defense needs? Are we any 
better off than we were a year ago?
    Secretary Carter. I can. Oh, absolutely. I agree, I agree 
with everything I said then, including the need to do what 
we've done this past year, and so we are paying increasingly 
attention to our, what I'll call our strategy toward the 
Arctic. There's no other way to say it.
    I might ask the Chairman to comment on that because I think 
that was part of the sum of the exercising that he led just a 
few weeks ago.
    Senator Murkowski. Thank you.
    General Dunford. Senator, I think, first of all, the 
decision to leave the brigade, the elements of the brigade 
combat team, in Alaska, that I know you were very involved with 
was in part----
    Senator Murkowski. Well, and thank you. That was so smart, 
so important.
    General Dunford [continuing]. Informed--I know the 
Secretary's decision to do that was in large part informed by 
our focus on both the Pacific and the Arctic. I also would tell 
you that our investments in undersea, our investments in space 
and cyberspace and those kind of things focused on the Russian 
threat have to do with every place that Russia operates at, and 
increasingly as we think about Russia strategically, you know, 
we were focused for some years, I think fair to say, on Europe, 
but much broader now as we look at the Russia challenge in 
particular, it's a Pacific challenge, it's an Atlantic 
challenge, but as you correctly point out this morning, it's an 
Arctic challenge as well.
    But I would tell you that the capability enhancements that 
we're making in those fundamental areas with Russia that have 
been spoken about today and are articulated in the President's 
budget very much will improve our posture in the Arctic. And 
what the Secretary is really alluding to, too, is increasing 
the exercise program that General Breedlove has established in 
the European Command for the very purpose of deterring Russian 
behavior and ensuring that they understand that we can respond 
anyplace we need to respond to, and it's also sending a message 
to our partners as well that they are assured of that response.
    Senator Murkowski. Well, I appreciate that, and my time has 
expired.
    Senator Cochran. The time of the Senator has expired.
    Senator Murkowski. I again thank you for the decision with 
the 4th Airborne Combat Brigade Team, but I will remind you 
that we're still--it's basically in a 1-year pause, so the real 
question then becomes how we deal with that after this next 
year. So we look forward to further conversation.
    Thank you, Mr. Chairman.
    Senator Cochran. The Senator from New Mexico, Mr. Udall, is 
recognized.
    Senator Udall. Thank you very much, Chairman Cochran.
    And, Secretary Carter and Chairman Dunford, thank you for 
your service. Good to have you hear today.
    As you probably know, folks from my State have a proud 
history of military service, and you may not know this, but 
there is more DOD land in New Mexico than any other State. I 
think it's about 3.5----
    Secretary Carter. I do know that.
    Senator Udall [continuing]. Total acres there, 3.5 million 
total acres. Each of New Mexico's bases provide a unique 
capability that supports our national security, from Kirtland, 
its future space capabilities; Holloman, training future RPA 
pilots; Special Forces who trained in Cannon and are engaging 
ISIS in Iraq and Syria; and just this week, the Navy announced 
it's building a railgun facility at White Sands Missile Range.

                              TEST RANGES

    Mr. Secretary, the fiscal year 2017 budget emphasizes 
defense innovation. DOD calls these efforts the Third Offset, 
and as you know, this will require advanced testing and 
evaluation capabilities. And I'm concerned that years of 
funding shortfalls at White Sands Missile Range (WSMR) could 
degrade its capabilities. This could affect Holloman, too, 
because it uses WSMR's airspace. Are facilities like White 
Sands Missile Range adequately postured to test these future 
capabilities? How is DOD addressing these shortcomings?
    Secretary Carter. Well, first of all, thank you and 
everyone else who has military installations in their State, 
for hosting--we have almost invariably wonderful relationships 
with the communities in the States, and that's certainly true 
in your State, and grateful for it. And I am aware of how much 
you do.
    And in the specific matter of WSMR and test ranges in 
general, we do have a recognition, which is reflected in the 
investments that go with the Third Offset and other technology 
efforts we have to improve a number of our ranges, WSMR being 
one of them. In the years where we were, in my judgment, not 
making adequate investments in future technologies, one of the 
ways we didn't make those investments was in range 
infrastructure upgrades, and so forth. So we know we're a 
little behind in that regard. All the services know that, and 
they're all investing in improving range instrumentation 
facilities and so forth, and that's going on at WSMR and 
elsewhere.
    Senator Udall. Great. Thank you. The Army recently 
conducted a successful test of the Integrated Air and Missile 
Defense Battle Command System at White Sands at the range 
there, and as the United States rebalances to the Pacific, 
missile defense for our allies in South Korea and Japan, it's 
of increasing importance. How can we leverage the testing and 
facilities at White Sands and Holloman Air Force Base to 
increase our coordination and training with both those 
countries on missile defense and combined air defense as well 
as search and rescue?
    Secretary Carter. It's important because integrated air and 
missile defense is one of those things that is inherently 
regional, and so countries that have a common security threat, 
it makes sense for them to work together. That's why we work 
with the Japanese and the South Koreans against the North 
Korean missile threat, which, as we all know from the news in 
recent weeks, is a real one.
    And I said I was in the Gulf last week, by the way, and 
also there, talking to the Gulf partners, all of whom have 
individually procured from us air and missile defense systems. 
We're trying to get them to network in the same way. And the 
kind of testing we can do at WSMR is the way that you integrate 
different kinds of sensors and different kinds of missile 
defense systems so they share and apportion the battle space in 
a smart way.
    Senator Udall. Great. Thank you. Just a final quick 
question. As you know, the National Labs have made significant 
progress on the B61 life extension. Behind that is the W80-4. 
And I guess my question there is, will you work to ensure that 
NNSA and the Air Force coordinate appropriately to complete 
this on time and within budget?
    Secretary Carter. Yeah, absolutely. We need to work, and we 
have worked very closely with the Department of Energy. I have 
a great relationship with the leadership there, excellent 
leadership, the Secretary and Deputy Secretary of Energy, and 
we have the Nuclear Weapons Council, which is the way that for 
decades now DOE, NNSA, and DOD have worked together, and we 
need the B61-12 and we need the W80 to keep a safe, secure, and 
reliable nuclear deterrent, which we have to have.
    Senator Udall. Thank you both. I really appreciate it.
    Senator Cochran. Thank you, Senator from New Mexico.
    The Chair now recognizes the Senator from Kansas, Mr. 
Moran.

                                 CYBER

    Senator Moran. Mr. Chairman, thank you very much. I'll try 
to be brief in case other Senators have a follow-up question.
    Secretary, let me raise a topic that you and I had a 
conversation about when we first met cyber, the cyber mission, 
cybersecurity. Recruiting is a significant component of our 
ability to meet our cyber needs. I am happy to report that 300 
new enlisted airmen in Kansas are ready to go to work in 
cybersecurity. They're ready to join the force. Unfortunately, 
what we know is that security clearances are still being held 
up by OPM, and in fact, the indications are that the backlog is 
in the thousands and won't catch up till 2025, and I would 
raise this topic for your consideration and ask you to help 
find a solution at OPM so we can get these young men and women 
cleared.
    Secretary Carter. Understand, Senator. We're working on 
that.
    Senator Moran. Thank you very much.

                           END-FORCE STRENGTH

    And then, General, let me talk about end-force strength. 
I'm worried that we are downsizing particularly our ground 
troops, Marines and Army, beyond what we should be doing, and 
particularly in light of recent deployments, I wonder if we're 
not putting--I think I know the answer. We're putting fiscal 
conditions or considerations ahead of operational and defense 
perspective, and I would like your thoughts in regard to that.
    General Dunford. Senator, thanks. And my thoughts really 
reflect my experience prior to this as a service chief and from 
where I sit right now. To me, the number one priority that we 
have today is to make sure whatever size force we have is 
capable. And so this year, although there were challenges with 
the force structure, we said we have the minimum force 
structure necessary to meet the strategy, but where I was most 
concerned was to make sure that the force that we had, had the 
proper training, had the proper equipment, and had the proper 
leadership. And so what you have identified is a priority that 
we had to make, a choice that we had to make, to balance risk, 
the risk of the size of the force and again, it could meet our 
strategy. You would always want to have more depth, but I would 
only want to, as a leader, have more depth, meaning more force 
structure, if I could be assured that that force structure 
would be properly supported and translated into capability, and 
I think many of our readiness challenges right now reflect that 
even with the force structure that we have, we're not providing 
adequate training, we're not providing adequate equipment and 
weapons and so forth, and now modernization is falling behind. 
So trying to achieve that balance, Senator, is really what this 
year has been all about.
    Senator Moran. General, am I incorrect in my thinking, 
which is that in order to have adequate training and 
preparation, the size of the end-strength has to be sufficient 
because of deployments, you need to be training at the same 
time soldiers and marines are being deployed; therefore, 
there's a relationship between readiness and end-strength?
    General Dunford. No question, Senator. That's absolutely 
one of the variables. It's an important variable in our overall 
readiness equation.
    Senator Moran. Thank you both.
    Thank you, Mr. Chairman.
    Senator Cochran. I thank the Senator, and I thank all the 
Senators for their participation in the hearings.

                     ADDITIONAL COMMITTEE QUESTIONS

    And to our distinguished panel of witnesses, we want to 
thank you for your continued assistance to the committee and 
your participation in this hearing today. We're grateful for 
your service, and we look forward to a continuing dialogue 
throughout the fiscal year 2017 in the appropriations process. 
Senators may submit additional written questions, and we would 
appreciate your responding to them in a reasonable time for our 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Ashton B. Carter
             Questions Submitted by Senator Mitch McConnell
                   fort knox medical clinic expansion
    Question. Will the location of the new Fort Knox medical facility 
allow for potential expansion if Fort Knox were to gain additional 
active-duty units and servicemembers?
    Answer. The location of the new Fort Knox medical facility will 
allow for potential expansion if Fort Knox were to gain additional 
active-duty units and service members. In accordance with UFC 4-510-01, 
the site includes future building expansion for 20 percent of the 
enacted DD Form 1391 gross building area. The site also allocates 
adjacent land for the construction of a VA Community Based Outpatient 
Clinic. Additionally, the demolition of the current Ireland Army 
Community Hospital will clear land immediately west of the new medical 
clinic, which will then be available for future development.
                         fort campbell airfield
    Question. Does DOD have plans to repave the airfield at Fort 
Campbell? If so, please provide details of this plan, including the 
anticipated start date.
    Answer. Yes, DOD plans to repave the Fort Campbell Army Airfield. 
The U.S. Army Mission and Installation Contracting Command-Fort 
Campbell announced an anticipated contract award date in mid-June. The 
current plan is to begin the repair of the supporting facilities and 
infrastructure, including the taxiway, ramp and electrical vaults, in 
order to repave the airfield within the April to July 2017 timeframe.
                         fort campbell barracks
    Question. Does DOD house any servicemembers at Fort Campbell in 
Korean War-era barracks? If so, does DOD have plans to ensure that 
these facilities are brought up to date for Fort Campbell 
servicemembers, many of whom have been deployed multiple times?
    Answer. Yes, the Fort Campbell training battalion currently 
utilizes two Korean War-era barracks buildings for temporary housing. 
They have a quality rating of Q2 adequate, and do not require 
renovation or repair at this time. The Soldiers are moved to permanent 
barracks when they are assigned to their unit, usually within ten days.
            military sexual assault prevention and response
    Question. What steps is DOD taking to prevent sexual misconduct in 
the military? How does DOD plan to ensure that victims of sexual 
assault and harassment in the military do not face retaliation for 
reporting these crimes?
Retaliation
    Answer. The Department is committed to a military culture that 
rejects destructive behavior and supports those who have the courage to 
report a sexual assault, or any other form of crime or misconduct. We 
released the Retaliation Prevention and Response Strategy in late April 
2016 to develop a uniform retaliation prevention and response process 
across the Department of Defense. The strategy targets key issue areas 
associated with retaliation, such as: standardizing definitions, 
improving data collection and analysis, streamlining investigation and 
accountability efforts, strengthening reporter protections, and 
creating a culture intolerant of retaliation.
    To further combat retaliation we have:
  --Enhanced the Safe Helpline (SHL) to provide an anonymous reporting 
        option for allegations of retaliation through a secure web form 
        at safehelpline.org. SHL staff members are trained on how to 
        guide people to the right authorities in the DOD to report 
        retaliation allegations;
  --Leveraged the Case Management Group chairs (Commanders) to ask 
        about retaliation allegations reported at the installation 
        level;
  --Enhanced training of first-line supervisors who work with our 
        youngest troops--those at greatest risk for sexual assault--to 
        teach the skills needed to intervene early should they witness 
        inappropriate or retaliatory behavior; and
  --Developed tools to assess progress in eliminating retaliation as 
        follows:
    --Refined our survey questions to use questions that are 
            behaviorally-based, and align with policy and law to 
            achieve greater clarity as to the scope and specificity of 
            the range of perceived retaliation, and
    --Captured victim feedback on their reported experiences of 
            retaliation through the Workplace and Gender Relations 
            Survey, Survivor Experience Survey, and Military 
            Investigation and Justice Experience Survey.
Sexual Assault
    The Department is committed to reinforcing a military culture where 
every Service member understands their role in upholding ethical 
standards of behavior as a way to prevent sexual assault. We are 
engaged in the following actions to further our sexual assault 
prevention efforts:
  --Expanding Service-led training on intervention to ensure Service 
        members have the tools and confidence to step in;
  --Publicizing sexual assault case outcomes on Service websites and 
        installations to underscore Service commitment to holding 
        offenders appropriately accountable;
  --Collaborating among base and local communities to foster 
        responsible alcohol use;
  --Updating our prevention strategy to reflect the importance of 
        addressing risk and protection factors;
  --Conducting research at the installation level (Installation 
        Prevention Project) to identify risk and protective factors in 
        order to better link sexual assault prevention activities with 
        desired outcomes; and
  --Reinforcing leadership roles and responsibilities using a variety 
        of information-sharing methods, such as:
    --Dialogue with commanders at every level;
    --Prevention Roundtable with SAPR prevention leads;
    --SAPR Connect Online Portal with nearly 2,000 members around the 
            world; and
    --Quarterly application-focused webinars and workshops.
    Tools to Assess Progress in Preventing Sexual Assault:
  --Command Climate Surveys which identify strengths and challenges 
        impacting the work climate. The results of these surveys assess 
        efforts by commanders and inform commanders of their unit 
        activities, culture, and deficiencies to be addressed;
  --A full range of metrics that include all key attributes of 
        successful performance measures, such as, changes in 
        problematic attitudes and behaviors that lead to sexual assault 
        or retaliatory behaviors for reporting a sexual assault.
Sexual Harassment
    OUSD (P&R) established an integrated processing team (IPT) in 
February 2016 to further strengthen both the prevention of and response 
to sexual harassment policies. The Department is developing policy that 
will provide revised terms, definitions, and processes for sexual 
harassment prevention and response and will clarify the framework for 
oversight of sexual harassment and response programs. The policy will:
  --Ensure accountability across all Services and the National Guard 
        Bureau (NGB) in addressing incidents (including anonymous 
        reports) of sexual harassment, with additional focus on joint 
        environments.
  --Require the Services and the NGB to provide complete and accurate 
        data on incidents of sexual harassment (including anonymous 
        reports) by applying uniform data and reporting requirements.
    Ongoing Service activities include:
  --Sexual harassment prevention training at all levels of the 
        organization.
  --Department of the Navy's training initiative, Chart the Course, is 
        scenario-driven interactive training on the prevention of, and 
        response to, a variety of destructive behaviors, including 
        sexual harassment, which is conducted by command facilitators. 
        Training must be completed by all Sailors before September 30, 
        2016.
  --Department of the Navy also conducts face-to-face mandatory annual 
        Equal Opportunity/Sexual Harassment and formal grievance 
        procedures training.
  --Army Sexual Harassment and Assault Response and Prevention (SHARP) 
        program uses Integrated Case Reporting System (ICRS) to provide 
        senior leaders with informational dashboards and reports to 
        improve their prevention efforts.
  --Air Force recently tested the implementation of an automated data 
        collection and tracking system for the case management of 
        sexual harassment and discrimination complaints, both formal 
        and informal. Air Force policy requires that all formal 
        complaints and commander-directed investigations of informal 
        complaints be documented in Air Force Equal Opportunity Network 
        and reported by commanders to the General Court-Martial 
        Convening Authority.
                    mental health treatment and care
    Question. Many of our Nation's servicemembers continue to struggle 
with mental health issues, particularly post-traumatic stress disorder 
(PTSD) and traumatic brain injury (TBI). Are there any additional 
resources or authorities that DOD needs from Congress in order to 
provide effective treatment and care to servicemembers with mental 
health issues?
    Answer. No additional resources or authorities are needed from 
Congress at this time. Since September 11, 2001, with the support of 
Congress, the Department of Defense (DOD) increased the outlays for 
mental healthcare by a 10 percent compounded annual rate from fiscal 
year 2002 through fiscal year 2014, with care now embedded into both 
primary care clinics and fighting units across the Department. The 
number of mental health providers in the Military Health System has 
risen 42 percent from fiscal year 2009 through fiscal year 2015.
    In 2011, the Department conducted a review of mental health 
providers as part of a report to Congress, Mental Health Personnel 
Required to Meet Mental Health Care Needs of Service Members, Retired 
Members, and Dependents, as required by the National Defense 
Authorization Act (NDAA) for fiscal year 2010, Section 714. At that 
time, the Services reported sufficient availability of the current 
mental health provider types. Further, a more recent DOD/Department of 
Veterans Affairs Report \1\ conveyed that staffing models utilized by 
the Services confirmed the Services have the mental health provider 
types they need. Mental health treatment services continue to meet the 
mental health demands of our Service members.
---------------------------------------------------------------------------
    \1\ Department of Defense/Department of Veterans Affairs Report to 
Congress in Response to Senate Report 113-44, pg. 133, accompanying S. 
1197, the NDAA for fiscal year 2014: Mental Health Counselors for 
Service Members, Veterans, and Their Families.
---------------------------------------------------------------------------
    Also, the NDAA for fiscal year 2015, removed TRICARE statutory 
limitations on inpatient psychiatric treatment (30 days for adults, 45 
days for children) and residential treatment center care for children 
(150 days), enabling removal of all quantitative limitations on mental 
health treatment provided under TRICARE. TRICARE program manuals are 
already in coordination for incorporating these changes. Additionally, 
a Proposed Rule, ``TRICARE: Mental Health and Substance Use Disorder 
Treatment,'' was published in the Federal Register (FR Vol. 81, No. 20) 
on February 1, 2016, which proposes to revise TRICARE coverage by 
eliminating quantitative limits on mental healthcare, consistent with 
mental health parity for medical/surgical procedures. This will expand 
access to care for TRICARE beneficiaries.
                      opioid abuse in the military
    Question. Substance abuse disorders continue to be a challenge for 
military servicemembers. What steps are being taken by DOD to address 
substance abuse issues, particularly opioids, in the military?
    Answer. The Department of Defense (DOD) has undertaken several 
major policy and program changes to ensure the DOD is addressing 
substance use disorders (SUDs) in the military, including opioids. 
These efforts include the removal of the ban on substitution therapies 
for the treatment of SUDs (2013), implementation of a DOD-level 
committee to coordinate SUD services (formed in 2011), and proposed 
changes to TRICARE coverage for SUD care. While data show an increase 
in the SUD epidemic across the country, particularly regarding 
prescription misuse, overall prescription drug misuse is low in the 
military and on the decline. Within the DOD, between fiscal year 2010 
and 2015, there was a 29 percent decrease in the number of Service 
members receiving a primary diagnosis of Opioid Drug Dependence and/or 
Opioid Abuse, with an overall prevalence rate of 0.2 percent (Military 
Health System (MHS) Data Repository, extracted February 24, 2016). 
Despite this, DOD has strengthened its partnership with several 
entities including the Office of National Drug Control Policy and the 
Department of Veterans Affairs (VA).
    The Proposed Rule: ``TRICARE: Mental Health and Substance Use 
Disorder Treatment'' published on February 1, 2016, will expand access 
to SUD care for TRICARE beneficiaries. In particular, the Proposed Rule 
seeks to expand access to care for opioid use disorder, allowing 
office-based opioid treatment by individual TRICARE-authorized 
physicians as well as adding coverage of qualified opioid treatment 
programs as TRICARE authorized institutional providers.
    In 2014, a panel of VA and DOD clinical experts was convened to 
update the SUD clinical practice guideline (CPG) that included a 
systematic review of all applicable evidence. This CPG was finalized 
and widely distributed to healthcare providers within the VA and DOD in 
December 2015. The DOD and the VA are also in the process of updating 
the Management of Opioid Therapy for Chronic Pain CPG with an 
anticipated release date of December 2016.
    In 2013, DOD instituted mandatory training for all prescribing 
providers regarding the effective use of opioids to treat and manage 
pain, the identification of patterns of misuse and addiction, and the 
tools to intervene in cases where misuse and addiction are suspected. 
Consistent with requirements outlined in the October 21, 2015 
``Presidential Memorandum Addressing Prescription Drug Abuse and Heroin 
Use,'' DOD is reviewing current training practices addressing the pain 
management education and training needs of clinicians in the MHS. This 
includes targeting best opioid prescribing practices. Under the 
auspices of the President's Office of National Drug Control Policy, the 
DOD and VA have collaborated for a number of years on the ``Joint Pain 
Education Project'' (JPEP) to build a primary care curriculum for pain 
management. The JPEP curriculum has been promulgated by the Uniformed 
Services University School of Medicine, to ensure that developing 
military medical leaders understand the issue of opioid medication use 
and misuse within the larger context of an integrative approach to pain 
management.
    In its efforts to identify substance use problems early, the MHS 
has four primary tools to monitor opioid prescriptions. These are the 
Pharmacy Data Transaction Service; the Controlled Drug Medication 
Analysis Reporting Tool; the Polypharmacy Medication Analysis Reporting 
Tool; and, the Defense Health Agency Prescription Monitoring Program. 
Overall, these monitoring tools focus on capturing all beneficiaries' 
prescription information and alerting Military Treatment Facility 
healthcare providers of prescription trends through actionable reports 
that can be utilized to address concerns.
                   fort campbell maintenance facility
    Question. It is my understanding that the major maintenance 
facility at Fort Campbell is decades old and in need of replacement. 
Does DOD have plans to replace this aging facility? If so, please 
provide details of this plan.
    Answer. The Army's Military Construction and Facility Sustainment, 
Restoration and Modernization resources are focused on facilities that 
are in the worst condition or on projects that address urgent readiness 
priorities. The Army's Military Construction budget is at historic 
lows. The Army will continue to review and prioritize all military 
construction requirements in future budget cycles to replace aging 
facilities to support operations, training and readiness. The Army 
recognizes the need to recapitalize and consolidate the existing 
failing and obsolete facilities of the Logistics Readiness Center (LRC) 
at Fort Campbell, Kentucky, in support of improved efficiency 
maintenance readiness.
             dod programs for military spouses and families
    Question. As you know, servicemembers at Fort Campbell have been on 
a near-constant cycle of deployment in support of the Global War on 
Terror. Many Fort Campbell servicemembers have deployed abroad multiple 
times, resulting in substantial time away from their spouses and 
families. What programs does DOD currently offer to help support 
spouses and families of servicemembers at Fort Campbell--and other 
military installations--when they are deployed and once they return 
home? Does DOD require additional authority from Congress to help 
support military spouses and families?
    Answer. DOD does not require additional authority from Congress to 
help support military spouses and families.
    The Army provides many programs and assistance to families while 
Soldiers are deployed, to include families residing at Fort Campbell.
    The Army Family Readiness Groups, made up of family members and 
supported by the deploying unit, are established to serve as a 
communications mechanism between families and the deploying command. 
This conduit facilitates the transfer of accurate information between 
the command, deployed Soldier, and his/her family members. It also 
serves as a focal point to address issues and concerns raised by family 
members. The Virtual Family Readiness Group (vFRG) web system provides 
the functionality of a traditional FRG, in an ad-hoc and on-line 
setting, to meet the needs of geographically dispersed units and 
families across all components of the Army.
    DOD provides ongoing support to military families through 
installation-based Military and Family Support Centers, Reserve 
Component Family Programs, and Military OneSource throughout the 
military life cycle. Some of those programs and services become of 
increased value to military families when a Service member is preparing 
for, in the midst of, returning from, or reintegrating following 
deployment. Specific transition assistance related to the deployment 
cycle is provided to enhance the military family's emotional and 
practical preparedness for the deployment. Assistance includes 
education about the deployment process, known impacts on families, and 
resources available to help them manage their deployment experience. 
Developed to address members of the Reserve Component, the Yellow 
Ribbon Reintegration Program is a DOD-wide effort to promote the well-
being of National Guard and Reserve members, their families, and 
communities, by connecting them with resources throughout the 
deployment cycle.
    The DOD's Spouse Education and Career Opportunities offers a 
comprehensive suite of tools and resources designed to assist military 
spouses in the pursuit of their educational and career goals. The 
Military Spouse Employment Partnership is an employment and career 
partnership connecting military spouses with more than 300 partner 
employers who have committed to recruit, hire, promote, and retain 
military spouses in portable careers. Since the program began in mid-
2011, partner employers have hired more than 95,000 military spouses at 
all levels and across many industries.
    In addition, families with young children are eligible for respite 
child care services that provide temporary relief or a ``short break'' 
to the parent or guardian who is responsible for caring for their 
child. Child care fee assistance programs designed to `buy down' the 
cost of child care while the Service member is deployed are also 
available.
    Morale, Welfare and Recreation (MWR) programs are essential to 
readiness and resilience of Service members and their families, both 
during deployment and once the Service member returns home. MWR offers 
programs such as outdoor recreation, fitness, library, bowling, dining, 
travel, entertainment, cultural arts, and other leisure activities that 
lead to improved personal health and well-being, and helps build strong 
military families. In the deployed environment, the MWR Internet Cafe 
and Morale Satellite programs provide the capability for warfighters to 
stay in touch with family and friends throughout the deployment cycle.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                     sexual assault and harassment
    Question. The issue of sexual assault and harassment in the 
military is again in the headlines, both with the recent suspension of 
a Naval Academy professor, and with an Associated Press investigation 
that called into question statistics that were supplied to Congress on 
prosecutions. How can we have confidence in a system in which due 
process for alleged victims and defendants looks so different from the 
justice system most Americans use?
    Answer. The Congressionally established military justice system is 
a fair system that often provides victims and criminal defendants with 
more rights than do civilian justice systems. For example, the military 
justice system provides a defense counsel to every service member tried 
by a special or general court-martial without regard to indigence. 
Additionally, consistent with 10 U.S.C. Sec. 1044e, which was enacted 
by the National Defense Authorization Act for fiscal year 2014, counsel 
are made available to represent service members, their dependents, and 
some Department of Defense civilians who report being the victim of a 
sex offense. Once again, this is a greater protection than is available 
in any civilian criminal justice system of which we are aware.
    It would be inappropriate to discuss the Naval Academy case 
mentioned in the question, as proceedings related to that case are on-
going. I asked my staff to examine the Associated Press article 
mentioned in the question. That review found that both the AP article 
and a non-profit organization report that was discussed in the article 
drew conclusions based on inadequate information, misunderstanding of 
the military justice system, and mischaracterizations of the assertions 
that the Department of Defense actually made.
    The trial of a court-martial case resembles trials in Federal 
district courts, with evidentiary rules that follow closely the Federal 
Rules of Evidence. Additionally, due process is protected in the system 
by the Congressionally established United States Court of Appeals for 
the Armed Forces, a court comprised of civilian judges appointed by the 
President and confirmed by the Senate that sits atop the military 
justice system.
    Of course, no justice system is perfect. The Department of Defense 
believes it is important to continually assess the military justice 
system and, where possible, recommend improvements. The Department did 
just that when it established the Military Justice Review Group, which 
scrutinized the system for a year, resulting in the proposed Military 
Justice Act of 2016, which the Department transmitted to Congress on 
December 28, 2015. Enactment of that legislation would further 
strengthen the military justice system.
                           domestic response
    Question. With a smaller military than ever, the Nation needs to 
plan carefully how its dual-use forces will be able to carry out their 
dual uses under the States' authority and how that will interact with a 
Federal response, should it be needed. Can you describe the current 
all-hazard planning process and how the National Guard personnel and 
equipment this Committee funds will be used to respond to a domestic 
disaster?
    Answer. Consistent with Presidential Policy Directive 8: National 
Preparedness, the Federal Emergency Management Agency (FEMA) has led a 
deliberate all-hazard planning process to ensure integrated regional 
plans are in place for each of the 10 FEMA regions. The purpose of 
these plans is to speed disaster responses by enabling quick decisions 
based on pre-determined plans. The Department worked closely with FEMA 
to integrate planning efforts and identify both response and 
coordination requirements challenges during major disasters. This 
integrated regional all-hazards planning process informs the 
Department's development of its own contingency plans for supporting 
civil authorities.
    When not in Federal service, National Guard personnel may be 
utilized by governors as they determine necessary, to protect the 
safety and welfare of State residents in the aftermath of a domestic 
disaster. National Guard personnel may use Federal property issued to 
the National Guard of their State in support of those activities. In 
certain circumstances, National Guard personnel and equipment may, as 
authorized by law or with the consent of the appropriate governor, also 
be utilized by the Department to support the Federal Government's 
efforts to assist affected States.
    The Department invested billions of dollars in building, equipping, 
training, and sustaining the Army National Guard and Air National Guard 
as capable forces ready to carry out the Department's national defense 
missions. These expenditures also ensure that each governor has 
significant capabilities and capacities in their Army National Guard 
and Air National Guard to respond to domestic disasters. If necessary, 
each governor also has access to nearby State capabilities through 
cooperative agreements under the Emergency Management Assistance 
Compact program. This ``storm-tested'' and proven system stands as the 
cornerstone of the Nation's mutual aid program.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                conventional vs. nuclear cruise missile
    Question. Secretary Carter, during our hearing last year, I asked 
you why the Defense Department needs a new nuclear cruise missile. You 
responded: ``The reason for the advanced cruise missile is to replace 
the cruise missiles that exist now in--in recognition of the fact that 
air defenses are improving around the world and that keeping that 
capability to penetrate air defenses with our nuclear deterrent is an 
important one.'' Mr. Secretary, as you know, we can penetrate enemy air 
defenses with a variety of ballistic missiles, as well as with our most 
advance bombers that carry gravity weapons. We also have developed and 
are fielding an advanced conventional cruise missile called the Joint 
Air-to-Surface Standoff Missile capable of attacking targets behind 
advanced air defense systems.
    Secretary Carter, the 2010 Nuclear Posture Review called on the 
military to reduce our reliance on nuclear weapons by strengthening 
conventional capabilities. Why do we need a new nuclear cruise missile 
when a conventional alternative already exists?
    Answer. The United States requires the Long-Range Standoff (LRSO) 
cruise missile in order to meet U.S. nuclear deterrence objectives and 
extended deterrence commitments once the existing AGM-86B Air-Launched 
Cruise Missile (ALCM) reaches the end of its service life. Although the 
Joint Air-to-Surface Standoff Missile (JASSM) and its extended range 
version (JASSM-ER) are effective conventional weapons, they do not 
provide a nuclear deterrent, nor do they meet the performance 
characteristics and operational requirements, including range, for the 
ALCM and the LRSO. Conventional weapons cannot provide the same effects 
as a nuclear weapon on large-area or hardened targets. Nor can 
conventional weapons duplicate the ALCM's unique contribution to and 
role in effective nuclear deterrence, which requires that an adversary 
believe the United States can respond in kind to a nuclear attack. 
Deterrence could fail if an adversary believes limited nuclear weapon 
use against the United States or its allies might coerce the United 
States to grant concessions or abandon its objectives due to a lack of 
credible response options. Such a situation could encourage 
destabilizing aggression by adversaries, or drive U.S. allies to seek 
their own nuclear arsenals.
               were conventional alternatives considered?
    Question. Secretary Carter, the fiscal year 2016 National Defense 
Authorization Act required a report on the cost of the new nuclear 
cruise missile. The report your Department submitted does not actually 
contain an overall cost estimate. I understand the Air Force is still 
developing that estimate. There is one line in this report that I would 
like to bring to your attention because it is factually incorrect, and 
I believe the error reflects the way this program has been considered 
to date. The report states: ``The 2010 Nuclear Posture 
Review...committed to maintaining a viable standoff nuclear deterrent 
for the air leg of the nuclear triad.'' The 2010 Nuclear Posture Review 
did no such thing. It stated: ``In addition, the Air Force will conduct 
an assessment of alternatives to inform decisions in fiscal year 2012 
about whether and (if so) how to replace the current air-launched 
cruise missile (ALCM), which will reach the end of its service life 
later in the next decade'' (emphasis added).
    Secretary Carter, as you can see, the 2010 Nuclear Posture Review 
made no commitment to maintaining a nuclear cruise missile capability. 
I understand that the Air Force is currently conducting an analysis of 
alternatives for the existing nuclear cruise missile. Do you know if 
the Air Force is considering conventional alternatives? If the Air 
Force does not consider conventional alternatives, will you direct them 
to do so?
    Answer. While the decision to replace the current Air Launched 
Cruise Missile (ALCM) had not yet been made at the time of the 2010 
Nuclear Posture Review (NPR), the Air Force subsequently completed an 
Analysis of Alternatives (AoA) for replacement of the ALCM. The AoA 
determined that an ALCM replacement was the only option that would meet 
United States Strategic Command nuclear deterrence requirements. 
Replacing the ALCM supports the NPR objective of sustaining a highly 
capable strategic bomber force, both for effective regional deterrence 
and to provide a rapid and effective hedge against geopolitical 
uncertainties and technical challenges in the other legs of the Triad. 
As is the case for all U.S. nuclear weapons, nuclear deterrence is the 
fundamental role of the ALCM and its replacement, the LRSO. 
Conventional weapons cannot duplicate the nuclear-armed cruise 
missile's contribution to and role in effective nuclear deterrence. 
Development of the LRSO is a key component of the Nation's nuclear 
modernization plan and will help ensure we maintain a credible and 
effective deterrent in the face of evolving threats.
              deterrence value of a nuclear cruise missile
    Question. In a 2014 letter to this Committee, Under Secretary of 
Defense Frank Kendall suggested that a new nuclear cruise missile has a 
purpose ``beyond deterrence'' and provides the President ``uniquely 
flexible'' options in an extreme crisis.
    Can you explain what mission the nuclear cruise missile would have 
``beyond deterrence? ``What ``uniquely flexible'' options does the new 
nuclear cruise missile offer? Are we talking about a limited nuclear 
war with low-yield weapons?
    Answer. The Long-Range Standoff (LRSO) program is critical for 
maintaining the range of options currently available to the President 
for deterring nuclear attack on the United States and its Allies and 
partners, or defending our vital interests. It provides flexibility to 
achieve U.S. objectives while limiting the scale of destruction if the 
President determines a nuclear strike is required. The ability to 
conduct a nuclear strike is not distinct from the fundamental 
deterrence role of U.S. nuclear weapons; retaining credible response 
options strengthens our ability to prevent nuclear attacks from ever 
taking place. In addition, an effective nuclear deterrent contributes 
to deterring conventional attack by nuclear-armed adversaries by 
convincing them they cannot escalate their way out of failed 
conventional aggression. Sustaining the capability currently provided 
by the AGM-86B Air Launched Cruise Missile will not lower the nuclear 
threshold or increase the likelihood of U.S. first-use. Indeed, the 
United States has long maintained a high threshold for nuclear use 
together with a diverse range of nuclear explosive yields and delivery 
means. The use of nuclear weapons would only be considered in extreme 
circumstances to defend the vital interests of the United States and 
its allies and partners.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                           trusted foundries
    Question. A 2015 GAO report found that DOD faces uncertainty about 
future access to trusted leading-edge microelectronics due to a 
business change at IBM. I believe New Mexico is part of the solution 
here. We are already funding efforts to modernize the foundry at Sandia 
National Labs. New Mexico is also home to a large Intel chip foundry. 
In April, Intel announced a major nationwide restructuring, with 
thousands of layoffs. The New Mexico plant will continue to operate, 
but there is an opportunity for DOD to reach out to Intel and consider 
options to collaborate. What are DOD's plans to address trusted foundry 
concerns? And will DOD reach out to see if Intel can help meet DOD 
requirements?
    Answer. The Department of Defense (DOD) conducted an extensive 
series of reviews and analyses last year to address the IBM foundry 
sale and its impact on current and future access to trusted, leading-
edge microelectronics. Our efforts broadly engaged stakeholders from 
DOD, the Intelligence Community, Department of Energy (DOE), industry, 
academia, and other organizations to inform a comprehensive strategy 
and plan. We have resolved near-term concerns and preserved access to 
all of the former IBM technologies, now produced by Global Foundries 
United States 2, LLC. Long term, DOD will transition to an alternative 
approach that uses trusted and assured microelectronics in order to 
reduce risk and the reliance upon sole source foundry operations. This 
new trust model will introduce advanced techniques and processes to 
protect microelectronics designs and intellectual property while at the 
same time enabling access to commercial, state-of-the art technology.
    While we have engaged Intel in the past, they are currently not 
interested in being a Trusted Foundry at this time. The company has 
engaged with several Federal agencies to support broad, high level 
discussions on alternatives to the Trusted Foundry model, but those 
engagements are at very early stages. DOD has engaged in the past with 
Intel and other manufacturing leaders and we intend to continue 
engaging with industry as we transition to the new trust model for 
microelectronics.
    DOD will remain a strong participant with interagency partners, 
ensuring collaboration on strategies to address United States 
Government microelectronics trust and access needs. One example is 
DOD's participation with the DOE assessment of future microsystems 
technology needs and modernization plans for the Sandia National 
Laboratories' Microsystems and Engineering Sciences Applications 
Silicon Fabrication Facility.
                 cyber threats in a kinetic environment
    Question. Regarding the discussion of creating a unified cyber 
command. I wanted to say again. The warfighters of the future--special 
ops, infantry, sailors, marines, or cyber warriors--must be trained to 
react to cyber threats in a kinetic environment. Last year, I worked to 
include language that would make this a priority. Will the Department 
of Defense support this effort to strengthen our warfighters 
capabilities?
    Answer. The Department of Defense Cyber Strategy directs that our 
military forces prepare and be ready to operate in an environment where 
access to cyberspace is contested. All of our operational military 
forces are receiving foundational training enabling them to carry on 
with their missions while under cyberattack. Substantial efforts are 
underway to help ensure unencumbered access and freedom of maneuver in 
cyberspace, continuity of command and control, full situational 
awareness, and resilience of our forces, all in the face of determined 
hostile cyber activity in a kinetic environment. This includes the 
continued integration of cyberattacks into exercises and mission 
rehearsals at the Service, Combatant Command, and Joint levels, and 
establishment of additional fallback capabilities.
                    high energy laser test facility
    Question. The High Energy Laser Test Facility located at White 
Sands Missile Range is a one-of-a-kind directed energy testing facility 
in the United States. In light of near peer competitors' interest in 
such technology, I believe that we need to ensure our advantage in 
directed energy. How can we ensure that HELSTF's funding is brought 
back up to the level that OSD recommended in the 2009 OSD report? Can 
you commit to revisiting that funding decision for HELSTF? (HELSTF is 
funded at $2.6M and OSD recommended $6.4 in their 2009 report)
    Answer. In 2011, in response to a Test Resource Management Center 
and the High Energy Laser Joint Technology Office study, the Army 
transferred the High Energy Laser Systems Test Facility (HELSTF) from 
the Army Space and Missile Defense Command to the Army Test and 
Evaluation Command to gain efficiencies and allow divestiture of 
capabilities no longer needed. This transfer enabled the Army to 
maximize the use of the facility by reducing duplication of effort, 
instrumentation, and facilities while providing high quality support/
products for DOD acquisition and Science and Technology (S&T) community 
customers. The 2009 study did recommend $6.4 million as the annual 
required funding versus the $2.8 million that the Army has funded since 
2010. However, the efficiencies gained by the command realignment 
described above as well as additional funding from the Office of the 
Secretary of Defense (OSD) Central Test and Evaluation Investment 
Program (CTEIP) and the Test and Evaluation (T&E)/S&T Program 
(approximately $12 million over the last 10 years) have continued to 
keep the instrumentation at the appropriate level. HELSTF remains the 
Office of the Secretary of Defense-designated site for High Energy 
Laser testing and is a key asset for all DOD Components in the 
development of these weapons systems. As new requirements arise, they 
are addressed by Army, OSD CTEIP, and OSD T&E/S&T resourcing solutions, 
and the Department will ensure funding is adequate to meet 
requirements.
               remotely piloted aircraft training mission
    Question. The Remotely Piloted Aircraft (RPA) training mission at 
Holloman continues to grow as the mission requirements and demands for 
RPA's increases. How does this budget support these increased 
requirements, and what is our strategy to retain current and future RPA 
pilots and sensor operators?
    Answer. The Air Force MQ-9 Program of Record Steady State capacity 
is 60 combat air patrols (CAPs) per day. However, the Office of the 
Secretary of Defense directed the Air Force to use OCO funding to 
support an additional 10 government-owned, contractor operated (GOCO) 
CAPs, increasing combatant commander capacity to 70. To address force 
health in the fiscal year 2017 President's Budget request, the Air 
Force doubled Undergraduate RPA training, funded a third initial 
qualification training squadron, and kept two operational squadrons, 
slated for divestiture, through fiscal year 2017. We are also 
converting to an MQ-9 only fleet in order to reduce training, 
maintenance and sustainment burdens on our Total Force and streamlining 
the Air National Guard MQ-9 enterprise to help supplement the Active 
Duty force. Finally, we are analyzing a number of initiatives under the 
Culture and Process Improvement Program to normalize MQ-9 operations 
over the mid- and far-term.
                           syria troop levels
    Question. Are there any future plans to send additional troops to 
Syria during this calendar year?
    Answer. The President recently approved sending up to 250 
additional troops to Syria to support indigenous counter-ISIL forces, a 
key component in our approach to defeat ISIL. At this time I have not 
recommended sending any additional troops beyond the additional 250 to 
Syria. That said, the Department is constantly looking to build upon 
success and adapt the military capabilities we are using to defeat 
ISIL. If it becomes apparent that additional U.S. forces in Syria could 
deliver strategic affects, I would not hesitate to recommend an 
increase in those forces.
                                 mosul
    Question. Does the Department of Defense have adequate resources 
and confidence in the Iraqi military to respond to a potential 
humanitarian disaster if the Mosul dam fails? If not, what more can be 
done to help prepare the Iraqi people and their government for such a 
possibility?
    Answer. The Mosul Dam faces a serious risk of catastrophic failure 
with little warning. A catastrophic breach of the Mosul Dam would 
result in severe loss of life, mass population displacement, and 
destruction of the majority of the infrastructure within the projected 
flood-wave path.
    The number and spread of people in need along the 300-mile flood 
path will likely overwhelm the capacity of the Iraqi government and any 
one humanitarian aid actor to provide assistance. This suggests a need 
for an international, coordinated response to help meet potential 
widespread needs.
    The U.S. Government continues to coordinate with the Iraqi 
government on early warning and education strategies, including early 
warning systems and communication plans. The United States also 
continues to encourage donors and non-governmental organizations to 
prepare for a potential catastrophic failure of the Mosul Dam. Key 
preparedness activities include flood awareness messages, 
communications, response planning, and the mapping of priority 
locations at risk of flooding. The Iraqi military will play a part in 
the response to any failure of the Mosul Dam, but unlike the U.S. 
military, the Iraqi military's capability and contribution are very 
limited given its ongoing fight against the Islamic State of Iraq and 
the Levant (ISIL) and poor logistics and supply systems. Should the 
Mosul Dam fail, the U.S. Department of Defense will support the U.S. 
Agency for International Development (USAID) with its humanitarian 
response, including with transportation for assessments and urgent 
life-saving needs.
          sandia infrastructure simulation and analysis center
    Question. The Department of Homeland Security currently utilizes a 
Sandia program called the national Infrastructure Simulation and 
Analysis Center. This program assesses the technical, economic, and 
national security implications of infrastructure in terms of 
protection, risk mitigation, event response, and event recovery. This 
is a capability, that if expanded for international analysis, that 
could benefit policy makers and decision makers at the Department of 
Defense, Department of Energy, State Department, and USAID. Do you 
believe that this tool would benefit decision makers at the Department 
of Defense and would you support the expansion of this program for use 
by other departments to support our interests overseas?
    Answer. The Department of Defense (DOD) leverages the Department of 
Homeland Security's (DHS) analytic capabilities to assist with 
identifying and addressing risk to DOD missions. If DHS expands its 
analysis work with the National Infrastructure Simulation and Analysis 
Center to include international analysis, the DOD would explore 
additional possibilities to partner with DHS to enhance and complement 
its internal modeling, simulation, and analysis capabilities. The DOD 
values its existing interagency partnerships, including those with DHS. 
The DOD recognizes the importance of the reliability and resilience of 
infrastructure such as power, water, and telecommunications that are 
outside the purview of DOD, both domestically and overseas. The DOD 
understands that a failure of supporting infrastructure could 
jeopardize mission execution.
                         small micro-satellites
    Question. How important are small micro-satellites for the 
Department of Defense's space strategy, and how are you working with 
private industry to increase access to space via microsatellites? Do 
you agree that Operational Responsive Space is still an important part 
of this strategy, and is there a possibility that the Department of 
Defense could better utilize private infrastructure such as the 
Spaceport in southern New Mexico?
    Answer. The DOD sees potential in micro-satellites and recognizes 
that contributions from private industry can provide new and innovative 
opportunities to operate to, through and from space. Operationally 
Responsive Space (ORS) can and does contribute to the overall strategy, 
especially as a means of engaging with industry. For example, the ORS 
Office is collaborating with Raytheon Missile Systems and Rincon 
Research Corp to prototype responsive, semi-autonomous manufacturing of 
cubeSats using existing infrastructure in Tuscon, AZ.
    The form factor of microsatellites and cubeSats can simplify 
payload integration and could open up the possibility for a wider range 
of launch providers and platforms that may operate from a spaceport. 
The Air Force's Rocket Systems Launch Program and ORS office are making 
use of state sponsored spaceports, including Spaceport America in New 
Mexico where ORS has, to date, sponsored four launches.
                              third offset
    Question. You recently reached out to Silicon Valley and other hubs 
of innovation as you touted the Department of Defense's third offset. 
As you move forward I would like to encourage you to engage with 
employees and contractors at the National Labs as well. Will you reach 
out to these employees and private businesses in New Mexico and 
elsewhere?
    Answer. As its name implies, Defense Innovation Unit Experimental 
(DIUx) is just that, an ``experiment.'' We hope to evolve DIUx as a 
model that captures the engagement practices for DOD to operate in a 
technology ecosystem by identifying and leveraging novel technology, 
business practices, and ideas from non-traditional sources as well as 
providing the technology ecosystem's insights into DOD inventions that 
may have commercial value. Our current activities in Silicon Valley and 
the recently announced office in Boston represent the Department's 
initial tests of this strategy. We hope this experiment proves 
successful as a model for how the Department can interact with other 
technology clusters, including the national labs across the country, 
including New Mexico, to help find and accelerate novel technology 
adoption that will increase our country's competitive advantage. Thank 
you for your interest in the DIUx concept and your support of our 
Nation's defense.
             german air force to depart holloman air force
    Question. With the recent decision by the German Air Force to 
depart Holloman Air Force at the end of 2019, there is an opportunity 
for expansion at the base. Either through a new domestic mission or a 
training mission with one of our numerous allies. What options are the 
Department of Defense considering for a new mission at Holloman? Is the 
Department of Defense reaching out to allies to determine if there is 
interest in a training mission at Holloman? As the United States 
continues to pivot towards the Pacific, is there an opportunity for a 
partner such as Japan or the Republic of Korea to take on this 
opportunity? Both partners are expanding their Air Forces and require 
access to airspace which is diminishing in their countries due to 
commercial air traffic, while airspace in New Mexico remain plentiful. 
Would you agree that the United States and its allies would benefit 
from such close training and coordination?
    Answer. The Department of Defense values training partnerships with 
our allies and partners, and we will continue to seek new opportunities 
that are in our mutual interests. I agree that the United States and 
our allies and partners benefit from close training and coordination. 
Since we received the official notification from Germany on the 
departure of the German Air Force, we have not yet had the opportunity 
to match Holloman's facilities with a requirement from another ally or 
partner nation or with a new domestic mission. We are in very 
preliminary requirements discussions with allies and partners on this 
matter.
    As for Japan and the Republic of Korea, neither country has 
expressed an interest in allocating aircraft to new missions away from 
their homelands as this would require taking operational assets away 
from homeland defense. However, as both nations procure new aircraft in 
accordance with their modernization plans, their training needs might 
present an opportunity for training in the United States, possibly at 
Holloman Air Force Base.
                                 ______
                                 
          Question Submitted to General Joseph F. Dunford, Jr.
             Question Submitted by Senator Patrick J. Leahy
                operational use of the reserve component
    Question. I am proud that the 86th Infantry Brigade Combat Team of 
the Vermont National Guard has been selected by the Army to associate 
with the 10th Mountain Division in the new pilot program, building on a 
relationship that has been strong for many years. This association is 
in the spirit of the recommendations on the Commission on the Future of 
the Army that Senator Graham and I proposed 2 years ago, and the 
concept of an operational reserve. How important is keeping the Reserve 
Components operational for the future? How can we better plan for using 
units from the Reserve Component for predictable missions?
    Answer. It is absolutely essential that the Reserve Component (RC) 
remain operational in the future. With constrained defense budgets, 
reductions in military end strength, and the increase of transregional, 
multi-functional, and multi-domain threats, the Reserve Components are 
indispensable to their Service and are a major part of the Total Joint 
Force.
    Congress' support to programs like the Army's Associate Unit 
Program significantly adds to our joint readiness and joint warfighting 
capability, and our ability to use Reserve Component units for 
predictable missions.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Until then, the subcommittee will stand in 
recess.
    [Whereupon, at 12:06 p.m., Wednesday, April 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
